Department of the Navy Fiscal Year 2013 Annual Financial Report

Protecting Freedom Under Extraordinary
Circumstances




2013
Department of the Navy Fiscal Year 2013 Annual Financial Report

       Protecting Freedom
Under Extraordinary Circumstances
Heaving the phone and distance line aboard an amphibious transport dock
ship while conducting a replenishment-at-sea. (U.S. Navy photo by Mass
Communication Specialist 2nd Class Gary Granger Jr./Released)




                        Table of Contents

                         Message from the Secretary of the Navy  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

                         Message from the Assistant Secretary of the Navy
                         (Financial Management & Comptroller) . .  . .  . .  . .  . .  . .  . .  . .  . .  . .  . .  . .  . 3

                         Management’s Discussion and Analysis . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . 5

                         Audit Opinions . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . .   . . 39

                         Department of the Navy Principal Statements  . .   . .   . .   . .   . .   . .   . .   . .   . .   . . 57

                         Department of the Navy Required Supplementary Stewardship Information . . 91

                         Department of the Navy Required Supplementary Information . .   . .   . .   . .   . . 99

                         Department of the Navy Other Accompanying Information  . .  . .  . .  . .  . .  . 107

                         Navy Working Capital Fund Principal Statements  . .   . .   . .   . .   . .   . .   . .   . .   .  113

                         Navy Working Capital Fund Required Supplementary Information . .   . .   . .   . 137

                         Navy Working Capital Fund Other Accompanying Information . .  . .  . .  . .  . 139
                                                                      THE SECRETARY OF THE NAVY
                                                                        WASHINGTON, DC 20350-1000




                                                     December 2013
                                                     The unique ability to provide a constant global presence is the essence of the Department of
                                                     the Navy. For over 238 years, our brave Sailors and Marines have deployed in times of peace
                                                     and war to protect our national interests, deter our potential enemies and reassure our allies
                                                     and partners. As the most formidable expeditionary fighting force the world has ever known,
                                                     our uniformed and civilian Sailors and Marines provide unsurpassed military capability and
                                                     compassionate humanitarian aid wherever catastrophe strikes. Time and again, our people, our
                                                     greatest military advantage, have risen to the occasion, providing the presence that enables us to
                                                     be in the right place, not just at the right time, but all the time. It is truly an honor to work with
                                                     such an outstanding team of men and women who sacrifice so much to protect our great nation
                                                     and democratic ideals.
                                                     During 2013, the DON remained vigilant in addressing actions associated with the end of Iraqi
                                                     operations and in preparing for the 2014 drawdown in Afghanistan, while carrying out current
                                                     missions in dangerous environments.We successfully navigated the challenges of sequestration in
                                                     2013 and are positioning ourselves for reduced budgets, as we transition from a period of war
                                                     spending to prepare to meet future threats.
                                                     Our focus has been on what we call the “Four P’s”— People: taking care of those who sacrifice
                                                     so much for our country, such as our wounded warriors; Platforms: continuing efforts to build
                                                     ships, aircraft, submarines, unmanned vehicles, and hardware needed to combat future threats;
                                                     Power: pursuing energy efficiencies and alternative energy sources to reduce our use of fossil
                                                     fuels and build a green fleet; and Partnerships : improving relations throughout the world through
                                                     collaboration.
                                                     We continue to strengthen our financial and business operations and to enhance the quality of
                                                     underlying financial and performance information.The importance of sound financial management
                                                     is magnified in times of reduced budgets. Our commitment to efficient, accountable, and
                                                     transparent financial processes has the strong support of our senior military and civilian leaders.
                                                     The DON’s Fiscal Year 2013 Annual Financial Report, Protecting Freedom Under Extraordinary
                                                     Circumstances, highlights our mission, goals, and accomplishments. It demonstrates our
                                                     commitment as fiscal stewards to spend funds entrusted to us wisely – for the right reasons, at the
                                                     right time, to meet our highest priorities – with full accountability and transparency for results in
                                                     accomplishing our mission to protect the United States and make the world a safer place.
                                                     The significant accomplishments of the DON during fiscal year 2013 are a testament to our people.
                                                     We are proud to serve our country and commit to the American public continued unparalleled
                                                     power at sea through a strong, flexible, and efficient fighting force.



                                                                                                  Ray Mabus

2   Department of the Navy Fiscal Year 2013 Annual Financial Report
       THE ASSISTANT SECRETARY OF THE NAVY
         (FINANCIAL MANAGEMENT AND COMPTROLLER)
                     1000 NAVY PENTAGON
                 WASHINGTON, DC 20350-1000


November 2013
Navy and Marine Corps financial managers continue to provide exceptional support to the
world’s finest expeditionary force as it carries out the Department of the Navy’s mission
around the globe in defense of our nation.We are proud to contribute to the effective and
efficient deployment of resources across the DON, while ensuring public confidence that
the Department is spending its dollars wisely to meet its highest mission priorities and can
provide a full accounting for its costs and results.
This year introduced a new set of financial challenges as the DON operated for six months
under a continuing resolution and absorbed $4.3 billion in sequestration reductions to its
operations and maintenance funding.
These reductions were effectively managed through aggressive initiatives to reduce costs
while protecting essential mission funding directly supporting warfighter readiness. The
Department was forced to cancel surface ship and aircraft maintenance periods for the last
six months of the fiscal year; delay maintenance of runways, roads, and buildings; reduce
steaming and flying hours; and unfortunately, furlough civilian employees. Costs associated
with travel, training, major acquisitions and base maintenance were reduced through
improvements to business operations such as the increased use of electronic commerce
and learning. While near term readiness and warfighting needs were met, the longer term
impact of programmatic reductions has yet to be fully felt and assessed.
The Department remains mindful of fiscal challenges as we move into 2014 and remains
committed to the ongoing transformation of our financial enterprise. Audit readiness
remains a top priority as we work to strengthen and streamline financial management
operations, systems and internal controls; expand the use of data analytic tools; promote
standardization; and enhance our financial workforce through the Department of Defense
financial management certification program.
The civilian and military leaders in the Department are committed to effectively and
efficiently managing the resources entrusted to us with the highest degree of integrity and
dedication on behalf of the American people we are so honored to serve.
The DON’s FiscalYear 2013 Annual Financial Report, Protecting Freedom Under Extraordinary
Circumstances, recognizes our significant efforts to continue improving financial management,
performance, accountability and transparency.




                                        S.J. Rabern




                                                                                 Messages       3
Protecting Freedom Under Extraordinary Circumstances




4    Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

Management’s Discussion and Analysis




                                                      Management’s Discussion and Analysis   5
A Boatswain’s Mate directs an aircraft before it takes off from the flight deck
aboard an amphibious assault ship in support of maritime security operations and
theater security cooperation efforts. (U.S. Navy photo by Mass Communication
Specialist 3rd Class Brian Jeffries/Released)




               Overview
     The Department of Defense includes three military departments (Department of the Army, Department of
     the Navy, and Department of the Air Force); however, there are four separate service branches (Army, Navy,
     Marine Corps, and Air Force). Since 1834, the Navy and Marine Corps have been housed together under the
     Department of the Navy.
     The United States Navy was founded on 13 October 1775, and the Department of the Navy (DON) was
     established on 30 April 1798. The Department of the Navy has three principal components: the Navy
     Department, consisting of executive offices mostly in Washington, D.C.; the operating forces, including the
     Marine Corps, the reserve components, and, in time of war, the U.S. Coast Guard (in peace, a component of the
     Department of Homeland Security); and the shore establishment. The Department of the Navy consists of two
     uniformed Services: the United States Navy and the United States Marine Corps.
     The United States Marine Corps was founded by an act of the Second Continental Congress on 10 November
     1775. As the nation’s Expeditionary Force in Readiness, the Marine Corps provides power projected from the
     sea, utilizing the mobility of the U.S. Navy to rapidly deliver combined-arms task forces in coastal regions or
     emergent global crises. The Marine Corps has evolved into a balanced air-ground task force with significant
     logistical capabilities in forward deployed and forward engaged areas shaping, training, deterring, and responding
     to all manner of crises and contingencies.
     During Fiscal Year 2013 we were reminded of the enduring service, sacrifice, and dedication of our Sailors,
     Marines, and civilians as they protect our freedom under extraordinary circumstances. Afloat and in the field,
     our Sailors and Marines contributed to overseas contingency operations in Afghanistan, a successful conclusion
     of the war in Iraq, and a wide range of operations including maritime security, stabilization, homeland security,
     counterterrorism, and disaster relief. At home, the Navy family was shaken by a senseless act of violence at
     the Washington Navy Yard that cost the lives of twelve Naval Sea Systems Command civilians who loved their
     country, loved their Navy, and loved the fleet that they helped build and sustain. Their contributions and memory
     will endure in the hearts of our nation and the Navy family. In the wake of the devastating events at the Navy
     Yard, the Navy has rallied together in support of all who were affected by this shocking tragedy. This event has
     also caused the Department to reassess security around all naval bases and installations. The Navy established the
     Emergency Family Support Task Force for people and organizations interested in providing support for families of
     the victims involved in the Washington Navy Yard shooting.

6       Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                            Checking bearings in the pilot house of a guided-missile frigate as the ship
                                                            prepares to enter the Panama Canal. (U.S. Navy photo by Lt. Cmdr. Corey
                                                            Barker/Released)




The DON continues to operate forward across the globe, providing the nation offshore options to deter and
defeat aggression today and in the future. The Navy and Marine Corps team provides unique capabilities that
will prove crucial as our Nation’s strategic focus shifts to the Asia-Pacific region. The mobilization of warships
will be accompanied by an increase in the number of military exercises conducted by the Pentagon in the region,
involving air, sea, and land forces. Most will be carried out in conjunction with countries that are openly or
tacitly allied with the U.S., including Japan, South Korea, Australia and the Philippines. Essential to the National
Defense strategy are the DON’s efforts to strengthen alliances and partnerships in the Asia-Pacific region to
advance a common security vision for the future. The DON plans to develop military to military relations by
creating teams to work on difficult issues such as cyber threats.
The DON has employed strategic partnerships to combat today’s extraordinary challenges, showcasing our
commitment to improving relations throughout the world and protecting our independence. The Navy and
Marine Corps have conducted integrated operations in an effort to address the needs in the Mediterranean
and Middle East. As the war in Afghanistan nears its end and demands for naval crisis response grow, working
together is the only way to protect freedom. The DON will continue its investment in critical alliances such as
the North Atlantic Treaty Organization (NATO).
The DON will face additional challenges in meeting its mission, as budget constraints have led to a leaner
workforce. In order to prioritize resources, the DON has instituted the 21st Century Sailor and Marine
initiative. This initiative defines a set of objectives and policies around a broad definition of wellness to maximize
every Sailor and Marine’s personal readiness to contribute to the DON’s mission. In the second year of
implementation, the program has maximized Sailor and Marine personal readiness and built resiliency to improve
the most combat-effective force in the history of the Navy and Marine Corps. In an era of budget cuts, the
DON has remained focused on maintaining U.S. maritime dominance by having Sailors and Marines continue to
promote security, stability, and trust around the world. Together, the DON has provided a persistent forward
presence, power projection abroad, and protection of the world’s sea lanes.
Although this is an era of reduced budgets and The Budget Control Act of 2011 mandates a reduction of Federal
spending, the DON will continue to operate as it does. As such, the DON is dedicated to cutting costs in the
coming years by reducing the cost of doing business, promoting acquisition excellence, driving innovative
transformation, and leading the nation in sustainable energy. While the DON maintains a healthy industrial base

                                                                                          Management’s Discussion and Analysis             7
A marine breaks during a patrol with the Afghan National Civil Order of Policemen
in Afghanistan. (U.S. Marine Corps photo by Combat Camera)




     to ensure future innovation and technological advances, the DON remains focused on identifying efficiencies to
     tighten budget execution while better aligning weapon system procurements with future mission requirements.
     As such, the DON has decreased the construction of new ships, terminated the procurement of the ocean
     surveillance ship and reduced and/or delayed the procurement of various other projects.
     Readily available energy is essential for deploying our Sailors and Marines around the globe in support of
     our nation’s interests. Since our operational flexibility and sustainability are directly linked to our energy
     supplies, energy reliability is a strategic concern for our forces. The potential vulnerability of energy supplies
     could threaten our ability to perform on the battlefield, and energy costs siphon resources from war fighting
     requirements. Therefore, the DON is working to develop greater energy independence and conservation ashore
     and afloat. Energy reform improves the capability and efficiency of ships, aircraft and weapon systems, and
     ultimately makes us better warfighters and ensures the safety of our Sailors and Marines. In the fall of 2009,
     Secretary Mabus set an ambitious energy goal for the Navy and Marine Corps that, by no later than 2020, at least
     half of all the energy used by the two services, both afloat and ashore, will come from non-fossil fuel sources. At
     the same time, at least half of all bases will be net-zero in terms of consumption, and in many cases returning
     power to the grid rather than pulling from it.
     The Navy and Marine Corps continued to make significant progress toward reaching the Secretary’s energy goals
     in 2013. The Navy is also working to improve the efficiency of bases by monitoring electricity usage in buildings,
     signing contracts for larger uses of solar power, and is considering geothermal, hydrothermal, wave, solar, and
     wind. This commitment to changing the way energy is used and produced will help the Navy in preserving the
     environment and planning for and mitigating the harmful effects of climate change. The Navy’s priorities include
     developing clear goals and performance assessments that will help to transform the entire department. The Navy
     continues to focus on sustainable energy by offering military contract opportunities to small businesses with
     sustainable energy programs, pilots, and initiatives. The Navy’s efforts to support a clean energy economy will
     make Americans better stewards of our planet.
     The DON recognizes the value of investing in audit readiness as part of the Department of Defense (DoD)
     mission. The path to auditability will result in improved stewardship, reduced cost of business operations,



8       Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                          Pacific Partnership 2013 personnel man the rails on the amphibious dock landing
                                                          ship USS Pearl Harbor. (U.S. Navy photo by Mass Communication Specialist 3rd
                                                          Class Samantha J. Webb/Released)




and compliance with Congressional direction. In FY 2013, the U.S. Marine Corps continued the Statement
of Budgetary Resources (SBR) audit. Concurrently, the DoD Financial Improvement and Audit Readiness
(FIAR) team is preparing the rest of the Department for SBR audit readiness, with focused efforts to ready
people, processes, and business systems for a financial audit. The DON understands fundamental improvements
that establish tighter internal controls and more standardized processes are needed within its operations. To
standardize and enforce uniform business processes, especially within disparate commands, the DON is in the
process of fully implementing the Navy Enterprise Resource Planning (ERP) system across all Commands.
The DON has employed control gap analysis to identify when a command’s process and/or controls differ
significantly from suggested controls, allowing the DON to track and address significant deviations.
The DON continues to demonstrate its commitment to effectively managing and mitigating risks while making
progress toward desired mission outcomes by establishing objectives for FY 2014 and beyond. Given the current
climate of budgetary restrictions and uncertainty, it is critical that the DON tracks progress and monitors change
pertaining to the following high priority objectives:
  n	   Take Care of Our People
  n	   Maintain Warfighter Readiness in an Era of Reduced Budgets
  n	   Lead the Nation in Sustainable Energy
  n	   Promote Acquisition Excellence and Integrity
  n	   Dominate in Unmanned Systems
  n	   Drive Innovative Enterprise Transformation




                                                                                      Management’s Discussion and Analysis             9
                                                                       A naval aircrewman assists the pilot of an MH-60S Sea Hawk
                                                                       helicopter while conducting a vertical replenishment with an
                                                                       aircraft carrier. (U.S. Navy photo by Mass Communication
                                                                       Specialist 3rd Class Jamie V. Cosby/Released)




 To maintain, train, and
 equip combat-ready
 Naval forces capable
 of winning wars,
 deterring aggression,
 and maintaining
 freedom of the seas.
                         -Department of the Navy Mission




10   Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                            FOUNDED 30 APRIL 1798
                                                                   Title 10 U.S. Code, Section 5061


                                                            SECRETARY OF THE NAVY
                                                             UNDER SECRETARY OF THE NAVY



  Assistant Secretary                 Assistant Secretary                 Assistant Secretary             Assistant Secretary             General Counsel of
     of the Navy                         of the Navy                          of the Navy                    of the Navy                   the Department
  (Research, Development                     (Manpower                      (Financial Management            (Energy, Installation,
       & Acquisition)                     & Reserve Affairs)                     & Comptroller)                and Environment)              of the Navy




                               CHIEF OF NAVAL                                                                    COMMANDANT OF THE
                                OPERATIONS                                                                         MARINE CORPS



                                                                                                                                               U.S. Marine Corps
     U.S. Navy                      U.S. Navy                    U.S. Navy                   U.S. Marine Corps        U.S. Marine Corps
                                                                                                                                                  Supporting
 Shore Establishment                Reserves                   Operating Forces              Operating Forces             Reserves
                                                                                                                                                 Establishment

 *Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.




       Organization and Mission
The Department of the Navy, established on 30 April                                         programs that are consistent with the national security
1798, has three principal components: The Department                                        policies and objectives established by the President and the
headquarters, consisting of executive offices mostly in                                     Secretary of Defense. Under the purview of the SECNAV
Washington, D.C.; the Naval and Marine Corps operating                                      are the Under Secretary of the Navy, four Assistant
and reserve components, and the shore establishment.                                        Secretaries of the Navy, the General Counsel, and two key
In time of war, the U.S. Coast Guard (a component of the                                    military leaders—the Chief of Naval Operations, a four-
Department of Homeland Security during peacetime) is                                        star Admiral, responsible for the command and operating
under the operational control of the Department of the                                      efficiency of the U.S. Navy, and the Commandant of the
Navy. All are structured to respond to a broad range of                                     Marine Corps, a four-star General responsible for the
mission priorities that preserve the nation’s freedom and                                   performance of the U.S. Marine Corps.
protect U.S. global interests.
                                                                                            The U.S. Navy and the U.S. Marine Corps have
The Secretary of the Navy (SECNAV), a civilian                                              numerous commands that operate under the authority
appointed by the President, is responsible for, and has                                     and responsibility of a commander or other designated
authority under title 10 of the United States Code, to                                      official and typically support a network of subordinate
conduct all the affairs of the DON, including recruiting,                                   commands. Each command has a clearly defined
organizing, supplying, equipping, training, mobilizing,                                     mission that contributes to the DON’s overall mission in
and demobilizing. The SECNAV also oversees the                                              support of the Department of Defense’s responsibilities.
construction, outfitting, and repair of naval ships,                                        Both Services provide ready forces to support the
equipment, and facilities. The SECNAV is responsible                                        U.S. joint military commands in conducting their
for the formulation and implementation of policies and                                      worldwide missions.

                                                                                                                      Management’s Discussion and Analysis     11
                                                                             assigned by the Secretary. The Navy operating forces
                                                                             commanders and fleet commanders have a dual chain of
                                                                             command. Administratively, they report to the Chief
                                                                             of Naval Operations and provide, train, and equip naval
                                     U.S. Navy                               forces. Operationally, they provide naval forces and report
The United States Navy was founded on 13 October                             to the appropriate Unified Combatant Commanders.
1775. The mission of the Navy is to maintain, train and                      The Commander of the Fleet Forces Command controls
equip combat-ready Naval forces capable of winning                           fleet assets on both the Atlantic and Pacific coasts for
wars, deterring aggression and maintaining freedom of                        interdeployment training cycle purposes. As units of the
the seas. It is overseen by the Chief of Naval Operations                    Navy enter the area of responsibility for a particular Navy
(CNO), and consists of the Operating Forces and Shore                        area commander, they are operationally assigned to the
Establishment. The Chief of Naval Operations is the                          appropriate numbered fleet. All Navy units also have an
senior military officer in the Navy. The CNO is a member                     administrative chain of command with the various ships
of the Joint Chiefs of Staff, and is the principal naval                     reporting to the appropriate Type Commander. The
advisor to the President and to the Secretary of the Navy                    shore establishment provides support to the operating
on the conduct of war. He is also the principal advisor                      forces (known as “the fleet”) in the form of: facilities for
and naval executive to the Secretary on the conduct                          the repair of machinery and electronics; communications
of naval activities of the Department of the Navy. The                       centers; training areas and simulators; ship and aircraft
CNO’s office is responsible for the command, utilization                     repair; intelligence and meteorological support; storage
of resources and operating efficiency of the operating                       areas for repair parts, fuel, and munitions; medical and
forces of the Navy and of the Navy shore activities                          dental facilities; and air bases.


                                     The Department of the Navy Assistant for Administration (AA)
                                     The Department of the Navy Assistant for       divisions focused on customer service,
                                     Administration provides administrative         directives and records management, contract
                                     management and support to the Office of        management, executive dining, facilities and
                                     the Secretary of the Navy (SECNAV), its        support services, financial management,
                                     6,000 member Secretariat, staff offices, field human resources, information technology, and
                                     activities and supported organizations. The    security. DON/AA has 120 personnel and is
                                     command is comprised of administrative         headquartered at the Pentagon in Arlington, VA.
                                     U.S. Fleet Forces Command (COMUSFLTFORCOM)
                                     The U.S. Fleet Forces Command supports         Anti-Terrorism/Force Protection (ATFP),
                                     both the Chief of Naval Operations (CNO)       Individual Augmentees (IA), and Sea Basing.
                                     and Combatant Commanders worldwide             In collaboration with U.S. Pacific Fleet, U.S.
                                     by providing responsive, relevant,             Fleet Forces Command organizes, mans, trains,
                                     sustainable Naval forces ready-for-tasking.    maintains, and equips Navy forces, develops and
                                     COMUSFLTFORCOM provides operational            submits budgets, and executes readiness and
                                     and planning support to Combatant              personnel accounts to develop both required
                                     Commanders and integrated warfighter           and sustainable levels of fleet readiness. The
                                     capability requirements to the CNO.            U.S. Fleet Forces Command has 368 personnel
                                     Additionally, U.S. Fleet Forces Command serves and is headquartered in Norfolk, VA.
                                     as the CNO’s designated Executive Agent for
                                     Commander, U.S. Pacific Fleet
                                     The Commander, U.S. Pacific Fleet is the           Commands that fall directly under the Pacific
                                     world’s largest fleet command, encompassing        Fleet include “type” commands for surface ships,
                                     100 million square miles, more than half the       submarines, aircraft, and Navy construction.
                                     Earth’s surface. The Pacific Fleet consists of     Operational commands that report directly to
                                     approximately 180 ships, nearly 2,000 aircraft     the U.S. Pacific Fleet include Third Fleet in the
                                     and 125,000 Sailors, Marines and civilians.        Eastern Pacific and Seventh Fleet in the Western

12    Department of the Navy Fiscal Year 2013 Annual Financial Report
Pacific and Indian Ocean. U.S. Pacific Fleet            partners, U.S. Pacific Fleet enhances stability,
protects and defends the collective maritime            promotes maritime security and freedom of
interests of the United States and its allies and       the seas, deters aggression, and when necessary,
partners in the Asia-Pacific region. In support         fights to win. Pacific Fleet is headquartered in
of U.S. Pacific Command and with allies and             Pearl Harbor, Hawaii.
Naval Sea Systems Command (NAVSEA)
The Naval Sea Systems Command has a force               of directing resource sponsors into the proper
of 60,000 civilian, military and contract               mix of manpower and resources to properly
support personnel. NAVSEA engineers,                    equip the fleet. NAVSEA has the further
constructs, procures, and maintains the                 responsibility of establishing and enforcing
Navy’s ships and submarines and their combat            technical authority in combat system design and
systems. To accomplish this, NAVSEA manages             operation. These technical standards use the
150 acquisition programs and manages foreign            organization’s specialized expertise to ensure
military sales cases that include billions of dollars   systems are engineered effectively, and that
in annual military sales to partner nations.            they operate safely and reliably. The NAVSEA
NAVSEA strives to be an efficient provider of           organization has 33 activities in 16 states and is
defense resources for the nation, and it plays          headquartered at the Washington Navy Yard in
an important role in the Navy Enterprise. As            Washington, D.C.
a Provider Command, it has the responsibility
Commander, Navy Reserve Force (CNRFC)
Commander, Navy Reserve Force Command,                  Total Force. The Navy Reserve provides
also known as the U.S. Navy Reserve Force,              essential warfighting capabilities and expertise,
delivers strategic depth and operational                strategically aligned with mission requirements,
capability to the Navy, Marine Corps, and               valued for readiness, innovation, and agility.
Joint Forces by providing mission-capable units         The military component of the Navy Reserve
and individuals in support of the full range            represents only six percent of the Navy’s total
of operations, from peace to war. The Navy              military personnel budget but is a significant
Reserve Force represents approximately ten              force multiplier for the active Navy. CNRF is
percent, or 59,100 personnel, of the Navy               headquartered in Norfolk, VA.
Bureau of Medicine and Surgery (BUMED)
The Navy Bureau of Medicine and Surgery                 physical and mental wellbeing of troops and
provides high quality health care to beneficiaries      civilians. Navy Medicine’s military and civilian
in wartime and in peacetime, under the                  health care professionals also provide care
leadership of the Navy Surgeon General. Highly          for uniformed services’ family members and
trained Navy Medicine personnel deploy with             retirees at military treatment facilities around
Sailors and Marines worldwide - providing               the globe. BUMED has 63,000 active duty
critical mission support aboard ship, in the air,       personnel and reservists, government civilians
under the sea and on the battlefield. The Navy          and contractors of Navy Medicine engaged in
Medicine team of physicians, nurses, corpsmen,          all aspects of expeditionary medical operations
dentists and mental health providers work in            in support of the warfighter. BUMED is
tandem with the Army and Air Force medical              headquartered in Falls Church, VA.
personnel and coalition forces to ensure the
Bureau of Naval Personnel (BUPERS)
The Bureau of Naval Personnel provides                  possible. BUPERS also provides support
administrative leadership, policy planning,             services to sailors and is dedicated to ensuring
and general oversight for all Navy personnel.           sailor readiness and quality of life through its
BUPERS strives to support the needs of the              myriad of professional and personal/family
DON by providing the fleet with the right               focused programs. To that end, BUPERS
person in the right place at the right time, using      provides financial and support services for
the most efficient human resource processes             several other Navy commands, including Naval

                                                                   Management’s Discussion and Analysis   13
                                    Education and Training Command (NETC),                  has 150 civilian personnel at its Arlington, VA
                                    Navy Recruiting Command (NRC), and the                  location and 1,537 civilian personnel at the
                                    three Navy educational institutions. BUPERS             Millington, TN  location.
                                    Commander Navy Installations Command (CNIC)
                                    Commander, Navy Installations Command is         approximately 58,000 personnel in 11 regions,
                                    responsible for Navy-wide shore installation     70 Installations and 126 Naval Operations
                                    management. CNIC enables and sustains naval      Support Centers. CNIC has overall shore
                                    forces from the shore by designing, developing   installation management responsibility and
                                    and delivering integrated shore capabilities     authority as the Budget Submitting Office
                                    to our fleet, the fighter and the family. The    for installation support and the Navy point of
                                    programs and services launch every shore-        contact for installation policy and program
                                    based ship, submarine and aircraft and take care execution oversight. CNIC is headquartered in
                                    of every sailor and their families. CNIC has     Washington, D.C.
                                    Field Support Activity (FSA)
                                    Field Support Activity establishes, maintains           corrective action. Additionally, FSA approves/
                                    and provides a system of financial services as the      allocates the Official Representation Funds
                                    Budget Submitting Office (BSO) and Principal            (ORF) for Director, Navy Staff (DNS), and
                                    Administering Office (PAO) for assigned unified         Chief of Naval Operations (CNO) activities,
                                    commands, Navy Headquarters and activities.             and plans and programs for current and future
                                    FSA initiates action in matters pertaining to           resource requirements for activities within the
                                    the provision of funds, manpower and contract           DNS sponsorship. FSA has 37 personnel and is
                                    management; evaluates resource utilization;             headquartered at the Washington Navy Yard in
                                    and, initiates or recommends appropriate                Washington, D.C.
                                    Military Sealift Command (MSC)
                                    The Military Sealift Command operates                   worldwide. Five operational commands
                                    approximately 110 non-combatant, civilian-              function in the Atlantic, Pacific, Europe/
                                    crewed ships that replenish U.S. Navy ships,            Africa, Central and Far East areas. MSC is
                                    conduct specialized missions, and strategically         headquartered in Washington, D.C. and Norfolk,
                                    preposition combat cargo at sea around the              VA, with approximately 9,500 Department
                                    world and move military cargo and supplies used         of the Navy civilian employees supporting its
                                    by deployed U.S. forces and coalition partners.         mission worldwide.
                                    MSC operates six subordinate commands
                                    Naval Air Systems Command (NAVAIR)
                                    The Naval Air Systems Command has a force               Evaluation, Logistics and Industrial Operations,
                                    of 23,400 personnel focused on research,                Corporate Operations, Comptroller, and
                                    design, development, and systems engineering;           Counsel. NAVAIR provides support (people,
                                    acquisition; test and evaluation; training facilities   processes, tools, training, mission facilities, and
                                    and equipment; repair and modification; and             core technologies) to Naval Aviation Program
                                    in-service engineering and logistics support.           Executive Officers and their assigned program
                                    NAVAIR provides full life-cycle support of              managers, who are responsible for meeting the
                                    naval aviation aircraft, and weapon systems             cost, schedule, and performance requirements
                                    operated by Sailors and Marines. NAVAIR has             of their assigned programs. NAVAIR is the
                                    military and civilian personnel stationed at eight      principal provider for the Naval Aviation
                                    locations across the continental United States          Enterprise, while contributing to national
                                    and one site overseas. NAVAIR is organized              security. NAVAIR is headquartered in Patuxent
                                    into eight “competencies” or communities of             River, Maryland.
                                    practice including: Program Management,
                                    Contracts, Research and Engineering, Test and




14   Department of the Navy Fiscal Year 2013 Annual Financial Report
Naval Facilities Engineering Command (NAVFAC)
The Naval Facilities Engineering Command       specialists and professionals to manage the
delivers and maintains quality, sustainable    planning, design, construction, contingency
facilities, acquires and manages capabilities  engineering, real estate management,
for the Navy’s expeditionary combat forces,    environmental, and public works support for
provides contingency engineering response,     U.S. Navy shore facilities around the world. As
and enables energy security and environmental  a major Navy systems command and an integral
stewardship. NAVFAC is a global organization   member of the Navy and Marine Corps team,
with an annual volume of business in excess of NAVFAC delivers timely and effective facilities
$11 billion. NAVFAC has 18,000 Civil Engineer engineering solutions worldwide. NAVFAC has
Corps officers, civilians and contractors      13 component commands and is headquartered
who serve as engineers, architects, contract   at the Washington Navy Yard in Washington, D.C.
Naval Special Warfare Command (NSW)
The Naval Special Warfare Command’s mission          NSW Force is organized around eight SEAL
is to man, train, equip, deploy and sustain NSW      teams, one SEAL Delivery Vehicle Team, three
forces for operations and activities abroad          special boat teams and supporting commands
in support of combatant commanders and               which deploy forces worldwide to meet
U.S. national interests. NSW is comprised of         the requirements of theater commanders.
approximately 9,500 total personnel, including       NSW constitutes 11 percent of U.S. Special
2,600 active-duty Special Warfare Operators          Operations Forces and less than two percent
(SEALs), 700 Special Warfare Boat Operators,         of Navy forces. NSW is headquartered in San
745 reserve personnel, 4,250 support                 Diego, CA.
personnel, and more than 1,175 civilians. The
Naval Supply Systems Command (NAVSUP)
The Naval Supply Systems Command delivers            and providing material management and
sustained global logistics and quality of life       warehousing services. NAVSUP is responsible
support to the Navy, Marine Corps, and Joint         for many of the quality of life programs
warfighter. NAVSUP manages supply chains             including Navy Exchanges, Navy Lodges, the
that provide material for Navy aircraft, surface     Navy Personal Property Program, and the
ships, submarines and their associated weapon        Navy Postal System. Additionally, NAVSUP
systems and provides centralized inventory           administers the Navy Food Service Program.
management for Navy’s non-nuclear ordnance           NAVSUP is comprised of approximately
stockpile. NAVSUP provides a wide range              345 military personnel and more than
of base operating and waterfront logistics           24,000 employees. NAVSUP is headquartered
support services, coordinating material              in Mechanicsburg, PA.
deliveries, contracting for supplies and services,
Office of Naval Intelligence (ONI)
The Office of Naval Intelligence is the leading      the fleet, warfighters, the Navy acquisition
provider of maritime intelligence to the U.S.        community, national intelligence community,
Navy and joint warfighting forces, as well as        law enforcement agencies, foreign and coalition
national decision makers and other consumers         partners, and national decision makers. ONI
in the Intelligence Community. ONI specializes       employs more than 3,000 military, civilian, and
in the analysis, production and dissemination        mobilized reservists and contractor personnel
of vital, timely and accurate scientific,            worldwide, including analysts, scientists,
technical, geopolitical and military intelligence    engineers, specialists, and technicians. ONI is
information. The command supports a broad            headquartered in Suitland, MD.
range of customers worldwide including
Office of Naval Research (ONR)
The Department of the Navy’s Office of Naval         Corps technological advantage. ONR’s mission
Research provides the science and technology         is to plan, foster, and encourage scientific
necessary to maintain the Navy and Marine            research that assures our nation’s continued

                                                               Management’s Discussion and Analysis   15
                                     maintenance of dominant naval power and            Led by the Chief of Naval Research, its senior
                                     the preservation of national security. ONR         leadership oversees a portfolio of investments
                                     manages Navy and Marine Corps basic and early      ranging from immediate, quick-turnaround
                                     applied research, as well as advanced technology   technologies to long term basic research.
                                     development to foster science and technology       ONR employs approximately 1,050 people,
                                     transition to higher levels of research,           comprising uniformed, civilian and contract
                                     development, test, and evaluation for ultimate     personnel, with additional employees at the
                                     use in the fleet and force. ONR provides           Naval Research Lab in Washington, D.C. ONR
                                     technical advice to the CNO and the SECNAV.        is headquartered in Arlington, VA.
                                     Space and Naval Warfare Systems Command (SPAWAR)
                                     The Space and Naval Warfare Systems Command forefront of research, engineering, acquisition
                                     is an acquisition command that delivers high-   and support services that provide vital decision
                                     end Navy information technology products and    superiority to our forces at the right time and
                                     services to the fleet and other Department of   for the right cost. SPAWAR products and
                                     Defense stakeholders. As the Navy’s information services transform ships, aircraft and vehicles
                                     dominance systems command, SPAWAR               from individual platforms into integrated battle
                                     designs, develops and deploys advanced          forces, enhancing information dominance and
                                     communications and information capabilities.    awareness among Navy, Marine Corps, joint
                                     With more than 9,500 active duty military and   forces, federal agencies and international allies.
                                     civil service professionals located around the  SPAWAR is headquartered in San Diego, CA.
                                     world and close to the fleet, SPAWAR is at the
                                     Strategic Systems Programs (SSP)
                                     Strategic Systems Programs directs the end-        Nuclear Weapons System, Guided Missile
                                     to-end effort of the Navy’s Strategic Weapon       Submarine (SSGN) Attack Weapons System,
                                     Systems to include training, systems, equipment,   Payload Integrator, Emerging Missions, and
                                     facilities and personnel, and fulfillment of the   Navy Treaty Implementation Program. SSP is
                                     terms of the United States/United Kingdom          headquartered at the Washington Navy Yard in
                                     Polaris Sales Agreement. SSP’s six lines of        Washington, D.C.
                                     business include the Strategic Weapons System,




                                                                             discipline, internal organization, training, requirements,
                                                                             efficiency, and readiness of the service. The Marine Corps
                                                                             Headquarters is spread throughout the Washington, D.C.
                                                                             metro area, including the Pentagon, Marine Barracks,
                                                                             Quantico, and the Washington Navy Yard.
                         U.S. Marine Corps                                   The Operating Forces are subdivided into four categories:
The Marine Corps established on 10 November 1775                             Marine Corps Forces, including all Marine ground,
currently consists of 195,657 Active Duty Marines;                           aviation, and combat logistics; Marine Corps Reserves,
39,640 Select Reserve Marines; and 35,000 Inactive                           Marines who support the Active Component by fielding
Ready Reserve (IRR). At any given time, approximately                        deployable units; Security Forces, which protect key
30,000 Marines are forward deployed in operations                            installations, vessels, units, and assets of the United States
supporting our nation’s defense or Military Operations                       Government; and Special Activity Forces, who guard US
Other Than War (MOOTW).                                                      embassies and foreign service posts.
HQMC consists of the Commandant of the Marine                                The Supporting Establishment includes all bases, air
Corps and those staff agencies that advise and assist him                    stations, and installations. They assist in training,
in discharging his responsibilities prescribed by law                        sustainment, equipping, and embarkation of deploying
and higher authority. This includes the administration,                      Marine Forces.


16    Department of the Navy Fiscal Year 2013 Annual Financial Report
Headquarters, U. S. Marine Corps (HQMC)
Headquarters, U.S. Marine Corps (HQMC)                includes the administration, discipline, internal
consists of the Commandant of the Marine              organization, training, requirements, efficiency,
Corps (CMC) and those staff agencies                  and readiness of the service. Also, as the
that advise and assist him in discharging             Commandant is a member of the Joint Chiefs
his responsibilities prescribed by law. The           of Staff, HQMC supports him in his interaction
Commandant is directly responsible to                 with the Joint Staff. The Commandant also
the Secretary of the Navy for the overall             is responsible for the operation of the Marine
performance of the Marine Corps. This                 Corps material support system.
Marine Corps Forces Command (MARFORCOM)
Located in Norfolk, Virginia, the Commander,   FMFLANT) and commanding embarked Marine
MARFORCOM is tasked with: commanding           Corps forces; coordinating Marine Corps-Navy
Active Component (AC), Marine Corps-           integration of operational initiatives and advising
retained operating forces; executing force     the Commander, U.S. Fleet Forces Command
sourcing and synchronization to provide joint  (USFF) on Navy support to Marine Corps forces
commanders with the Marine Corps forces they assigned to naval ships, bases, and installations;
require; Directing deployment planning and the serving as Commander, Marine Forces Europe;
execution of Marine Corps-retained operating   serving as Commander, Marine Corps Bases
forces in support of combatant commander and   Atlantic; and conducting service-directed
service requirements; serving as Commanding    operational tasks as required.
General, Fleet Marine Forces Atlantic (CG
U.S. Marine Corps Forces, Pacific (MARFORPAC)
MARFORPAC has three command roles and         With its headquarters located aboard Camp H.
responsibilities. The command serves as U.S.  M. Smith, HI, MARFORPAC is the largest field
Marine Corps component to U.S. Pacific        command in the Marine Corps, having control
Command (USPACOM), U.S. Marine Corps          of two-thirds of Marine Corps operational
component to U.S. Forces Korea (USFK), and    forces. Commander, MARFORPAC commands
Fleet Marine Forces Commander to Pacific      all U.S. Marine Corps forces assigned to
Fleet. In addition to its service component   USPACOM operating in a diverse geographic
responsibilities, MARFORPAC could be tasked   area stretching from Yuma, Arizona to Goa,
to act as a joint task force command element. India.
U.S. Marine Corps Forces, Special Operations Command (MARSOC)
MARSOC was formally established February        (SOF) worldwide in support of combatant
24, 2006 and is the Marine Corps component of commanders and other agencies. MARSOC
USSOCOM. Headquartered at Camp Lejeune,         includes three subordinate commands: the
NC, MARSOC trains, organizes, equips, and,      Marine Special Operations Regiment (MSOR);
when directed by the Commander USSOCOM, the Marine Special Operations Support Group
deploys task organized, scalable and responsive (MSOSG); and the Marine Special Operations
Marine Corps special operations forces          School (MSOS) at Camp Lejeune, NC.
Marine Forces Reserve (MARFORRES)
Headquartered in New Orleans, Louisiana,              Like the active component, MARFORRES is
MARFORRES is responsible for providing                a combined-arms force with balanced ground,
trained units and qualified individuals for active-   aviation, and logistics combat support units.
duty service in times of war, national emergency,     MARFORRES capabilities are managed
or in support of contingency operations. Marine       through MARFORCOM as part of its global
Corps force expansion is made possible by             force management responsibilities for the
activation of the Marine Corps Reserve. As an         Commandant. Commander, MARFORRES
operational reserve, MARFORRES provides               is also Commander, Marine Forces Northern
personnel and operational tempo relief for            Command (MARFORNORTH) and serves as
active component forces during times of peace.        the Marine component of NORTHCOM.

                                                                Management’s Discussion and Analysis   17
                                     U.S. Marine Corps Forces, Cyberspace Command (MARFORCYBER)
                                     Recognizing the significance of the cyberspace   In response, the Marine Corps established U.S.
                                     domain to national security, the Secretary       Marine Corps Forces Cyberspace Command
                                     of Defense directed the establishment of         (MARFORCYBER) in October 2009. (This
                                     U.S. Cyber Command (CYBERCOM) as                 was complemented by the standing up of the
                                     a sub-unified command under the U.S.             Navy’s U.S. Tenth Fleet/Fleet Cyber Command
                                     Strategic Command. The primary objective         in January 2010.) MARFORCYBER’s mission is
                                     of CYBERCOM is to integrate the computer         to plan, coordinate, integrate, synchronize, and
                                     network operations capabilities of the services  direct full spectrum Marine Corps cyberspace
                                     and agencies in support of the National Strategy operations.
                                     to Secure Cyberspace (NSSC).
                                     Marine Corps Installations Command (MCICOM)
                                     Marine Corps Installations Command               maintenance depots. MCICOM directly
                                     (MCICOM) has 24 active installations and 11      supports Marine Corps Operating Forces,
                                     airfields, which are divided into three regions: individual Marines, and family members. They
                                     Marine Corps Installations Pacific (MCIPAC),     are essential components in the foundation of
                                     Marine Corps Installations East (MCIEAST),       national defense as they are the force projection
                                     and Marine Corps Installations West              platforms that support training, sustainment,
                                     (MCIWEST). The forces assigned to MCICOM         mobilization, deployment, embarkation,
                                     provide timely support to the Marines, Sailors   redeployment, reconstitution, and force
                                     and families from the operating forces and       protection.
                                     Marine Corps Logistics Command (MCLC)
                                     Headquartered in Albany, Georgia, MCLC                                    cycle management. MCLC is the Marine Corps
                                     provides worldwide, integrated logistics,                                 Executive Agent for the tactical coordination,
                                     supply chain, and distribution management;                                planning, and execution of ground equipment
                                     maintenance management; and strategic                                     reset. MCLC is responsible for end-to-end
                                     prepositioning capability in support of the                               ground equipment reset from Southwest Asia
                                     operating forces and other supported units.                               actions from theater, through the appropriate
                                     The services and support provided by MCLC                                 Operation Enduring Freedom (OEF) Reset
                                     maximize supported unit readiness, synchronize                            Account and until all reset maintenance actions
                                     distribution processes, and support Marine                                are complete.
                                     Corps enterprise and program-level total life



                                                                                                                                            Members of a color guard
                                                                                                                                            stand by as their ship
                                                                                                                                            arrives for a port visit.
                                                                                                                                            (U.S. Navy photo by Mass
                                                                                                                                            Communication Specialist
                                                                                                                                            3rd Class Mel Orr/Released)




 U.S. Navy Civilians: 184,445                                           U.S. Navy Active: 323,951                     U.S. Navy Reserve: 62,444
 (Full-time Equivalents)                                                (Officers, Enlisted, and Midshipmen)          (Drilling Reserve and Full-time Support)

 U.S. Marine Corps Civilians: 23,272                                    U.S. Marine Corps Active: 195,657             U.S. Marine Corps Reserve: 39,640
 (Full-time Equivalents)                                                (Officers and Enlisted)                       (Drilling Reserve and Full-time Support)
                                              Personnel Data as of Fiscal Year Ended September 30, 2013


18    Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                          A marine fires the AT-4 antitank rocket towards an enemy during a raid exercise.
                                                          (Photo by Lance Cpl. Corey Dabney).




      Strategic Management
The DON is committed to improving core                    Our six priority objectives support the U.S. maritime
capabilities that support the U.S. maritime strategy,     strategy by focusing on key efforts that will increase
“A Cooperative Strategy for 21st Century Seapower.”       our effectiveness and improve the lives of our Sailors,
These core capabilities are critical to U.S. maritime     Marines, and their families, which results in greater
power and reflect an increased emphasis on activities     security for our nation and U.S. global interests.
that prevent war and build partnerships—forward           A summary of key accomplishments by objective
presence, deterrence, sea control, power projection,      begins below.
maritime security, humanitarian assistance, and
disaster response.                                        Objective 1: Take Care of Our People
The cooperative strategy, guided by the objectives        Our Sailors, Marines, and civilians are all critical
articulated in the National Strategy for Maritime         components of the U.S. maritime strategy, and we
Security, National Security Strategy, National            must ensure that we provide them with adequate
Defense Strategy, and National Military Strategy, was     compensation, medical care, and career training
developed to be a unified and enduring approach that      opportunities. These are key factors in attracting and
will apply maritime power to the crucial responsibility   retaining highly motivated and qualified military and
of protecting vital U.S. interests in an increasingly     civilian personnel. We remain committed to providing
interconnected and uncertain world. It binds the          a competitive pay and benefits package to aid in
three maritime services—U.S. Navy, U.S. Marine            recruitment and retention. The package includes basic
Corps, and U.S. Coast Guard (during wartime)—             pay, housing allowances, and incentives for critical
closer together than ever before in a mission to more     specialties in health care, explosive ordnance disposal,
fully safeguard maritime interests at home and abroad.    and nuclear propulsion.



                                                                                       Management’s Discussion and Analysis             19
                                                                                1994 Ground Combat Definition and Assignment Rule.
                                                                                This directive allowed for the integration of women
                                                                                into previously-closed occupational specialties and has
                                                                                increased assignment opportunity for women in the Navy.
                                                                                Today, over 67,000 women serve in the Navy in the active
                                                                                and Reserve components, comprising 18 percent of the
                                                                                total force.
                                                                                Brave servicemen and women from all walks of life
                                                                                are the cornerstone of the armed forces. The Navy has
                                                                                fostered an environment rich in equality and opportunity
                                                                                where individuals are safe from prejudice. The Gay,
                                                                                Lesbian, and Supporting Sailors (GLASS) organization is a
                                                                                group for lesbian, gay and bisexual Sailors and supportive
                                                                                members that was created in order to increase awareness
                                                                                among Sailors regarding the gay community. This year
                                                                                Sailors from guided-missile destroyer USS Shoup (DDG
                                                                                86) established a branch of the GLASS organization
                                                                                aboard their U.S. Navy vessel.
                                                                                The growth of the GLASS organization across the Navy is
Capt. Sara Joyner during the national anthem. She became the 57th               yet another example of the substantial progress the Navy
commander of Carrier Air Wing 3 at Oceana Naval Air Station, and is the first
woman to lead a carrier air wing. (Photo by Vicki Cronis-Nohe, The Virginian-
                                                                                has made in creating a military environment that is free
Pilot)                                                                          from prejudice, bigotry, harassment, and violence.

DON personnel heroically strive to protect freedom
for the nation as they face extraordinary circumstances
each and every day. The Department is therefore fully
committed to promote the physical and mental wellness
of Sailors and Marines who have dedicated their lives to
serve their families, communities, and our great Nation.
In one initiative, the Navy and Marine Corps Public
Health Center (NMCPHC) developed a web-based
immersive experience tool that will assist service
members in achieving a better psychological and physical
state. This online application provides different relaxation
techniques for users to practice including breathing
exercises, muscle relaxation activities, meditation, and
other practices that are designed to help improve mood
and performance while simultaneously managing stress.
The NMCPHC is part of the Navy Medicine team, a
global health care network of 63,000 Navy medical
personnel around the world who provide high-quality
health care to over one million eligible beneficiaries.
The Navy is proud to uphold the standards of equality,                          Sailors participating in the Riverine Combat Skills course prepare for a field
freedom, and opportunity, and has made great progress                           training exercise at Camp Lejeune, N.C. This class was the first training group
                                                                                composed of Coastal Riverine Force Sailors and the first to incorporate women
as an organization. For the first time in the Navy’s                            into the course. (U.S. Navy photo by Mass Communication Specialist Seaman
                                                                                Heather M. Paape/Released)
history, the role of women in the armed forces has been
expanded such that every facet of military employment
is available to them. On January 24, 2013, the Secretary
of Defense and Joint Chiefs of Staff overturned the


20      Department of the Navy Fiscal Year 2013 Annual Financial Report
U.S. Navy
The Navy continues to resize and reshape its forces                     and 6 percent, respectively. The Navy has been able to
to meet its mission requirements more efficiently                       accomplish all assigned missions at this level because
and effectively. This is especially important in an                     of force structure changes, efficiencies gained through
environment of limited budgetary resources and rising                   technology, modifications in workforce mix, and new
personnel costs. Over the last five years, the Navy has                 manning practices.
resized its active and reserve components by 2 percent

                                                             U.S. Navy End Strength
             400000
                           329,304            328,303              325,123            318,406              323,951

             300000
                  Active
             200000
                 Reserve



             100000                  66,474             65,006               64,792             64,715               62,444


                    0
                               2009               2010                 2011               2012                  2013
                                                            Fiscal Year Ending September 30



U.S. Marine Corps
The Marines Corps continues to provide a balanced                       mobile, middleweight force optimized for rapid crisis
force adequately postured for future National Security                  response and forward-presence. The drawdown of the
Strategy requirements, while supporting operations                      Marine Corps Active Component (AC) end strength from
in a post-Afghanistan security environment requiring                    195,657 to 182,100 will be completed by the end of
greater affordability. The Marine Corps enduring end                    FY 2016 at a ramp down of approximately 4,000 active
strength of 182,100 and the corresponding ready and                     personnel per year.
capable force structure will provide a strategically


             400000

                                                        U.S. Marine Corps End Strength
             300000
                  Active   203,095            202,441              201,693            198,193              195,657
             200000
                 Reserve



             100000
                                     38,510             39,222               39,772             39,544               39,460

                    0
                               2009               2010                 2011               2012                   2013
                                                             Fiscal Year Ending September 30




                                                                                                 Management’s Discussion and Analysis   21
Marines depart from the stern gate of an amphibious assault ship in a combat                          Sailors conduct routine maintenance on a close-in weapon system (CIWS)
rubber raiding craft. (U.S. Navy photo by Mass Communication Specialist 1st                           aboard an aircraft carrier. (U.S. Navy photo by Mass Communication Specialist
Class Brian P. Biller/Released)                                                                       2nd Class Timothy M. Black/Released)



Navy and Marine Corps Civilian Personnel
The size of the civilian workforce, which has increased                                               types of support, such as research and development,
by 4.4 percent over the last five fiscal years, continues                                             engineering, acquisition, depot maintenance, and financial
to support the  mission and daily functions of the Navy
             400000                                                                                   management and budget.
and Marine Corps. Civilian personnel provide various
                   300000
                                                                            Civilian Personnel (Full-Time Equivalents*)
                                                                                                 188,964                      190,247
                   200000                 176,026                         182,913                                                                         184,445

                     Navy
                   100000
                    Marine Corps


                                                         20,866                     23,032                    23,446                      22,310                       23,272
                                 0
                                                  2009                        2010                      2011                         2012                        2013
                                                                                        Fiscal Year Ending September 30

                                     * Full-time equivalents are the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by
                                       employees divided by the number of compensable hours applicable to each fiscal year.




Objective 2: Maintain Warfighter Readiness in an                                                      globally. Although we are in an era of reduced budgets,
Era of Reduced Budgets                                                                                the DON will maintain strong, agile and capable military
Today’s security environment has created new demands                                                  forces. Operational readiness is the catalyst that brings
for naval forces. These demands include support for                                                   naval power to bear whenever it is needed. Our budget
security, stabilization, transition and reconstruction                                                supports requirements for our Carrier Strike Groups
operations, support for homeland security, and                                                        (CSGs), Expeditionary Strike Groups (ESGs), and
continued preparedness for contingency operations.                                                    Marine Expeditionary Forces (MEFs) to execute the
The evolving dynamics of the 21st century security                                                    National Military Strategy and respond to persistent
environment require our forces to be ready to deploy                                                  as well as emerging threats. Our Navy-Marine Corps

22      Department of the Navy Fiscal Year 2013 Annual Financial Report
team has become an integral part of continuing overseas
contingency operations. We continue funding the
necessary requirements to ensure our ability to protect
vital U.S. interests and assist our allies in crisis situations.
The DON’s top readiness priority is ensuring that forces
are fully supported while deployed. In order to do
so, the DON requires a highly educated and trained,
highly skilled and disciplined force. Using advanced
technologies, we have shifted training from the traditional
classroom to the use of simulators, trainers, computer-
based interactive curricula, and other media-based
approaches. This initiative provides our naval workforce
with appropriate training in a more efficient manner and
prepares them to better perform mission-critical tasks.
The fleet must be ready to protect freedom while meeting
today’s extraordinary challenges, today. Consequently,
decisions must be centered on what Sailors and Marines
need to perform their jobs effectively and efficiently.
The Department has acquired and continues to invest in
proven technology that Sailors can use and depend on at
                                                                   Sailors conduct firefighting training on an airfield using a Mobile Aircraft
sea and ashore. Leadership has used empirical data, such           Firefighting Training Device, which can simulate 13 different aircraft fire
as Board of Inspection and Survey report statistics, to            situations. (U.S. Navy photo by Mass Communication Specialist 2nd Class
                                                                   Marcus L. Stanley/Released)
shape decision making that ensures fleet readiness despite
reduced funding.                                                   This year the Frigate USS Rentz and the U.S. Coast
                                                                   Guard Law Enforcement Detachment seized 2,123 lbs.
Cost Savings through Innovative Technology                         of cocaine from a fishing vessel north of the Galapagos
The Office of Naval Research (ONR) sponsored a web-                Islands worth an estimated value of $78 million.
based military transportation tool which will enable the
Navy to move people and equipment more efficiently
and affordably. The Transportation Exploitation Tool
(TET) allows planners to identify available space aboard
thousands of military and commercial flights, as well as
ship movements that occur throughout the day in order
to know the best route to send mission-critical supplies.
Before TET, planners needed to search multiple databases
to access all the military and civilian space, which took
hours and in some cases days.
This system has already saved naval services over
$30 million in transportation costs, with an estimated
savings of $200 million over 10 years when it is fully
implemented. The naval services continue to work on
new technologies that save money while improving
methods to provide our Sailors and Marines with the tools
they need to be ready.

Maritime Security Operations
The Navy continues to safeguard and protect the Nation’s
interests by conducting operations to provide maritime             Personnel from the Navy and the U.S. Coast Guard Law Enforcement
                                                                   detachment embarked aboard a guided-missile frigate, prepare an estimated
security across the globe.                                         $78 million of confiscated cocaine for transfer to a U.S Coast Guard cutter from a
                                                                   drug bust. (U.S. Navy photo by Lt. Cmdr. Corey Barker/Released)




                                                                                                 Management’s Discussion and Analysis             23
The frigate USS Rentz was engaged in counter trans-                                       affects our naval forces’ operational independence, both
national organized crime operations as part of an effort to                               in terms of the resources required to obtain fuel and to
target illicit trafficking routes in coastal waters along the                             transport it to the ships, aircraft, and equipment, and the
Central American isthmus.                                                                 Sailors and Marines whose duty it is to protect the ships
                                                                                          and convoys moving the fuel.
This warship worked closely with a U.S. Navy P-3 Orion
long-range patrol aircraft operating in the region to                                     With these risks in mind, we have taken a bolder, more
initially detect and intercept the fishing vessel suspected                               aggressive stance toward energy reform by committing
of smuggling narcotics in international waters. This                                      to five energy goals (see chart on next page). These goals
collaboration enabled the seamen abroad the frigate to                                    require adoption of new fuels and development of new
discover and confiscate the large reserve of cocaine.                                     systems and energy efficient practices and techniques over
                                                                                          the next 10 years. The DON’s strategy in achieving these
Objective 3: Lead the Nation in Sustainable                                               goals is centered on energy security, energy efficiency,
Energy                                                                                    and sustainability while remaining the preeminent global
                                                                                          maritime power.
The Navy is committed to improving energy security and
environmental stewardship by reducing reliance on fossil                                  Efforts to Reduce Marine Corps Energy
fuels. The Navy is actively developing and participating in                               Consumption in Theater
energy, environmental and climate change initiatives that
will increase use of alternative energy and help conserve                                 Naval Surface Warfare Center (NSWC) Panama City
the world’s resources for future generations.                                             Division engineers are working to reduce the energy
                                                                                          consumption of Marine Corps combat operations centers
                                                                                          in theater.
                                                                                          The NSWC engineers studied the operations centers
                                                                                          and noted that almost 70 percent of total energy
                                                                                          consumed was used to heat and cool shelters. They
                                                                                          worked with engineers from the National Renewable
                                                                                          Energy Laboratory (NREL) in Golden, Colorado to
                                                                                          develop a model that accurately predicted shelter heat
                                                                                          transfer and resulting effects on energy consumption.
                                                                                          The computerized model predicts energy consumption
                                                                                          requirements given various factors such as: shelter
                                                                                          material, colors, radiant barriers, air vents, shades,
                                                                                          and air infiltration rates. The model also has the ability
                                                                                          to incorporate localized weather data and will allow
                                                                                          field units to more accurately predict energy supply
                                                                                          requirements for shelter heating and cooling during and
                                                                                          prior to deployment.
                                                                                          These and other energy efficiency technologies can
                                                                                          improve field tactics while also providing maritime
                                                                                          warriors with greater tactical flexibility.
Goddard Power Plant, the last coal-fired power facility operated by the Navy,
will be demolished and replaced by a natural-gas cogeneration facility and
                                                                                          The Navy’s Last Coal-Fired Power Plant
infrastructure that will provide steam critical to energetic mission activities as well
as 3.5 megawatts of electricity. (U.S. Navy photo by Gary Wagner/Released)                The Navy has a $62 million construction project to
                                                                                          demolish the last remaining coal-fired power plant
Reducing our naval forces’ reliance on fossil fuels is                                    operated by the Navy. A new facility will be constructed
critical to our national security, environment, and naval                                 for Naval Support Facility (NSF) Indian Head, MD that
capabilities. Our nation and naval forces rely heavily on                                 will provide the installation with decentralized steam
a finite source of fuel from volatile global regions. To a                                and a 3.5 megawatt co-generation facility for electricity
certain extent, we have ceded this strategic resource to                                  and steam.
other nations, creating an obvious vulnerability to our                                   The project will modernize utility services for the
national security. In addition, our reliance on fossil fuels                              installation and improve combat and war fighting

24       Department of the Navy Fiscal Year 2013 Annual Financial Report
               Demonstrating Ground Renewable
               Expeditionary Energy (GREENs) apparatus
               at Naval Surface Warfare Center, Carderock
               Division. (U.S. Navy photo/Released)
                                                            Department of the Navy Energy Goals
                                                            Energy Efficient Acquisition: Evaluation of energy factors will
                                                            be mandatory when awarding contracts for systems and buildings.

                                                            Sail the “Great Green Fleet”: The Green Strike Group
                                                            demonstrated in local operations in 2012 will sail by 2016.

                                                            Reduce Non-Tactical Petroleum Use: By 2015, the DON will
                                                            reduce petroleum use in the commercial fleet by 50%.

                                                            Increase Alternative Energy Ashore:
                                                            By 2020, the DON will produce at least 50% of shore-based energy
                                                            requirements from alternative sources; 50% of the DON installations will
                                                            be net-zero.

                                                            Increase Alternative Energy Use DON-Wide: By 2020, 50%
                                                            of total DON energy consumption will be from alternative sources.




capabilities by reducing the vulnerabilities that were                  workforce, leveraging strategic sourcing and promoting
associated with having a coal fired facility. A combination             competition, all while protecting a healthy industrial base.
natural gas turbine and heat recovery steam generator
                                                                        During FY 2013, the DON continued to follow the
will replace the installation’s Goddard Power Plant that
                                                                        DoD’s Better Buying Power 2.0 (BBP 2.0) initiative. The
was constructed in 1957. The new system will cut energy
                                                                        initiative strives to implement best practices throughout
use by 50 percent, water consumption by 75 percent
                                                                        DoD acquisition services to strengthen the buying
and steam requirements by 80 percent, resulting in
                                                                        power, improve industry productivity, and provide
approximately $7.5 million savings each year. In addition,
                                                                        an affordable, value-added military capability to the
an estimated 50 billion pounds of carbon emissions will be
                                                                        Warfighter. The overall goal of the program is to create
reduced each year.
                                                                        a set of fundamental acquisition principles to achieve
Natural gas, a cleaner and more efficient fuel source,                  greater efficiencies through affordability, cost control,
will serve as the primary fuel for the new steam- and                   elimination of unproductive processes and bureaucracy,
power-generation facilities. The project also includes the              and promotion of competition.
construction of a new natural gas transmission line from
                                                                        The Navy has followed the BBP 2.0 guidelines in its
Bryans Road to NSF Indian Head. The Navy is excited to
                                                                        goal of promoting acquisition excellence. Purchases
replace the last standing coal-fired facility with a more
                                                                        of large, multi-year, procurements have been planned
efficient and environmentally friendly structure.
                                                                        out in advance using a competitive allocation strategy.
                                                                        For example, three ships at Bath Iron Works (BIW) and
Objective 4: Promote Acquisition Excellence and                         Huntington Ingalls Incorporated (HII) saved 12 percent
Integrity                                                               in basic construction costs and an overall savings of
To protect U.S. national interests and achieve the                      $298 million to the government.
objectives of the 2010 National Security Strategy in this
environment, the Navy will need to recalibrate its                      Objective 5: Dominate in Unmanned Systems
capabilities and make selective additional investments to
                                                                        Unmanned systems expand our naval capabilities in
succeed in its missions. Despite the fact that The Budget
                                                                        intelligence, surveillance, and reconnaissance (ISR), and
Control Act of 2011 mandates the reduction of federal
                                                                        reduce the exposure of our naval forces to unnecessary
spending, the Navy fleet will be no smaller in the future
                                                                        threats. The DON’s vision is to achieve an integrated,
than it is today. Therefore, as replacement costs of our
                                                                        hybrid force of manned and unmanned systems with the
aging ships, aircrafts, and weapon systems continue to
                                                                        ability to sense, comprehend, predict, communicate, plan,
rise faster than our procurement budget’s top-line; the
                                                                        make decisions, and take appropriate actions to achieve its
Navy must reduce the cost of doing business. This entails
improving program execution, rebuilding the acquisition
                                                                                              Management’s Discussion and Analysis   25
goals. The employment of these systems will reduce risk                 scientists aboard different vessels. This initiative was
for Sailors and Marines and increase capability.                        designed to inspire students to pursue careers in the
                                                                        Science Technology Engineering Math (STEM) fields,
The DON Office of Naval Research (ONR) developed a
                                                                        and will provide unprecedented access to deep-
Common Control System (CCS), which enables different
                                                                        sea explorations.
Defense military branches to work together on unmanned
systems and services. This new update allows military                   The program will commence with the Exploration Vessel
branches to simplify unmanned systems, rely less on                     Nautilus’ six-month expedition in the Gulf of Mexico
custom-built components/systems, and in turn, reduce                    and Caribbean Sea, where researchers will investigate
costs to the different branches in DoD.                                 active undersea volcanoes and study the impact of the
                                                                        2010 Deepwater Horizon oil spill.
Historically, unmanned systems were developed and
fielded as individual items built by different vendors. This            The Navy continues to invest in the future of today’s
has led to increased spending, from $284 million to over                youth. The Department of the Navy and City of Chicago
$3 billion in the last eight years. Each system is uniquely             started the Critical MASS (Midwest Association for
controlled by proprietary software created by various                   Science and Service) program to provide high school
vendors, and the data provided is sent out in unique                    and community college students an intense, hands-
formats, making it impossible to control various systems                on experience in (STEM) education. This five-year,
with one master control or to uniformly examine the data                $2 million campaign will bring enrichment programs to
being transmitted. The common controller solves this                    seven Chicago high schools driven by STEM courses.
problem, will help to reduce costs, and allows the systems
to work together.                                                       Business Transformation
Additionally, all of the data captured by the systems is                The DON is committed to transforming the way it does
saved in a cloud environment that is transparent across the             business by using our people, processes, and systems
military and easily accessible to and quickly navigable by              more effectively. The DON FIAR plan is the integrating
all service members.                                                    financial element of the DON’s business transformation
                                                                        strategy and a supporting initiative of the DoD FIAR
ONR worked with the OSD’s Office of Strategic and                       plan, which organizes and prioritizes the audit readiness
Tactical Systems, Naval Air Systems Command, Naval                      and financial improvement efforts of DoD Components.
Undersea Warfare Center, Program Executive Office                       Audit readiness is a goal of business transformation and
(PEO) Integrated Warfare Systems and PEO Unmanned                       a key metric for measuring its success and progress.
Aviation and Strike Weapons on this software. ONR                       Navy ERP is the key system driver of our business
validated that Unmanned Control Systems (UCS) can be                    transformation and a key enabler of the DoD Enterprise
used to develop common control services that provide                    Transition Plan which organizes and prioritizes efforts
total functionality for a particular Common Control                     to modernize DoD business and financial systems.
System, the Bi-Directional Remote Video Terminal                        Continuous Process Improvement/Lean Six Sigma (CPI/
(BDRVT). ONR was able to provide OSD with a                             LSS) initiatives, part of the DoD-wide CPI/LSS program,
blueprint for all military services to be able to build a               enable more effective and efficient operations across the
BDRVT using UCS developed common control services.                      DON enterprise.
Objective 6: Drive Innovative Enterprise                                The DON Financial Improvement and Audit
Transformation                                                          Readiness (FIAR) Program
During FY 2013 the Navy partnered on a variety of                       The DON Financial Improvement and Audit Readiness
research projects. A partnership between the Office                     (FIAR) Program and the Marine Corps Financial
of Naval Research (ONR) and an oceanographer has                        Improvement and Audit Readiness Initiative are multi-
launched a 24-hour website called “Exploration Now.”                    year, Department-wide efforts to modernize Navy-
The site operates similarly to a newsroom, tracking                     Marine Corps financial processes and systems to better
scientists’ activity aboard research ships and in the field             serve worldwide operations. The goal of our financial
and broadcasting their findings to students and teachers                improvement and audit readiness efforts is to produce
around the world in real time.                                          more timely financial management information with
The Exploration Now initiative provides students,                       greater accuracy, reliability, and accessibility. With
                                                                        improved information, we can allocate the DON
educators and others with live-stream video of research
activities and opportunities to interact directly with

26    Department of the Navy Fiscal Year 2013 Annual Financial Report
resources in a more precise way and move closer to
producing auditable DON-wide financial statements.
Our FIAR efforts align with the new priorities and
associated strategy established by the Under Secretary
of Defense (Comptroller) for bringing DoD into a state
of financial audit readiness and in compliance with the
Chief Financial Officers Act of 1990 (as amended).
These priorities focus on improving processes, controls,
and systems that support information most often used
and relied upon by both civilian and military leaders in
daily business operations—budgetary information, as
reported on the Statement of Budgetary Resources (SBR),
and mission critical asset information, such as military
equipment and real property, as reported on the Balance
Sheet. These priorities demonstrate the value of these
financial statements to our daily business operations,
particularly for funds control and resource utilization.
The DON has asserted that the Major Defense
Acquisition Program (MDAP), the Department of the
Navy (DON) Transportation of People (TOP), Civilian
Pay (CIVPAY), Reimbursable Work Orders Grantor                 Marines fire a shoulder-launched, multipurpose assault weapon as part of a
                                                               movement-to-contact training evolution. (Photo by Sgt. Sarah Fiocco)
and Performer (RWO G/P), Military Pay, and Funds
Balance with Treasury (FBWT) segments are audit ready.
For FY 2014 the Navy Office of Financial Operations            Marine Corps Financial Improvement and
(FMO) is on target to assert Contract Vendor Pay (CVP),        Audit Readiness Initiative
Financial Statement Compilation and Reporting (FSCR),
and MILSTRIPs.                                                 By means of an independent study, the DON analyzed
                                                               the value of the Marine Corps effort to pursue financial
For the DON’s Existence and Completeness (E&C)                 audit readiness in terms of the bottom line impact
efforts, we received unqualified opinions on our ships,        for improving the efficiency and effectiveness of their
submarines, intercontinental ballistic missiles, satellites,   financial processes and controls. This impact was
and aircraft in FY 2012. The DON reasserted ordnance           measured in terms of the direct return for every dollar
and asserted Navy Small Boats in FY 2013. The DON              appropriated by Congress. The results of this analysis
expects to assert Uninstalled Aircraft Engines (UAE),          showed that for every dollar invested, nearly three dollars
Equipment, and Inventory in FY 2014. Validation for            in value were created and that the resulting economies
UAE is expected to be completed in FY 2014, with the           translated directly into the Marine Corps having the
remaining assertions validated in FY 2015.                     capability to purchase more mission supportive weapons
                                                               for the same amount of appropriated resources. In the
Audit Response and Evaluation                                  future, the DON will use this return on investment
To continue and sustain successes in audit readiness, the      metric as a guide as it implements the substantial lessons
DON has created and staffed the Audit Response and             learned from the ongoing Marine Corps audit experience
Evaluation Division. Building on the DON’s success of          to the Navy.
the Audit Response Center (ARC), and decentralizing            Navy Enterprise Resource Planning
Budget Submitting Office support to regional offices, the
Audit Response and Evaluation effort ensures continued         Navy Enterprise Resource Planning (Navy ERP) is an
emphasis on the gains achieved in preparing the DON for        integrated business management system that unifies,
full SBR audit. Combining the near term responsibilities       standardizes, and streamlines Navy business operations.
for audit readiness with long-term evaluations and audit       It has replaced multiple older, more costly information
sustainment, this the DON function coordinates and             systems, with data managed in a single system, providing
oversees enterprise-wide audit sustainment activities          financial transparency to just over half of the Navy’s Total
through the development and management of a                    Obligational Authority. Commands that implemented
comprehensive evaluation program that supports future          Navy ERP have realized measurable improvements in
audits and examination efforts.                                accuracy, timeliness, and accessibility of information and
                                                                                            Management’s Discussion and Analysis            27
efficiencies in business and reporting processes. Navy                  Transparency in financial accounting allows the Navy
ERP continues to drive enterprise-wide business process                 to make information-based decisions, more effectively
efficiencies and provides financial transparency and                    and efficiently plan and execute missions, and to meet
total asset visibility through business process and data                statutory audit readiness requirements.
standardization efforts; it will be a major positive force
                                                                        Navy ERP is the first Navy financial system to undergo
contributing toward Navy’s financial audit readiness.
                                                                        a Federal Information System Controls Audit Manual
The Navy ERP system Acquisition and Financial                           (FISCAM) review in support of financial improvement
Management functionality has been operational since                     audit readiness.
October 2007, and today includes the following
                                                                        More information on Navy ERP is available at
commands, serving over 71,000 users: Naval Air Systems
                                                                        http://www.erp.navy.mil.
Command, Naval Supply Systems Command, Naval Sea
Systems Command (Department of the Navy and Navy                        Continuous Process Improvement
Working Capital Fund operations), Space and Naval
Warfare Systems Command, Office of Naval Research and                   Continuous Process Improvement (CPI) is a primary
Strategic Systems Programs.                                             enabler for managing the effectiveness and efficiency of
                                                                        our processes in support of the warfighter and business
The Navy deployed the Single Supply Solution, which                     operations, and a critical path toward financial audit
consolidates wholesale and retail supply functions. This                readiness. CPI provides our workforce with proven
functionality is directly benefiting the Navy warfighter                performance improvement tools, such as Lean/Six Sigma
through improved inventory management, with the                         and Audit Readiness Training Symposiums, to build a
ability to quickly locate parts anywhere in the world                   strong warfighter support foundation for improving cycle
and get them to the warfighter in record time. With                     time and reliability, aligning the work of subordinate
inventory enterprise visibility, the Navy is achieving                  organizations to enterprise-wide goals, and optimizing
significant savings through more effective use of existing              costs. Under the purview of the Deputy Under Secretary
global inventory.                                                       of the Navy for Business Operations and Transformation,
This year the Navy Enterprise Resource Planning (ERP)                   we are bringing together processes and organizations
business process financial information team from Program                for the accomplishment of strategic and corporate
Executive Office Enterprise Information Systems received                business objectives.
the Admiral Stanley R. Arthur Award for logistics                       During fiscal year 2013, Sailors and Marines looking
excellence as the Acquisition Logistics Team of the Year.               for answers on the deployment of continuous process
This Navy ERP team was recognized for innovation and                    improvement (CPI) in the Naval Aviation Enterprise
leadership in standardizing Navy business processes,                    (NAE) received a one-stop resource. The NAE CPI
made major contributions to enterprise financial audit                  Guidebook describes and clarifies roles, responsibilities,
readiness, and successfully supported and materially                    standards, and proven methods that aid the NAE to
advanced the Navy’s logistics mission.                                  assess and improve the performance of its organizations.
The team worked to materially improve end-to-end                        It also provides standard, solution-oriented, problem-
business processes and overall financial audit readiness,               solving methods and concepts that enable personnel
by providing visibility of inventory and the financial                  to continuously improve performance, maximize the
audit trail.                                                            effective use of resources, and move organizations toward
                                                                        the achievement of the strategic goals of the NAE.

      Systems, Controls and Legal Compliance
Commanders and managers throughout the DON must                         supported by the development and implementation of
ensure the integrity of their programs and operations.                  more effective internal controls. More useful financial
Part of this responsibility entails compliance with                     information and effective controls save money and
Federal requirements for financial reporting, financial                 improve efficiency, thereby enhancing public confidence
management systems, and internal controls, such as the                  in our stewardship of public resources, which is critical
Federal Financial Management Improvement Act (FFMIA)                    for the protection and sustainment of our nation and vital
and the Federal Managers’ Financial Integrity Act                       U.S. interests.
(FMFIA). These requirements promote the production of
more timely, reliable, and accessible financial information,            Included in this section is the management assurance
                                                                        letter which provides management’s assessment of
28    Department of the Navy Fiscal Year 2013 Annual Financial Report
the effectiveness of the DON’s internal controls in                  extends to every responsibility and activity undertaken
conjunction with FFMIA and FMFIA. This section also                  by the DON and applies to program, administrative, and
provides the DON’s detailed assessment of the DON’s                  operational controls.
internal controls over non-financial operations, financial           Primary responsibility for program execution and
reporting, acquisition and financial systems.                        reporting resides within a network of 19 Major Assessable
Management Assurances                                                Units (MAUs), which include the Assistant Secretaries
                                                                     of the Navy, the Chief of Naval Operations (CNO), the
The objectives of the systems of internal accounting                 Commandant of the Marine Corps (CMC), Secretariat
and administrative control of the DON are to provide                 Staff Offices and other entities that report directly to
reasonable assurance that:                                           the SECNAV or UNSECNAV. The DON MAUs receive
                                                                     internal control certification statements from their
  n	 Obligations and costs are in compliance with                    subordinate units, and in turn provide the UNSECNAV
     applicable laws;                                                with their annual FMFIA Certification Statements. The
  n	 Funds, property, and other assets are safeguarded               signed certification statements are used as the primary
     against waste, loss, unauthorized use, or                       source documents for the SECNAV’s determination
     misappropriation; and                                           of reasonable assurance over the effectiveness of the
  n	 Applicable revenues and expenditures are properly               Department’s system of internal control.
     recorded and accounted for, to permit the                       Complementing the self-reporting of control deficiencies,
     preparation of reliable accounting, financial and               the DON’s Auditor General, in collaboration with
     statistical reports and to maintain accountability              the Deputy Assistant Secretary of the Navy, Financial
     over the assets.                                                Operations (DASN (FO)), reviews audit reports from
                                                                     the Government Accountability Office (GAO), the
Internal Control Over Non-Financial                                  Department of Defense (DoD) Inspector General and
Operations                                                           the Naval Audit Service (NAVAUDSVC). This review
                                                                     helps identify control deficiencies and utilizes a systematic
The DON Managers’ Internal Control (MIC) Program
                                                                     methodology to determine materiality. The high degree
is the administrative vehicle for monitoring the
                                                                     of collaboration and communication between the DASN
Department’s systems of internal control by evaluating
                                                                     (FO) Manager’s Internal Control Program (MICP)
and maintaining sufficient documentation to support its
                                                                     administrators and the NAVAUDSVC has resulted in a
evaluation and level of assurance. The MIC Program is
                                                                     consistent and comprehensive perspective on the DON’s
decentralized and encompasses both shore Commands
                                                                     internal control posture.
and afloat forces. The evaluation of internal control

                                         Outstanding Material Weakness FY 2013
 Internal Control Reporting                                                                                         Target
 Category                                        Material Weakness                                              Correction Year
 Contract Administration                         Service Contracts                                                       FY 2015
 Acquisition                                     Attenuating Hazardous Noise in Acquisition & Weapon                     FY 2015
                                                 System Design
 Communications/ Intelligence/Security           Management of Communications Security                                   FY 2014
                                                 (COMSEC) Equipment
 Communications/ Intelligence/Security           Safeguarding Personally Identifiable Information (PII)                  FY 2014
 Procurement/ Contract Administration            Effective Use of Earned Value Management (EVM) Across                   FY 2014
                                                 Shipbuilding Programs


In addition to the operational assessments described above,          Budget (OMB) Circular A-123, Appendix A in conjunction
the DON MIC program includes a separate assessment of                with overall Navy and Marine Corps audit readiness
Internal Control over Financial Reporting (ICOFR) and                efforts under the DoD FIAR. The DON’s current focus
Internal Control over Financial Systems (ICOFS).                     is on achieving the FIAR objectives relative to budgetary
                                                                     information and mission critical asset information
Internal Control Over Financial Reporting                            priorities. Through the DON FIAR discovery process,
(ICOFR)                                                              the DON continues to work closely with participating
The DON continues to implement processes to reach a                  Commands and service providers, such as the Defense
status of full compliance with Office of Management and              Finance and Accounting Service (DFAS), to identify,

                                                                                              Management’s Discussion and Analysis   29
evaluate and document the risks and internal controls                          In FY 2014, FMO plans further discovery and
associated with the end-to-end business processes                              development of corrective actions plans with executable
underlying the financial statements. Attention is focused                      tasks to mitigate the material weaknesses.
on remediating material weaknesses that will allow for
                                                                               The Marine Corps continued improving the
overall achievement of the DON’s assertion goals.
                                                                               documentation of specified business processes to assist
Through the DON FIAR discovery process,                                        stakeholders and auditors in obtaining an understanding
documentation efforts continue as the DON moves                                of financial processes used by the Marine Corps. Revised
toward its objective of asserting audit readiness over all                     descriptions are used to identify controls and key controls
financial reporting segments. In FY 2013, we identified:                       to test. The Marine Corps ICOFR program aims to
                                                                               support the DON FIAR objectives by targeting specific
  n	 18 material weaknesses in Existence and
                                                                               evaluations that strengthen the integrated objectives of
     Completeness, Reimbursable Work Orders –
                                                                               the DON SBR assertion. For FY 2013, the Marine Corps
     Grantor and Performer, Contract Vendor Pay,
                                                                               reported material weaknesses in Military Equipment, Real
     Financial Statement Compilation and Reporting,
                                                                               Property, and Contracts. Efforts are underway to address
     Military Standard Requisitioning and Issue
                                                                               these material weaknesses via formal corrective action
     Procedures, and Transportation of Things.
                                                                               plans pending additional analyses and concurrence by the
  n	 1 Nonconformance with Financial Systems.                                  Marine Corps Senior Assessment Team.
  n	 3 Corrected Material Weaknesses/                                          Internal Control Over Financial Systems
     Nonconformances, including Fund Balance with                              (ICOFS)
     Treasury, Reimbursable Work Orders – Grantor
     and Performer (with the exception of the following                        The DON understands ICOFS plays a key role in the
     processes: Post Collection and Post Disbursement                          generation of the DON financial statements. The DON
     Validation,Year-End Accrual, Triennial Review,                            implemented a strategy for identifying and prioritizing
     and Trading Partner Number Reconciliation), and                           assessment of financial and mixed systems. Over two
     Transportation of People.                                                 hundred systems are utilized to support Navy’s complete
                                                                               set of financial statements. Once a system was identified
                                                                               as audit relevant or critical to the segment assertion
                                                                               package, the DON worked with the segment managers
                                                                               to collect additional data points that would affect the
                                                                               assessment scope, approach, and timeline.
                                                                               The DON conducted FISCAM assessments on select
                                                                               information technology systems and coordinated with
                                                                               service providers such as DFAS, Defense Logistics
                                                                               Agency (DLA), and Defense Contract Management
                                                                               Agency (DCMA) to identify and prioritize feeder system
                                                                               assessments. The DON refined its strategy for assessing
                                                                               Legacy and Enterprise Resource Planning (ERP) system
                                                                               controls. The DON prioritized IT controls based on
                                                                               FISCAM and FIAR guidance to ensure financial data
                                                                               integrity and reliability. For FY 2013, the DON tracked,
                                                                               updated, and managed identified systems to support
                                                                               the Office of Under Secretary of Defense, Comptroller
                                                                               (OUSD (C)) FIAR identified business segments and
                                                                               financial reporting framework.
                                                                               Below is the management assurance letter for FY 2013.
Marines engage a simulated enemy force with an M240B machine gun at Bradshaw
Training Area in Northern Territory, Australia. (Photo by Sgt. Sarah Fiocco)




30      Department of the Navy Fiscal Year 2013 Annual Financial Report
Management’s Discussion and Analysis   31
      Financial Condition and Results of Operations
The accompanying financial statements and related                       fund operational expenses and capital investments, are
disclosures represent our enduring commitment to fiscal                 required to exercise a system of effective control over
accountability and transparency. Through our FIAR plan                  financial operations.
and related business transformation initiatives discussed
earlier, we have made significant progress toward                       Results of Operations
improving the quality and timeliness of our financial                   The Combined SBR presents total budgetary resources
information. However, we are currently unable to                        of $211.7 billion that were available to the DON during
fully implement all elements of U.S. generally accepted                 FY 2013 and the status of those resources at fiscal year-
accounting principles and OMB Circular A-136, “Financial                end. Total budgetary resources were down $15.1 billion,
Reporting Requirements,” due to limitations of our                      a 7.1 percent decrease in FY 2013 compared to FY 2012.
financial and non-financial management processes and                    The enacted appropriations of $161.8 billion represent
systems feeding into the financial statements. Because of               76.5 percent of total budgetary resources and decreased
these limitations, the DoD, Office of Inspector General,                $11.6 billion compared to FY 2012. The majority of
was unable to express an opinion on our FY 2013 financial               this decrease was with respect to military construction.
statements. It should be noted that these limitations exist             Additionally, the decrease in total budgetary resources
primarily in our proprietary accounting processes and                   is attributable to the $32.5 billion unobligated balance
less so in the budgetary accounting performed to manage                 brought forward from the prior year, which comprised
and report on the application of budget authority to                    14.3 percent of total budgetary resources and decreased
the purposes and programs approved in appropriations                    $656.2 million compared to FY 2012. The majority of
acts. In fact, the U.S. Marine Corps achieved full                      the decrease in unobligated balance brought forward
audit readiness for its SBR and the DON revised its                     was in the Procurement appropriation accounts. The
strategy to place first priority on its SBR as well.                    DON obligated $178.3 billion of the $211.7 billion total
Despite documented material weaknesses we believe                       resources in FY  2013, which is a decrease of $15.8 billion
the budgetary information used for decision-making is                   or 8.1% compared to FY 2012. The Consolidated
accurate and reliable because of compensating measures                  Statement of Net Cost presents net cost of operations of
and close oversight.                                                    $145.6 billion during FY 2013. Net cost of operations
                                                                        represents gross costs incurred by the DON less earned
For financial reporting purposes, we are organized                      revenue. Net cost of operations decreased $24.1 billion,
into two reporting entities: The DON and Navy                           which represents a 16.5 percent decrease over FY 2012.
Working Capital Fund (NWCF), which include financial
information for both the U.S. Navy and the USMC. Each                              DON Sources of Funds, FY 2013
reporting entity has a separate set of financial statements                                          ($ in Billions)
and related disclosures.
                                                                                                     $9.9
The DON
The DON supports overall Departmental operations.                                        $32.5                         $161.8
Enacted appropriations comprise the majority of
the account structure, which includes five major
appropriation groups:                                                           $7.4

  n	 Operation and Maintenance
  n	 Military Personnel
  n	Procurement
  n	 Research, Development, Test, and Evaluation
  n	 Military Construction
Enacted appropriations flow through OMB and the Office
of the Secretary of Defense to the Office of the Secretary                             Appropriations
of the Navy, where they are allocated to administering                                 Spending Authority from Offsetting Collections
offices and commands. The administering offices and                                    Unobligated Balance Forward from Prior Years
commands, which in turn obligate the appropriations to                                 Other



32    Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                 DON Net Cost of Operations, FY 2009 – 2013
                                                                       ($ in Billions)

                200
                                                                                 $168.9
                                                          $155.1                                   $169.7
                                     $144.0                                                                                   $145.8
                150


                100


                 50


                    0
                                2009                   2010                2011              2012                     2013
                                                                Fiscal Year Ending September 30


Financial Position                                                                          DON Total Liabilities, FY 2013
                                                                                                            ($ in Billions)
The DON continued to report a positive net position
on its Consolidated Balance Sheet. Net position is the
                                                                                                                     $2.3
difference between total assets and total liabilities. As of                                                                   $1.7
30 September 2013, net position totaled $504.4 billion,
which represents a $51.3 billion or 11.3 percent increase                                  $13.3
from FY 2012. The overall increase in net position is
attributed to increases of $54.4 billion and $1.1 billion in
total assets and total liabilities, respectively.

              DON Total Assets, FY 2013
                          ($ in Billions)


                        $51.2                                                                                                     $21.7

                                              $142.8




                                                                                             Accounts Payable
                                                                                             Military Retirement and
                                                              $4.1                           Other Federal Employment Benefits
                                                                                             Environmental and Disposal Liabilities
           $270.0                                                                            Remaining Liabilities
                                                  $75.1

                                                                               Navy Working Capital Fund
                                                                               NWCF is a revolving fund established to meet the
                                                                               diverse requirements of the Navy and Marine Corps
             Fund Balance with Treasury
             Accounts Receivable                                               operating forces. Under the revolving fund concept, an
             Inventory & Related Property                                      appropriation or a transfer of funds finances initial NWCF
             General Property, Plant & Equipment
             Remaining Assets                                                  operations. General or appropriated fund payments from
                                                                               customers for goods delivered or services performed
                                                                               subsequently replenish this initial working capital
                                                                               investment and sustain a continuous cycle of operations,
                                                                               minimizing the need for additional annual appropriations
                                                                               by Congress. The goal of NWCF is to break even over
                                                                               time by matching revenues earned to costs incurred.
                                                                               Achievement of this goal is occasionally complicated by
                                                                               the requirement that NWCF business areas maintain
                                                                               stable budget-driven prices for goods and services, to
                                                                               protect customers from unforeseen price fluctuations.
                                                                                                      Management’s Discussion and Analysis   33
 Navy Working Capital Fund Business Activities By Business Area
 Supply Management                                                      Base Support                                    Research and Development
 Supply Management, Navy                                                Facilities Engineering Commands                 Naval Research Laboratory*
 (https://www.navsup.navy.mil)                                          (https://portal.navfac.navy.mil)                (http://www.nrl.navy.mil)

 Supply Management, Marine Corps                                        Naval Facilities Engineering Service            Naval Surface Warfare Center
                                                                                                                        (http://www.navsea.navy.mil)
 (http://www.logcom.usmc.mil)                                           Center
                                                                        (https://portal.navfac.navy.mil)                Naval Undersea Warfare Center
 Depot Maintenance                                                                                                      (http://www.navsea.navy.mil)
 Depot Maintenance, Aviation                                            Transportation                                  Naval Air Warfare Center
 (http://www.navair.navy.mil)                                           Military Sealift Command                        (http://www.navair.navy.mil)
                                                                        (http://www.msc.navy.mil)
 Depot Maintenance, Marine Corps                                                                                        Space and Naval Warfare Systems
 (http://www.logcom.usmc.mil)                                                                                           Centers
                                                                                                                        (http://spawar.navy.mil)
 *Also see Office of Naval Research (http://www.onr.navy.mil)

Results of Operations
The Combined SBR presents total budgetary resources of                                                       NWCF Sources of Funds, FY 2013
$32.5 billion that were available to NWCF during FY 2013                                                                     ($ in Billions)
and the status of those resources at fiscal year-end. Total                                                          $0.5
budgetary resources decreased $1.7 billion, which was a
4.9% decrease over FY 2012. NWCF budget authority is                                                                 $3.7
comprised of contract authority and spending authority                                                                                                $8.1
from offsetting collections of which the latter accounts
for 61.9% of total budgetary resources. The majority
of the decrease in overall budget authority is due to a
$1.6 billion decrease in Spending Authority from Offsetting
Collections in FY 2013. NWCF business activities
obligated $28.9 billion of the $32.5 billion total resources
in FY 2013 which represents a decrease of $1.6 billion or
5.2% over FY 2012.
The Consolidated Statement of Net Cost presents net
cost of operations of $2.4 billion during FY 2013. Net                                                               $20.1
cost of operations represents gross costs incurred by
NWCF less earned revenue. Sources of earned revenue
include the DON; Army and Air Force General Funds;                                                            Contract Authority
Defense Working Capital Funds; other Navy and DoD                                                             Spending Authority from Offsetting Collections
appropriations; and non-DoD fund sources. The Navy had                                                        Unobligated Balance Forward from Prior Years
                                                                                                              Other
an increase of $0.3 billion in net costs in FY 2013 over
FY 2012, which results in a positive net cost of operations.
                                                              NWCF Net Cost of Operations, FY 2009 – 2013
                                                                                        ($ in Billions)
                           4
                                                                                                                     $2.0                      $2.4
                                                  $1.6
                           2

                           0

                         -2                                                   ($2.8)

                         -4

                         -6

                         -8                                                                         ($8.5)

                       -10
                                          2009                           2010                2011                2012                   2013
                                                                                  Fiscal Year Ending September 30


34    Department of the Navy Fiscal Year 2013 Annual Financial Report
Financial Position                                                                    NWCF Total Liabilities, FY 2013
The NWCF continued to report a positive net position                                                  ($ in Billions)
in its Consolidated Balance Sheet. Net position is the
difference between total assets and total liabilities. As of
30 September 2013, net position totaled $22.4 billion,
which represents an increase of $1.3 billion and a                                        $1.7
6.4 percent increase from FY 2012. An increase of
$2 billion in total assets and $0.6 billion in total liabilities
contributed to the overall increase in net position.

                NWCF Total Assets, FY 2013                                                                                     $3.9
                           ($ in Billions)

                                                                                     $0.8
                         $2.1      $1.5
                                             $1.4
                 $2.2




                                                                                          Accounts Payable
                                                                                          Military Retirement and
                                                                                          Other Federal Employment Benefits
                                                                                          Remaining Liabilities



                                                                          Cash Management
                                                                          The NWCF manages working capital fund cash at
                               $21.7                                      the Departmental level. It must maintain cash levels
                                                                          at seven to ten days of operational costs, plus have
                                                                          sufficient cash reserves to meet six months of projected
               Fund Balance with Treasury                                 capital outlays, as required by the DoD Financial
               Accounts Receivable
               Inventory & Related Property                               Management Regulation.
               General Property, Plant & Equipment
               Remaining Assets                                           For FY 2013, the seven-day cash requirement was
                                                                          $889.9 million and the ten-day requirement was
                                                                          $1.2 billion.

                                NWCF Cash Balances October 1, 2012 to September 30, 2013
                                                                ($ in Millions)

                 2000

                 1600

                 1200

                  800

                  400

                    0
                         Oct       Nov       Dec    Jan   Feb       Mar       Apr   May      Jun       Jul     Aug       Sep

                                                          Fiscal Year Ending September 30




                                                                                                   Management’s Discussion and Analysis   35
Manning the rails of an amphibious dock landing ship. (U.S. Navy Photo by
Mass Communication Specialist 3rd Class Samantha J. Webb/Released)




36      Department of the Navy Fiscal Year 2013 Annual Financial Report
      Looking Forward
The DON’s achievements during FY 2013 established              affording the opportunity to begin the transition of forces
a firm foundation that will assure future success in           out of Afghanistan.
executing the mission of the Navy and Marine Corps,
                                                               The Navy continues to impose local sea control, sustain
and building a sound business operating environment. In
                                                               power ashore and play a major strategic role in the Persian
FY 2014, the Navy will focus on achieving the DON’s
                                                               Gulf, Horn of Africa and Afghanistan by providing critical
objectives outlined in the Strategic Management section.
                                                               force protection requirements, training, equipment, and
Of those objectives, the priority is to preserve pay and
                                                               assistance to the Navy’s coalition partners.
benefits for Sailors, Marines, and their families, train
the workforce, maintain equipment, and help build fleet        Taking Care of Our People
forces for the future.
                                                               The Department of the Navy is committed to maintaining
Operating in a Fiscally-Driven Frontier                        the finest, highest quality naval force that supports the
                                                               new strategic guidance for DoD. Its people are a critical
The Fiscal Year 2014 President’s Budget reflects a strategic
                                                               component of the Department’s Maritime Strategy.
direction grounded in the reality of the nation’s fiscal
                                                               America’s naval forces are and will remain combat-ready
challenges. These decisions encompass the extraordinary
                                                               because of the dedication and motivation of Sailors,
circumstances the Navy is faced with daily as result of
                                                               Marines, and the civilian workforce. The development
constrained resources.
                                                               and retention of quality personnel are vital to meeting the
The Navy must continue to invest in future weapons             defense strategy goal to be a smaller, leaner, more agile,
systems, vehicles, and infrastructure, and scrutinize          flexible, ready, and technologically-advanced all-volunteer
every option to provide for the most affordable and            force. The DON will take care of the total volunteer
effective solution. The FY 2014 Budget provides for            force by sustaining quality of service/quality of life
construction of forty-one new vessels over the Future          programs, including training, promotion opportunities,
Years Defense Program.                                         health care, housing, and reasonable operational and
                                                               personnel tempo.
The Navy and Marine Corps are agile and flexible
expeditionary forces engaged in a full range of operations     Maintaining Warfighter Readiness in an Era
around the world. Today over 42,000 Navy personnel,            of Reduced Budgets
20,000 Marines, and 121 ships are underway or deployed
worldwide creating a safer, more stable, and more              The Department will maintain strong, agile and capable
prosperous world for the American people, the nation’s         military forces. The security environment today has
allies, and its partners. The Department’s global security     created new challenges for naval forces, including
effort maintains a balance of presence between the Asia-       support demands for security, stabilization, transition
Pacific and Middle East regions.                               and reconstruction operations, support for homeland
                                                               security, and continued preparedness for contingency
Allies such as the United Kingdom and Germany will             operations. The evolving dynamics of the 21st-century
remain some of the Navy’s principal partners in seeking        security environment require our forces to be ready to
global and economic security for the foreseeable future.       deploy globally.
Building partnerships elsewhere is also important to
protect freedom of access throughout the world. Through        The top readiness priority is ensuring that forces are
partnerships with a growing number of nations, including       fully trained, ready to deploy, and fully supported
those in Africa and Latin America, the Navy strives for a      while deployed. The budget reflects the best balance
common vision of freedom, stability, and prosperity.           of resources to achieve this priority. The Navy will
                                                               closely manage the readiness accounts to ensure
This focused balance of global efforts using innovative,       we can fulfill all existing, enduring, and emerging
lower cost and smaller footprint approaches with partners      warfighting requirements.
and allies can be attributed to the extraordinary service
and sacrifice of our Sailors and Marines. Through their        Investing Toward the Joint Force of 2020
efforts, the Navy-Marine Corps team has helped to end
the war in Iraq, put al-Qa’ida on the path to defeat, and      The Department of the Navy is dedicated to procuring a
has made significant progress in stabilizing Afghanistan,      naval force that is both affordable and meets the priorities
                                                               of our nation. The Navy’s forces will remain sea based,

                                                                                     Management’s Discussion and Analysis   37
with global speed and persistence provided by forward                                The DON continues to develop its vision for Business
deployed forces and supplemented by rapidly deployable                               Transformation. Because of the size and complexity of
forces. The Navy will further provide both actionable                                the DON’s business operations it is imperative that the
intelligence and the ability to take action where and when                           Navy-Marine Corps team continues to change its business
the threat is identified in today’s unstable environment.                            practices to be more agile, efficient, and increasingly
                                                                                     responsive to the warfighter.
Revitalizing the Force Ashore
                                                                                     In these times of fiscal constraint, the DON is challenged
Providing Sailors, Marines, and the Department’s civilians                           to make necessary investments in future capabilities while
with high quality facilities, information technology, and                            sustaining current warfighting effectiveness.
an environment to achieve their goals is fundamental to
mission accomplishment. The ability to project power                                 The DON business process improvement involves
through forward deployed naval forces relies heavily on a                            executing, aligning and integrating a series of enterprise-
strong and efficient shore infrastructure.                                           wide initiatives which will dramatically transform our
                                                                                     ability to execute programs and support our mission. The
Driving Innovative Enterprise                                                        result will be improved efficiency, better decision-making,
Transformation                                                                       and an organizational culture that is performance-
                                                                                     based. Collectively, these initiatives will create an
The Department of the Navy continues its commitment                                  environment that produces more accurate and timely
to building a performance based culture and has actively                             business information and will, over time, be endorsed by a
developed process improvements to improve and                                        favorable third party financial audit.
measure performance. Working in cooperation with
the DoD enterprise, the Navy will continue to improve                                The Department of the Navy continues to look at ways
performance measurement and budget reporting and                                     that will best position itself to be prepared to defend the
to strengthen links between performance and budget.                                  country and complete its mission despite domestic budget
                                                                                     shortages and international unrest.




Newly commissioned officers celebrate their new positions by throwing their Midshipmen covers into the air as part of the U.S. Naval Academy class of 2013 graduation
and commissioning ceremony. (U.S. Navy photo by Chief Mass Communication Specialist Sam Shavers/Released)




        Limitations to the Financial Statements
The principal financial statements have been prepared                                Office of Management and Budget, the statements are
to report the financial position and results of operations                           in addition to the financial reports used to monitor and
of the entity, pursuant to the requirements of 31 United                             control budgetary resources which are prepared from the
States Code 3515 (b). While the statements have been                                 same books and records. The statements should be read
prepared from the books and records of the entity in                                 with the realization that they are for a component of the
accordance with generally accepted accounting principles                             U.S. Government, a sovereign entity.
for Federal entities and the formats prescribed by the
38      Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

                  Audit Opinions




                                                                  39
Protecting Freedom Under Extraordinary Circumstances




40   Department of the Navy Fiscal Year 2013 Annual Financial Report
  Inspector General
   Department of Defense
    4800 Mark Center Drive
Alexandria, Virginia 22350-1500




                                  41
42   Department of the Navy Fiscal Year 2013 Annual Financial Report
43
44   Department of the Navy Fiscal Year 2013 Annual Financial Report
45
46   Department of the Navy Fiscal Year 2013 Annual Financial Report
47
48   Department of the Navy Fiscal Year 2013 Annual Financial Report
  Inspector General
   Department of Defense
    4800 Mark Center Drive
Alexandria, Virginia 22350-1500




                                  49
50   Department of the Navy Fiscal Year 2013 Annual Financial Report
51
52   Department of the Navy Fiscal Year 2013 Annual Financial Report
53
54   Department of the Navy Fiscal Year 2013 Annual Financial Report
55
56   Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

             Principal Statements




                                                                  Department of the Navy   57
                                                                       Sailors man the phone and distance line on the forecastle
                                                                       aboard a guided-missile destroyer during an underway
                                                                       replenishment (U.S. Navy photo by Mass Communication
                                                                       Specialist 2nd Class David Hooper/Released)




                      Principal Statements

            The Fiscal Year 2013 Department of the Navy (DON) principal statements and related notes
            are presented in the format prescribed by the Department of Defense Financial Management
            Regulation 7000.14, Volume 6B. The statements and related notes summarize financial information
            for individual funds and accounts within the DON for the fiscal year ending September 30, 2013,
            and are presented on a comparative basis with information previously reported for the fiscal year
            ending September 30, 2012.

            The following statements comprise the DON principal statements:
              n	 Consolidated Balance Sheet
              n	 Consolidated Statement of Net Cost
              n	 Consolidated Statement of Changes in Net Position
              n	 Combined Statement of Budgetary Resources

            The principal statements and related notes have been prepared to report financial position pursuant
            to the requirements of the Chief Financial Officers Act of 1990, as amended by the Government
            Management Reform Act of 1994. The accompanying notes should be considered an integral part
            of the principal statements.

            The Independent Auditor’s Report refers to the Department of the Navy (DON) financial
            statements as the Department of the Navy General Fund financial statements.




58   Department of the Navy Fiscal Year 2013 Annual Financial Report
                                         Department of Defense - Department of the Navy

                                    CONSOLIDATED BALANCE SHEET
                                                 As of September 30, 2013 and 2012
                                                         ($ in Thousands)

                                                                                     2013 Consolidated        2012 Consolidated
ASSETS
  Intragovernmental:
      Fund Balance with Treasury (Note 3)                                     $            142,685,856   $            143,102,685
      Investments (Note 4)                                                                       8,326                      7,968
      Accounts Receivable (Note 5)                                                             280,871                    195,181
      Other Assets (Note 6)                                                                    467,313                    346,428
  Total Intragovernmental                                                                  143,442,366                143,652,262

   Cash and Other Monetary Assets (Note 7)                                                      98,977                     93,840
   Accounts Receivable, Net (Note 5)                                                         3,853,141                  3,616,372
   Inventory and Related Property, Net (Note 8)                                             75,063,235                 68,340,085
   General Property, Plant, and Equipment, Net (Note 9)                                    269,951,986                228,851,453
   Other Assets (Note 6)                                                                    50,709,475                 46,118,969
TOTAL ASSETS                                                                  $            543,119,180   $            490,672,981
Stewardship Property, Plant, and Equipment (Note 9)

LIABILITIES
   Intragovernmental:
       Accounts Payable (Note 11)                                             $              1,897,903   $               1,587,406
       Other Liabilities (Note 13)                                                           4,474,008                   4,386,160
   Total Intragovernmental Liabilities                                                       6,371,911                   5,973,566

Accounts Payable (Note 11)                                                                     398,830                     232,068
Federal Employee and Veteran Benefits (Note 15)                                              1,719,183                   1,670,760
Environmental and Disposal Liabilities (Note 12)                                            21,663,602                  21,599,934
Other Liabilities (Note 13 & Note 14)                                                        8,614,364                   8,172,836
TOTAL LIABILITIES                                                                           38,767,890                  37,649,164
Commitments and Contingencies (Note 14)

NET POSITION
  Unexpended Appropriations - Other Funds                                                  187,097,659                184,561,909
  Cumulative Results of Operations - Dedicated Collections                                      27,762                     29,532
  Cumulative Results of Operations - Other Funds                                           317,225,869                268,432,376
TOTAL NET POSITION                                                            $            504,351,290   $            453,023,817

TOTAL LIABILITIES AND NET POSITION                                            $            543,119,180   $            490,672,981

The accompanying notes are an integral part of the statements.




                                                                                                     Department of the Navy     59
                                                                   Department of Defense - Department of the Navy

                                             CONSOLIDATED STATEMENT OF NET COST
                                                                         For theYears Ended September 30, 2013 and 2012
                                                                                       ($ in Thousands)

                                                                                                                 2013 Consolidated           2012 Consolidated
Program Costs
   Gross Costs
      Military Personnel                                                                                     $             45,558,971    $            47,405,225
      Operations, Readiness, & Support                                                                                     60,652,956                 63,204,636
      Procurement                                                                                                          32,722,780                 50,485,242
      Research, Development, Test, & Evaluation                                                                            16,070,203                 16,764,357
      Family Housing & Military Construction                                                                                1,650,910                  2,434,831

     Less: Earned Revenue                                                                                                 (11,022,888)               (10,599,907)

Net Cost of Operations                                                                                       $            145,632,932    $           169,694,384

The accompanying notes are an integral part of the statements.




60     Department of the Navy Fiscal Year 2013 Annual Financial Report
                                         Department of Defense - Department of the Navy

            CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                For theYear Ended September 30, 2013
                                                         ($ in Thousands)

                                                                  2013 Dedicated
                                                                    Collections            2013 Other Funds     2013 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                             $            29,532       $    268,432,376      $      268,461,908
  Budgetary Financing Sources:
     Appropriations Used                                                           -            157,318,575             157,318,575
     Nonexchange Revenue                                                         210                      -                     210
     Donations & Forfeitures of Cash & Cash Equivalents                       22,822                    492                  23,314
     Transfers-In/Out without Reimbursement                                        -                 10,500                  10,500
  Other Financing Sources:
     Donations and Forfeitures of Property                                         -                  6,897                   6,897
     Transfers-In/Out without Reimbursement                                        -               (654,769)               (654,769)
     Imputed Financing from Costs Absorbed by Others                               -                746,117                 746,117
     Other                                                                         -             36,973,812              36,973,812
  Total Financing Sources                                                     23,032            194,401,624             194,424,656
  Net Cost of Operations                                                      24,426            145,608,506             145,632,932
  Net Change                                                                  (1,394)            48,793,118              48,791,724
  Cumulative Results of Operations                                            28,138            317,225,494             317,253,632

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                  -        184,561,909             184,561,909
   Budgetary Financing Sources:
       Appropriations Received                                                     -             174,139,345            174,139,345
       Appropriations Transferred-In/Out                                           -                (666,067)              (666,067)
       Other Adjustments (Rescissions, etc.)                                       -             (13,618,953)           (13,618,953)
       Appropriations Used                                                         -            (157,318,575)          (157,318,575)
Total Budgetary Financing Sources                                                  -               2,535,750              2,535,750
Unexpended Appropriations                                                          -             187,097,659            187,097,659
Net Position                                                                  28,138             504,323,153            504,351,291

The accompanying notes are an integral part of the statements.




                                                                                                       Department of the Navy     61
                                                                  Department of Defense - Department of the Navy

                 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                        For theYear Ended September 30, 2012
                                                                                 ($ in Thousands)

                                                                                          2012 Dedicated
                                                                                            Collections            2012 Other Funds     2012 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                                     $            25,545            267,253,020      $    267,278,565
  Budgetary Financing Sources:
     Appropriations Used                                                                                 (41)           166,059,179           166,059,138
     Nonexchange Revenue                                                                                 218                      -                   218
     Donations & Forfeitures of Cash & Cash Equivalents                                               23,734                    237                23,971
     Transfers-In/Out without Reimbursement                                                                -                      -                     -
  Other Financing Sources:
     Donations and Forfeitures of Property                                                                 -                  1,742                 1,742
     Transfers-In/Out without Reimbursement                                                                -               (138,094)             (138,094)
     Imputed Financing from Costs Absorbed by Others                                                       -                816,514               816,514
     Other                                                                                                 -              4,114,238             4,114,238
  Total Financing Sources                                                                             23,911            170,853,816           170,877,727
  Net Cost of Operations                                                                              19,924            169,674,460           169,694,384
  Net Change                                                                                           3,987              1,179,356             1,183,343
  Cumulative Results of Operations                                                                    29,532            268,432,376           268,461,908

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                                          -        178,477,576           178,477,576
   Budgetary Financing Sources:
       Appropriations Received                                                                             -             173,531,259           173,531,259
       Appropriations Transferred-In/Out                                                                   -               1,376,886             1,376,886
       Other adjustments (Rescissions, etc.)                                                             (41)             (2,764,633)           (2,764,674)
       Appropriations Used                                                                                41            (166,059,179)         (166,059,138)
Total Budgetary Financing Sources                                                                          -               6,084,333             6,084,333
Unexpended Appropriations                                                                                  -             184,561,909           184,561,909
Net Position                                                                                          29,532             452,994,285           453,023,817


The accompanying notes are an integral part of the statements.




62    Department of the Navy Fiscal Year 2013 Annual Financial Report
                                         Department of Defense - Department of the Navy

                  COMBINED STATEMENT OF BUDGETARY RESOURCES
                                           For theYears Ended September 30, 2013 and 2012
                                                         ($ in Thousands)

                                                                                   2013 Combined                 2012 Combined
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                             $              32,549,715     $             33,205,881
   Recoveries of Prior Year Unpaid Obligations                                                11,866,228                   13,249,015
   Other Changes in Unobligated Balance                                                       (1,955,989)                  (1,337,751)
   Unobligated Balance from Prior Year
       Budget Authority, net                                                                 42,459,954                   45,117,145
   Appropriations                                                                           161,841,280                  173,505,214
   Spending Authority from Offsetting Collections                                             7,367,629                    8,105,260
Total Budgetary Resources                                                      $            211,668,863      $           226,727,619

Status of Budgetary Resources:
   Obligations Incurred                                                        $            178,352,738      $           194,177,904
   Unobligated Balance, End of Year
       Apportioned                                                                           28,231,804                   28,451,635
       Exempt from Apportionment                                                                 20,725                            -
       Unapportioned                                                                          5,063,596                    4,098,080
   Unobligated Balance Brought Forward, End of Year                                          33,316,125                   32,549,715
Total Budgetary Resources                                                      $            211,668,863      $           226,727,619

Change in Obligated Balance:
Unpaid Obligations
   Unpaid Obligations, Brought Forward, October 1                              $             112,927,456     $           107,478,038
   Obligations Incurred                                                                      178,352,738                 194,177,904
   Outlays, gross                                                                           (166,935,123)               (175,479,471)
   Recoveries of Prior Year Unpaid Obligations                                                (11,866,228)               (13,249,015)
   Unpaid Obligations, End of Year, gross                                                    112,478,843                 112,927,456
Uncollected payments
   Uncollected Payments from Federal Sources, Brought Forward,
   October 1                                                                                 (2,629,802)                  (2,509,887)
   Change in Uncollected Customer Payments from Federal Sources                                (599,692)                    (119,916)
Uncollected Payments from Federal Sources, End of Year                                       (3,229,494)                  (2,629,803)
Obligated Balance, Start of Year                                               $            110,297,654      $           104,968,151
Obligated Balance, End of Year                                                 $            109,249,349      $           110,297,653

Budget Authority and Outlays, Net:
  Budget Authority, gross                                                      $            169,208,909      $           181,610,474
  Actual Offsetting Collections                                                              (6,767,937)                  (7,985,345)
  Change in Uncollected Customer Payments from Federal Sources                                 (599,692)                    (119,916)
  Budget Authority, net                                                        $            161,841,280      $           173,505,213

  Outlays, gross                                                               $            166,935,123      $           175,479,471
  Actual Offsetting Collections                                                              (6,767,937)                  (7,985,345)
  Outlays, net                                                                              160,167,186                  167,494,126
  Distributed Offsetting Receipts                                                                (86,119)                   (226,131)
Agency Outlays, Net                                                            $            160,081,067      $           167,267,995

The accompanying notes are an integral part of the statements.




                                                                                                        Department of the Navy      63
     Note 1.	Significant Accounting Policies

1.A.	Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Navy (DON), as required by the Chief Financial Officers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared
from the books and records of the DON in accordance with, and to the extent possible, U .S. Generally Accepted
Accounting Principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board (FASAB); the
Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department
of Defense (DoD), Financial Management Regulation (FMR). The accompanying financial statements account for all
resources for which the DON is responsible unless otherwise noted.
Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernible.
The DON financial statements include information from both financial systems and nonfinancial feeder systems. The
Defense Finance and Accounting Service, Cleveland (DFAS-CL) collects information from the financial system and
incorporates it into the financial statements for the DON. The DON collects financial information from nonfinancial
feeder systems through a data call process and submits it to DFAS-CL for incorporation into the financial statements.
On behalf of the DON, DFAS-CL also collects information from multiple sources, such as intragovernmental data from
the DON’s trading partners, which is incorporated into the financial statements. The Defense Departmental Reporting
System Data Collection Module (DDRS DCM) captures certain required financial information from non-integrated
systems for the DON financial statements. The DDRS DCM identifies the information requirements to the source
provider, and integrates data into the financial statement preparation process.
The DON is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to limitations of
its financial and nonfinancial management processes and systems that support the financial statements. The DON derives
reported values and information for major asset and liability categories largely from nonfinancial systems. These systems
were designed to support reporting requirements for maintaining accountability over assets and reporting the status
of federal appropriations rather than preparing financial statements in accordance with USGAAP. The DON continues
to implement process and system improvements addressing these limitations. The DON is currently converting
legacy systems to Navy Enterprise Resource Planning (ERP) and developing plans to ensure accurate and complete
financial records.
The Department of Defense Inspector General (DoDIG) issued an audit report identifying 11 financial statement
material weaknesses: (1) Financial Management Systems; (2) Fund Balance With Treasury; (3) Problem Disbursements;
(4) Unobligated Balances; (5) Financial Reporting of Plan to Perform/Order to Cash; (6) Financial Reporting
of Operating Materials and Supplies; (7) Financial Reporting of General Equipment, Real Property, and Military
Equipment; (8) Accounts Payable; (9) Other Assets; (10) Statement of Changes in Net Position; (11) Statement of
Net Cost.
The FY 2012 financial statements were reclassified to conform to the FY 2013 financial statement presentation
requirements. Changes to the presentation of the Combined and Combining Statements of Budgetary Resources were
made, in accordance with guidance provided in OMB Circular No. A-136, Financial Reporting Requirements, and as
such, activity and balances reported on the FY 2012 Combined and Combining Statement of Budgetary Resources have
been reclassified to conform to the presentation in the current year. Certain other prior year amounts have also been
reclassified to conform to the current year presentation. The reclassifications had no material effect on total assets,
liabilities, net position, change in net position, or budgetary resources as previously reported.
Subsequent events and transactions occurring after September 30, 2013 through the date of the auditors’ opinion should
be evaluated for potential recognition or disclosure in the financial statements. However, the DON is not yet able to
implement this requirement. The date of the auditors’ opinion also represents the date that the financial statements were
available to be issued.

1.B.	Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U .S .C . 411-12) . The overall mission
of the DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of winning wars,
deterring aggression, and maintaining freedom of the seas.

64    Department of the Navy Fiscal Year 2013 Annual Financial Report
1.C.	Appropriations and Funds
The DON receives appropriations and funds as general, working capital (revolving), trust, special, and deposit funds. The
DON uses these appropriations and funds (excluding deposit funds) to execute its missions and subsequently report on
resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and family housing and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009.

The National Defense Sealift Fund is the DON’s only revolving fund. Revolving funds are generally established for
carrying out specific activities. Revolving funds are financed through an appropriation or a transfer to establish a corpus
and are replenished through charges made for goods or services without fiscal year limitations. The National Defense
Sealift Fund receives an annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to record government receipts reserved for a specific purpose. Certain trust and
special funds may be designated as funds from dedicated collections. Funds from dedicated collections are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain
available over time. The DON is required to separately account for and report on the receipt, use and retention of
revenues and other financing sources for funds from dedicated collections.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity.
They are not the DON funds, and as such, are not available for the DON’s operations. The DON is acting as an agent or a
custodian for funds awaiting distribution.

The DON is a party to allocation transfers with other federal agencies as a transferring (parent) entity or receiving
(child) entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget authority and outlay
funds on its behalf. Generally, all financial activity related to allocation transfers (e.g. budget authority, obligations,
outlays) is reported in the financial statements of the parent entity. Exceptions to this general rule apply to specific funds
for which OMB has directed that all activity be reported in the financial statements of the child entity. These exceptions
include U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifically
designated by OMB.

Additionally, the DON receives allocation transfers from the EOP for the Foreign Military Financing Program (meeting
the OMB exception), the International Military Education and Training Program, U.S. Forest Service, and the Federal
Highway Administration. The activities for these funds are reported separately from the DoD financial statements and
reported to the parent.

The DON receives allocation transfers for the Security Assistance programs that meet the OMB exception for EOP
funds. These funds are reported separately from the DoD financial statements based on an agreement with OMB.

1.D.	Basis of Accounting
The DON’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
DON’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance
of USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting
basis as required by USGAAP. Most of the DON’s financial and nonfinancial legacy systems were designed to record
information on a budgetary basis.

Although the DON has not fully implemented accrual accounting, under the accrual basis, revenues are recorded when
earned and expenses are recorded when incurred, regardless of when cash is exchanged. Under the budgetary basis,
however, funds availability is recorded based upon legal considerations and constraints. As a result, certain line items on
the proprietary financial statements may not equal similar line items on the budgetary financial statements.

                                                                                                  Department of the Navy    65
The DON financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the DON’s sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, environmental liabilities, and Federal Employees’ Compensation Act (FECA) liabilities.
Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from business and
system processes. At the consolidated DON level these abnormal balances may not be evident. Disclosures of abnormal
balances are made in the applicable footnotes, but only to the extent that the abnormal balances are evident at the
consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the conversion of the DON’s legacy systems to ERP which is designed to
modernize and standardize Navy’s business practices. Navy ERP was developed utilizing the USSGL account structure to
better comply with applicable financial management requirements. Until all the DON financial and nonfinancial feeder
systems and processes are updated to collect and report financial information as required by USGAAP, financial data will
be derived from proprietary transactions, data from nonfinancial feeder systems, and accruals.

The preparation of the financial statements requires management to make certain estimates and assumptions that affect
the reported amount of assets and liabilities and the reported amounts of revenue and expenses during the reporting
period. Actual results could differ from those estimates.

1.E.	Revenues and Other Financing Sources
The DON receives congressional appropriations as financing sources for the DON that expire annually, on a multi-year
basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues generated
by sales of goods or services. The DON recognizes revenue as a result of costs incurred for goods and services provided
to other federal agencies and the public. Full-cost pricing is the DON’s standard policy for services provided as required
by OMB Circular A-25, User Charges. The DON recognizes revenue when earned within the constraints of its current
system capabilities.

The DON does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost. The U.S. has cost sharing agreements with countries having a mutual or
reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred.
However, current financial and nonfinancial feeder systems were not designed to collect and record financial information
on the full accrual accounting basis. Estimates are made for major items such as payroll expenses, accounts payable,
environmental liabilities, and FECA liabilities. In the case of Operating Materials & Supplies (OM&S), operating
expenses are generally recognized when the items are purchased. Efforts are underway to transition to the consumption
method for recognizing OM&S expenses. Under the consumption method, OM&S would be expensed when consumed.
Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The DON continues to implement process and system improvements to address these limitations.

1.G.	Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intra-entity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the DON cannot accurately identify
intragovernmental transactions by customer because the DON’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal accounting offices. In most cases, the buyer-side records are
adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing replacement systems
and a standard financial information structure that will incorporate the necessary elements that will enable DoD to
correctly report, reconcile, and eliminate intragovernmental balances.

Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the
United States Government” provides guidance for reporting and reconciling intragovernmental balances. While the
DON is unable to fully reconcile intragovernmental transactions with all federal agencies, the DON is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing
66    Department of the Navy Fiscal Year 2013 Annual Financial Report
Bank, FECA transactions with the U.S. Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, the DON sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The DON’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the DON’s cash collections, disbursements,
and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis DFAS performs a reconciliation between the DON’s
FBWT and the U.S. Treasury.

1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total
U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign
currency accommodation exchange missions.

The DON conducts a significant portion of operations overseas. Congress established a special account to handle the
gains and losses from foreign currency transactions for five DON appropriations: (1) operations and maintenance; (2)
military personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to
other appropriations require adjustments to the original obligation amount at the time of payment. The DON does not
separately identify currency fluctuation transactions.

1.K.	Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. In accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities, the methodology for losses
due to uncollectable amounts are based on an individual account analysis and/or group analysis. The analysis is based on
three years of receivable data. This data is used to determine the historical percentage of collections in each age category
of receivables. The DON does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in accordance with dispute


                                                                                                 Department of the Navy   67
resolution procedures defined in the Treasury Financial Manual Part 2, Chapter 4700, Appendix 10, “Intragovernmental
Business Rules”.

1.L.	 Inventories and Related Property
The DON manages only military or government-specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft,
support equipment, etc. As it relates to the DON, OM&S includes the related spares and repair parts for materiel.
Items commonly used in and available from the commercial sector are not managed in the DON’s materiel management
activities. The DON holds materiel based on military need and support for contingencies.

The DON uses both the consumption method and the purchase method of accounting for OM&S. The DON OM&S is
categorized as operating materials and supplies held for use, operating materials and supplies held in reserve for future
use (held for repair) (including munitions not held for sale) and excess, obsolete and unserviceable operating material
and supplies. Items that are centrally managed and stored, such as ammunition and engines, are generally recorded using
the consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support
the consumption method, the DON uses the purchase method. Under this method, materials and supplies are expensed
when purchased. During FY 2013 and 2012, the DON expensed significant amounts using the purchase method because
the systems could not support the consumption method or management deemed that the item was in the hands of the
end user. This is a material weakness for the DoD and long-term system corrections are in process. Once the proper
systems are in place, these items will be accounted for under the consumption method of accounting.

The DON OM&S assets held for use and held for repair use three cost valuation methods: Standard Price (SP), Latest
Acquisition Cost (LAC), and Moving Average Cost (MAC). Excess, obsolete, and unserviceable OM&S are cost valued
using Net Realizable Value pending development of an effective means of valuing such material. The LAC method is used
because legacy logistics systems were designed for material management rather than accounting purposes. Although
these systems provide visibility and accountability over inventory and related property items, they do not maintain
historical cost data necessary to comply with SFFAS No. 3. Additionally, these legacy inventory systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management Improvement Act of 1996
(FFMIA). The DON is continuing to transition OM&S to the MAC method. Most transitioned balances, however, were
not baselined to auditable historical cost, and remain noncompliant with SFFAS No. 3.

The DON determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as
OM&S rather than military equipment.

1.M.	Investments in U.S. Treasury Securities
The DON reports investments in accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities. The DON
reports U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or discounts are amortized
over the term of the investments using the effective interest rate method or another method obtaining similar results.
The DON’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise sustain
operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The DON invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by the
U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of particular
U.S. Treasury securities traded in the government securities market.

1.N.	General Property, Plant and Equipment
General Property, Plant and Equipment (PP&E) assets are capitalized in accordance with SFFAS No. 6, Accounting for
Property, Plant and Equipment, as amended by SFFAS Nos. 10, 23, and 35, when an asset has a useful life of two or
more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires the
capitalization of improvements to existing General PP&E assets if the improvements equal or exceed the capitalization
threshold and extend the useful life or increase the size, efficiency, or capacity of the asset. The DON depreciates all
General PP&E, other than land and Military Equipment (ME) classified as aircraft, on a straight-line basis in accordance
with FMR Volume 4 Chapter 6. The DoD’s General PP&E capitalization threshold is $100 thousand except for real
property, which is $20 thousand.

68    Department of the Navy Fiscal Year 2013 Annual Financial Report
The DON uses a combination of actual expenditure data and program funding to calculate the value for ME in
accordance with SFFAS No. 35. The DON is developing a process to track and record actual ME costs. The ME value is
updated using expenditure, acquisition, and disposal information.

When it is in the best interest of the government, the DON provides government property to contractors to complete
contract work. The DON either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on the DON’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting in accordance with Federal Acquisition
Regulations (FAR). The DoD requires the DON to maintain, in their property systems, information on all property
furnished to contractors. These actions are structured to capture and report the information necessary for compliance
with federal accounting standards. The DON has not fully implemented this policy primarily due to system limitations.

1.O.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as prescribed in
SFFAS No. 1, Accounting for Selected Assets and Liabilities is to record advances or prepayments in accordance with
USGAAP. As such, payments made prior to the receipt of goods and services should be reported as an asset on the
Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods and services are
received. The DON has not implemented this policy primarily due to system limitations.

Due to inconsistencies in the posting logic for Nonfederal Advances and Prepayments, the DON is noncompliant with
the FFMIA, which requires agencies to comply with the Federal financial management systems requirements, standards
promulgated by the FASAB, and the USSGL at the transaction level.

1.P.	Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the rental of
equipment and operating facilities are classified as either capital or operating leases. When a lease is essentially equivalent
to an installment purchase of property (a capital lease), and the value equals or exceeds the current capitalization
threshold, the DON records the applicable asset as though purchased, with an offsetting liability, and depreciates it. The
DON records the asset and the liability at the lesser of the present value of the rental and other lease payments during
the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The
discount rate for the present value calculation is either the lessor’s implicit interest rate or the government’s incremental
borrowing rate at the inception of the lease. The DON, as the lessee, receives the use and possession of leased property,
for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are expensed over the lease
term as they become payable.

Office space leases entered into by the DON are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration bills, and interservice support agreements. Future year
projections use the Consumer Price Index.

1.Q.	Other Assets
Other assets include those assets, such as military and civil service employee pay advances and certain contract financing
payments that are not reported elsewhere on the DON’s Balance Sheet. The DON maintains this classification in
accordance with SFFAS No. 1.

Advances are cash outlays made by the DON to its employees, contractors, or others to cover a part or all of the
recipients’ anticipated expenses. Military pay advances are advance payments authorized for purposes intended to
ease hardships imposed by the lack of regular payments when a military member is mobilized, ordered to duty at
distant stations, or deployed aboard ships for more than 30 days. Civilian pay advances are payments advanced to full
time the DON civilians intended to finance unusual employee expenses associated with oversea assignments that are
not otherwise reimbursed and to aid foreign assignment recruitment and retention. Travel advances are disbursed to
employees prior to business trips. Travel advances are subsequently reduced when travel expenses are actually incurred.

                                                                                                   Department of the Navy   69
The DON conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the DON
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulation, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. It is DoD
policy to record certain contract financing payments as other assets. The DON has not fully implemented this policy
primarily due to system limitations.

1.R.	Contingencies and Other Liabilities
The DON is party to various administrative proceedings, legal actions, and claims. Under SFFAS No. 5, Accounting for
Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from
Litigation, the Balance Sheet should include estimated liabilities for these items when an adverse decision is probable,
reasonably possible, and estimable. When the amount of the potential loss cannot be estimated or the likelihood of an
unfavorable outcome is remote, the contingency is not disclosed.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility of incurring a loss or additional losses. The DON’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and
vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for the DON’s assets. Consistent with SFFAS No. 6,
Accounting for Property, Plant and Equipment, recognition of an anticipated environmental disposal liability begins
when the asset is placed into service. The DON adheres to the DoD’s policy, which is consistent with SFFAS No. 5,
Accounting for Liabilities of Federal Government, and states that nonenvironmental disposal liabilities are recognized
when management decides to dispose of an asset. The DoD recognizes nonenvironmental disposal liabilities for military
equipment nuclear-powered assets when placed into service. These amounts are not easily distinguishable and are
developed in conjunction with environmental disposal costs.

1.S.	Accrued Leave
Military leave, compensatory and annual leave earned by civilians, but not yet used, is reported as accrued liabilities. The
accrued balance is adjusted annually to reflect current pay rates. Any portions of the accrued leave, for which funding is
not available, are recorded as an unfunded liability. Sick leave for civilians is expensed as taken.

1.T.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.U.	Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The DON purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally
allow the DON continued use of these properties until the treaties expire. In the event treaties or other agreements
are terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments
and may be offset by the cost of environmental cleanup.

1.V.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
70    Department of the Navy Fiscal Year 2013 Annual Financial Report
Treasury. Supported disbursements and collections may be evidenced by the availability of corroborating documentation
that would generally support the summary-level adjustments made to accounts payable and receivable. Both supported
and unsupported adjustments may have been made to the DON’s Accounts Payable and Receivable trial balances prior
to validating that the underlying transactions required to establish the Accounts Payable/Receivable were previously
made. As a result, misstatements of reported Accounts Payable and Receivables are likely present in the DON’s
financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally unable to
determine whether undistributed disbursements and collections should be applied to federal or nonfederal accounts
payable/receivable at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate supported
undistributed disbursements and collections between federal and nonfederal categories based on the percentage
of distributed federal and nonfederal accounts payable and accounts receivable. Both supported and unsupported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.

1.W.	Fiduciary Activities
Fiduciary cash and other assets are not assets of the DON and are not recognized on the balance sheet. Fiduciary
activities are reported on the financial statement note schedules in accordance with SFFAS No. 31, Accounting for
Fiduciary Activities.

1.X.	Federal Employee and Veteran Benefits
For financial reporting purposes, the DON’s actuarial liability for workers’ compensation benefits is developed by the
Department of Labor and provided to the DON at the end of each fiscal year. Military retirement is accounted for in
the audited financial statements of the Military Retirement fund; as such, the DON does not record any liabilities or
obligations for pensions or healthcare retirement benefits.

     Note 2.	 Nonentity Assets

                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                 2013                        2012
Intragovernmental
    Fund Balance with Treasury                                            $             198,608   $                    288,275

Cash and Other Monetary Assets                                                          98,977                       93,840
Accounts Receivable                                                                  3,710,658                    3,528,238
Total Nonentity Assets                                                               4,008,243                    3,910,353

Total Entity Assets                                                                539,110,937                 486,762,628

Total Assets                                                              $        543,119,180    $            490,672,981

Nonentity assets are assets for which the DON maintains stewardship accountability and reporting responsibility but
which are not available for the DON’s normal operations.

Intragovernmental Fund Balance with Treasury
This nonentity asset category primarily represents amounts in the DON’s Suspense Funds, Withheld State and Local
Taxes Fund, and Withheld Allotment of Compensation for Payment of Employee Organization Dues Fund.

Cash and Other Monetary Assets
This nonentity asset category represents disbursing officers’ cash, foreign currency, and undeposited collections as
reported on the Disbursing Officer’s Statement of Accountability. These assets are held by the DON disbursing officers
on behalf of other agencies and are not available for the DON’s use in normal operations.




                                                                                              Department of the Navy        71
Nonentity Nonfederal Accounts Receivable (Public)
The primary component of nonentity accounts receivable is an advance payment made to a contractor for the A-12
aircraft procurement program, which remains in litigation and includes associated accrued interest. These receivable
balances are being reported in nonentity accounts receivable since the original appropriation year has been cancelled,
and any funds collected as a result of this litigation would be remitted to the U.S. Treasury.

     Note 3.	 Fund Balance with Treasury

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                       2013                 2012
Fund Balances
  Appropriated Funds                                                                               $    141,795,951     $    141,644,490
  Revolving Funds                                                                                           667,591            1,147,198
  Trust Funds                                                                                                21,535               20,588
  Special Funds                                                                                               2,171                2,134
  Other Fund Types                                                                                          198,608              288,275

Total                                                                                              $    142,685,856     $    143,102,685

Other Fund Types consists primarily of amounts in the following deposit and receipt accounts: The DON Proprietary
Receipts, Pay of the Navy Deposit Fund, and Pay of the Marine Corps Deposit Fund.

Status of Fund Balance with Treasury
                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                       2013                 2012
Unobligated Balance
  Available                                                                                        $     28,252,529     $     28,451,635
  Unavailable                                                                                             5,066,166            4,098,080

Obligated Balance not yet Disbursed                                                                     112,478,843          112,927,456

Non-Budgetary FBWT                                                                                            126,117              263,260

Non-FBWT Budgetary Accounts                                                                               (3,237,799)          (2,637,746)

Total                                                                                              $    142,685,856     $    143,102,685

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances.
The balances reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested
in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Non-budgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts and nonentity FBWT. For the DON, Non-budgetary FBWT consists of balances in receipt
accounts and clearing accounts. Due to the DON systems inability to segregate Budgetary FBWT balances, Non-FBWT
Budgetary Accounts are used to reconcile the Status of FBWT.

72      Department of the Navy Fiscal Year 2013 Annual Financial Report
Other
                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                        2013                                  2012
Fund Balances Per Treasury Versus Agency
  Fund Balance per Treasury                                                   $              144,200,615     $                  144,586,439
  Fund Balance per the DON                                                                   142,685,856                        143,102,685

Reconciling Amount                                                            $                1,514,759     $                    1,483,754


     Note 4.	Investments and Related Interest

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                        2013
                                                                     Amortized (Premium) /                                    Market Value
                                                     Cost                  Discount            Investments, Net                Disclosure
Intragovernmental Securities
Nonmarketable, Market-Based
    Other Funds                               $             8,332     $               (15)    $            8,317          $            8,318

Accrued Interest                                                 8                      -                         8                          8

Total                                         $             8,340     $               (15)    $            8,325          $            8,326

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                        2012
                                                                     Amortized (Premium) /                                    Market Value
                                                     Cost                  Discount            Investments, Net                Disclosure

Intragovernmental Securities
Nonmarketable, Market-Based
    Other Funds                               $             7,985     $               (28)    $            7,957          $            7,957

Accrued Interest                                              11                        -                     11                             11

Total                                         $             7,996     $               (28)    $            7,968          $            7,968

Other Funds represents the DON Trust Fund holdings in interest-bearing securities for the Naval Academy General Gift
Fund and the DON General Gift Fund. These investments are Nonmarketable Market-Based U.S. Treasury securities
reported at cost, net of amortized premiums and discounts. In accordance with the SFFAS No. 27, Identifying and
Reporting Funds from Dedicated Collections, the DON Trust Funds are reported as funds from dedicated collections.

     Note 5.	 Accounts Receivable

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                                  2013
                                                                                      Allowance For Estimated         Accounts Receivable,
                                                                 Gross Amount Due          Uncollectibles                     Net
Intragovernmental Receivables                                $              280,871     $                N/A          $             280,871
Nonfederal Receivables (From the Public)                                  3,873,235                  (20,094)                     3,853,141

Total                                                        $            4,154,106     $            (20,094)         $           4,134,012




                                                                                                         Department of the Navy              73
                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                                      2012
                                                                                                              Allowance For Estimated   Accounts Receivable,
                                                                                         Gross Amount Due          Uncollectibles               Net
Intragovernmental Receivables                                                        $              195,181    $                N/A     $          195,181
Nonfederal Receivables (From the Public)                                                          3,636,386                 (20,014)             3,616,372

Total                                                                                $            3,831,567    $            (20,014)    $         3,811,553

The accounts receivable represent the DON’s claim for payment from other entities. Intra-governmental Receivables
primarily represents amounts due from other federal agencies for reimbursable work performed pursuant to the
Economy Act and other statutory authority. Claims with other federal agencies are resolved in accordance with the
Intragovernmental Business Rules. Refer to Note 2, Nonentity Assets for additional information on non-Federal
Accounts Receivable. Since the DON is at risk of not collecting on these public accounts receivable, the DON is
recognizing an allowance for uncollectible amounts. The methodology used in determining the allowance amount is
discussed in Note 1.K.

The DON is currently working on an effort to drive compliance with Office of Management and Budget (OMB)
Circular A-11, Section 20.4(b)(4). Non-compliance results in unsupported departmental level adjustments which
negatively impacts achievement of the DON’s audit readiness goals for its Statement of Budgetary Resources. The DON
is partnering with the DFAS to clarify guidance, resolve funding issues and standardize business practices. In addition,
the DON and DFAS are aggressively pursuing collection mechanisms for amounts currently due from the public.

     Note 6.	Other Assets

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                               2013                         2012
Intragovernmental Other Assets
    Advances and Prepayments                                                                         $                467,313      $                346,428

Outstanding Contract Financing Payments                                                                            50,425,911                   45,824,661
Advances and Prepayments                                                                                              269,634                      282,061
Other Assets (With the Public)                                                                                         13,930                       12,247
Total Nonfederal Other Assets                                                                                      50,709,475                   46,118,969

Total                                                                                                $             51,176,788      $            46,465,397

Intra-governmental Other Assets - Advances and Prepayments
Advances are cash outlays made by a federal entity to cover a part or all of the recipients’ anticipated expenses or as
advance payments for the costs of goods and services the entity receives. Prepayments are payments made to cover
certain periodic expenses before those expenses are incurred.

Nonfederal Other Assets - Outstanding Contract Financing Payments (OCFP)
Contract terms and conditions for certain types of contract financing payments conveying certain rights to the
Government that protect the contract work from state or local taxation, liens or attachment by the contractor’s
creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean
that ownership of the contractor’s work has transferred to the Federal Government. The Federal Government does not
have the right to take the work, except as provided in contract clauses related to termination or acceptance, and the
DON is not obligated to make payment to the contractor until delivery and acceptance. Some of the amounts reported
as OCFP may be progress payments based on percentage or stage of completion. However, the DON is unable to
identify these due to system limitations and all amounts are reported as OCFP.

The balance of OCFP includes $49.1 billion in contract financing payments and an additional $1.3 billion in estimated
future payments to contractors upon delivery and government acceptance of a satisfactory product. (See additional
discussion in Note 13, Other Liabilities).

74      Department of the Navy Fiscal Year 2013 Annual Financial Report
Nonfederal Other Assets - Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to the DON military personnel, travel advances to military
and civilian personnel, and miscellaneous advances to contractors that are not considered outstanding contract
financing payments.

     Note 7.	 Cash and Other Monetary Assets

                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                       2013                          2012
Cash                                                                          $                  71,703   $                    65,511
Foreign Currency                                                                                 27,274                        28,329

Total                                                                         $                  98,977   $                    93,840

Cash and Foreign Currency consist primarily of cash held by the DON Disbursing Officers to carry out their payment,
collection, and foreign currency accommodation exchange mission. Foreign Currency is also held in overseas banks in
support of contingency operations. The primary source of the amounts reported is the Disbursing Officers Statements
of Accountability.

Total Cash, Foreign Currency, and Other monetary assets reported are nonentity assets that are not available for the
DON’s use in normal operations. Therefore, the entire Cash and Foreign Currency balance is restricted as to its use.

     Note 8.	Inventory and Related Property

                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                       2013                          2012
Inventory, Net                                                                $                   46      $                       -
Operating Materials & Supplies, Net                                                       75,063,189                     68,340,085

Total                                                                         $           75,063,235      $              68,340,085

Operating Materials and Supplies, Net
                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                         2013
                                                   OM&S Gross Value      Revaluation Allowance       OM&S, Net        Valuation Method
OM&S Categories
  Held for Use                                     $     67,741,862       $            (8,704)   $     67,733,158 SP, LAC, MAC
  Held for Repair                                         7,341,940                   (11,909)          7,330,031 SP, LAC, MAC
  Excess, Obsolete, and Unserviceable                     1,467,965               (1,467,965)                   -      NRV

Total                                              $     76,551,767       $       (1,488,578)    $     75,063,189




                                                                                                      Department of the Navy       75
                                                                              As of September 30
                                                                           (Amounts in thousands)
                                                                                                                   2012
                                                                             OM&S Gross Value      Revaluation Allowance       OM&S, Net      Valuation Method
OM&S Categories
  Held for Use                                                               $     64,466,653       $         (28,046)     $     64,438,607 SP, LAC, MAC
  Held for Repair                                                                   4,700,125                (798,647)            3,901,478 SP, LAC, MAC
  Excess, Obsolete, and Unserviceable                                               1,249,665              (1,249,665)                    -      NRV

Total                                                                        $     70,416,443       $      (2,076,358)     $     68,340,085

Legend for Valuation Methods:
LAC = Latest Acquisition Cost	                              NRV = Net Realizable Value
SP = Standard Price		                                       MAC = Moving Average Cost

The DON assigns Operating Materials & Supplies (OM&S) items to a category based upon the type and condition of the
asset. OM&S Held for Use includes spare and repair parts, clothing and textiles, and petroleum products. OM&S Held
for Repair consists of damaged material held as inventory that is more economical to repair than to dispose. The DON
is currently using the allowance method of accounting for repairables in the legacy accounting system and the direct
method of accounting for repairables in Navy Enterprise Resource Planning (ERP). Excess, Obsolete, and Unserviceable
OM&S consists of scrap material or items that cannot be economically repaired and are awaiting disposal.

The consumption method shall be applied when accounting for OM&S and valued at moving average cost using
historical cost or any method approximating historical cost (e.g., standard cost or latest acquisition cost). Exceptions
to the consumption method are provided when (1) the OM&S are not significant amounts, (2) they are in the hands of
the end user for use in normal operations, or (3) it is not cost beneficial to apply the consumption method. In any of
these events, the purchase method is allowed. Legacy accounting systems cannot support the consumption method of
accounting, thus the various reporting activities are currently using the purchase method. As financial reporting entities
begin to purchase material in Navy ERP, the consumption method will be properly applied.

OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration pods, and
centrally managed aircraft engines. The Moving Average Cost valuation method is used for a majority of the OM&S
categories; however Actual Cost and Latest Acquisition Cost are also valuation methods applied depending on the legacy
inventory system used to forecast OM&S cost.

Ammunition and Munitions are maintained in the DON Ordnance Information System and valued at latest
acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and electronic equipment, and
uninstalled aircraft engines. They are items of such importance that central inventory control is required to provide the
readiness of the material for the Fleet. These items possess one of the following characteristics: essential for combat or
training; high dollar value; difficult to procure or produce; or critical basic material or component parts. Principal End
and Secondary Items are valued at Moving Average Cost.

Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War Reserve
material in possession of the U.S. Coast Guard.




76      Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 9.	General PP&E, Net

                                                           As of September 30
                                                      (Amounts in thousands)
                                                                                        2013
                                           Depreciation/                                           Accumulated
                                           Amortization                                            Depreciation/
                                             Method        Service Life   Acquisition Value        Amortization            Net Book Value
Major Asset Classes
   Land                                        N/A             N/A        $         659,876    $             N/A       $          659,876
   Buildings, Structures, and Facilities       S/L          20 or 40             46,837,512          (25,252,572)              21,584,940
   Leasehold Improvements                      S/L         lease term                 6,530               (3,014)                   3,516
   Software                                    S/L          2-5 or 10                 5,763               (2,166)                   3,597
   General Equipment                           S/L           5 or 10             17,540,068           (9,981,526)               7,558,542
   Military Equipment                          S/L           Various            430,595,909         (201,884,661)             228,711,248
   Construction-in-Progress (Excludes
   Military Equipment)                         N/A             N/A               10,410,579                  N/A              10,410,579
   Other                                                                          1,019,688                    -               1,019,688
Total General PP&E                                                        $     507,075,925    $    (237,123,939)      $     269,951,986

                                                           As of September 30
                                                      (Amounts in thousands)
                                                                                        2012
                                           Depreciation/                                           Accumulated
                                           Amortization                                            Depreciation/
                                             Method        Service Life   Acquisition Value        Amortization            Net Book Value
Major Asset Classes
   Land                                        N/A             N/A        $         612,657    $             N/A       $          612,657
   Buildings, Structures, and Facilities       S/L          20 or 40             43,733,681          (23,834,274)              19,899,407
   Leasehold Improvements                      S/L         lease term                 6,530               (2,702)                   3,828
   Software                                    S/L          2-5 or 10                 3,405               (3,008)                     397
   General Equipment                           S/L           5 or 10             14,858,936           (8,900,915)               5,958,021
   Military Equipment                          S/L           Various            416,154,006         (222,121,894)             194,032,112
   Construction-in-Progress (Excludes
   Military Equipment)                         N/A             N/A                7,189,011                  N/A               7,189,011
   Other                                                                          1,156,020                    -               1,156,020
Total General PP&E                                                        $     483,714,246    $    (254,862,793)      $     228,851,453

Legend for Valuation Methods:
S/L = Straight Line	    N/A = Not Applicable

The DON has the use of land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. Generally, treaty terms allow the DON continued use of
these properties until the treaties expire. There are no other known restrictions on General PP&E.

The DON estimates values for capitalized Military Equipment using department internal records such as budgetary
information for aircraft and expenditure data for ships. Currently, the DON is not reporting the construction of Military
Equipment in the appropriate Construction-in-Progress account. The DON is reporting the value of the construction of
its Military Equipment as an Advance. The DON is currently in the process of readying the Navy ERP system to allow
for the proper recording of the construction of its assets.

Other General PP&E consists of Real Property held in Caretaker Status. Caretaker is defined as those properties that
Navy still owns, but which are being held awaiting further disposal action to another entity, such as Defense Base Closure
and Realignment Commission (BRAC) property awaiting sale or transfer to another Federal agency. As of September 30,
2013, the accumulated depreciation related to these assets in Caretaker status are currently included in the total
accumulated depreciation of Buildings Structures and Facilities still in service and is unknown at this time. The DON is
researching the dollar value of depreciation expenses related to these assets.




                                                                                                           Department of the Navy           77
Heritage Assets
                                                                              Measure          As of                                              As of
Categories                                                                    Quantity   September 30, 2012   Additions       Deletions     September 30, 2013
Buildings and Structures                                                       Each                 10,035             -                -             10,035
Archaeological Sites                                                           Each                 18,534         4,526                -             23,060
Museum Collection Items (Objects, Not Including Fine Art)                      Each                503,938        10,764               12            514,690
Museum Collection Items (Objects, Fine Art)                                    Each                 40,813           105                              40,918

Stewardship Land
                                                                        (Acres in thousands)
                                                                                    As of                                                         As of
Facility Code          Facility Title                                         September 30, 2012      Additions            Deletions        September 30, 2013
9110                   Government Owned Land                                                  4                   -             1                          3
9120                   Withdrawn Public Land                                              2,030                   -              -                     2,030
9130                   Licensed and Permitted Land                                           21                   5              -                        26
                                                                                                                       Grand Total                     2,059

                                                                                                        TOTAL - All Other Lands                            25

                                                                                                    TOTAL - Stewardship Lands                          2,034


Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and Stewardship Land,” requires
note disclosures for these types of assets. The DON’s policy is to preserve its heritage assets, which are items of
historical, cultural, educational, or artistic importance.

Heritage assets within the DON consist of buildings and structures, archeological sites, and museum collections. The
DON defines these as follows:

Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on, the National Register of
Historic Places, including Multi-Use Heritage Assets.

Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible for or are listed on the
National Historical Places in accordance with Section 110 National Historical Preservation Act.

Museum Collection Items. Items that are unique for one or more of the following reasons: historical or natural
significance; cultural, educational, or artistic importance; or significant technical or architectural characteristics.

The DON’s stewardship land consists mainly of mission essential land acquired by donation or devise. The DON held the
above acres of land as of September 30, 2013.

The Marine Corps continues to make updates to their beginning balances as a result of audit findings.

The overall mission of the DON is to control and maintain freedom of the seas, project power beyond the sea, and
influence events and advance U.S. interests across the full spectrum of military operations. As this mission has been
executed, the DON has become a large-scale owner of historic buildings, structures, districts, archeological sites
and artifacts, ships, aircraft, other cultural resources, and several hundred installations to include stewardship land.
Protection of these components of the nation’s heritage assets and stewardship land is an essential part of the DON’s
mission; the DON is committed to responsible cultural resources stewardship.




78    Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 10.	Liabilities Not Covered by Budgetary Resources

                                                      As of September 30
                                                   (Amounts in thousands)
                                                                                       2013                             2012
Intragovernmental Other Liabilities                                           $                476,783       $                    519,939

Accounts Payable                                                              $                 4,725        $                  20,837
Federal Employee and Veteran Benefits                                                       1,718,646                        1,670,271
Environmental and Disposal Liabilities                                                     21,663,602                       21,599,934
Other Liabilities                                                                           4,501,869                        4,924,700

Total Liabilities Not Covered by Budgetary Resources                          $            28,365,625        $              28,735,681

Total Liabilities Covered by Budgetary Resources                              $            10,402,265        $               8,913,483

Total Liabilities                                                             $            38,767,890        $              37,649,164

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided. These include liabilities resulting from the receipt of goods or services in the
current or prior periods, or the occurrence of eligible events in the current or prior periods, for which revenues or
other sources of funds necessary to pay the liabilities have not been made available through Congressional appropriations
or earnings of the entity.
Intragovernmental Other Liabilities consists primarily of unfunded Federal Employees’ Compensation Act (FECA)
liabilities due to the Department of Labor and unemployment compensation due to applicable states. These liabilities will
be funded by future years’ budgetary resources.
Nonfederal Liabilities
Accounts payable not covered by budgetary resources is related to cancelled year accounts payable that are not budgeted.
Federal Employee and Veteran Benefits consist of unfunded FECA actuarial liabilities not due during the current
fiscal year. Environmental liabilities are estimates related to future events, and consist of liabilities related to active
installations, Defense Base Closure and Realignment Commission sites, equipment and weapons programs, and chemical
weapons disposal. Finally, Other Liabilities include annual leave, estimated legal contingent liabilities, and the disposal of
excess structures that are not currently budgeted for but will become funded as future events occur.
See Note 12, Environmental and Disposal Liabilities for additional details.

     Note 11.	 Accounts Payable

                                                      As of September 30
                                                   (Amounts in thousands)
                                                                                               2013
                                                                                       Interest, Penalties, and
                                                                  Accounts Payable       Administrative Fees               Total
Intragovernmental Payables                                    $            1,897,903   $                  N/A     $          1,897,903
Nonfederal Payables (to the Public)                                          398,830                        -                  398,830

Total                                                         $            2,296,733   $                      -   $          2,296,733

                                                      As of September 30
                                                   (Amounts in thousands)
                                                                                               2012
                                                                                       Interest, Penalties, and
                                                                  Accounts Payable       Administrative Fees               Total
Intragovernmental Payables                                    $            1,587,406   $                  N/A     $          1,587,406
Nonfederal Payables (to the Public)                                          231,951                      117                  232,068

Total                                                         $            1,819,357   $                   117    $          1,819,474


                                                                                                         Department of the Navy        79
Accounts Payable includes amounts owed to federal and nonfederal entities for goods and services received by the
DON. The DON’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-
side accounts payable are adjusted to agree with interagency seller-side accounts receivable. This is accomplished by
1) reclassifying amounts between federal and nonfederal cost categories, 2) accruing additional accounts payable and
expenses, and 3) applying both supported and unsupported undistributed disbursements at the reporting entity level.

      Note 12.	Environmental and Disposal Liabilities

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                       2013                 2012
Environmental Liabilities--Nonfederal
  Accrued Environmental Restoration Liabilities
      Active Installations—Installation Restoration Program (IRP) and
      Building Demolition and Debris Removal (BD/DR)                                               $      2,609,056     $      2,511,374
      Active Installations—Military Munitions Response Program (MMRP)                                     2,041,359            1,979,961

     Other Accrued Environmental Liabilities—Non-BRAC
        Environmental Corrective Action                                                            $           56,959   $           65,352
        Environmental Closure Requirements                                                                    378,647              374,704
        Environmental Response at Operational Ranges                                                           13,305               14,168
        Asbestos                                                                                              308,480              337,428
        Non-Military Equipment                                                                                541,000              519,390
        Other                                                                                                     764                  810

     Base Realignment and Closure Installations
        Installation Restoration Program                                                           $      1,362,309     $      1,417,953
        Military Munitions Response Program                                                                 114,019              153,939
        Environmental Corrective Action / Closure Requirements                                               13,894               22,879

     Environmental Disposal for Military Equipment / Weapons Programs
        Nuclear Powered Military Equipment / Spent Nuclear Fuel                                    $     14,076,334     $     14,055,948
        Other Weapons Systems                                                                               147,476              146,028

Total                                                                                              $     21,663,602     $     21,599,934

The above table excludes estimated total cleanup costs associated with General Property, Plant, and Equipment of
$2.8 billion for FY 2013 and $2.8 billion for FY 2012.

The “Other” type of environmental liabilities under Other Accrued Environmental Costs represents an environmental
estimate for disposal of Polychlorinated Biphenyls (PCB) transformers located at various Naval installations.

In addition to the liabilities reported above, the DON has the potential to incur costs for restoration initiatives in
conjunction with returning overseas Defense facilities to host nations. The DON is unable to provide a reasonable
estimate at this time because the extent of restoration required is not known.

Applicable Laws and Regulations for Cleanup Requirements
The following is a list of significant laws that affect the DON’s conduct of environmental policy and regulations:
  n	 Superfund Amendments and Reauthorization Act of 1986
  n	 The Resource Conservation and Recovery Act of 1976 as amended by the Hazardous and Solid Waste Amendments
       of 1984
  n	 The Clean Water Act of 1977, amended the Federal Water Pollution Control Act
  n	 The Safe Drinking Water Act of 1974
  n	 The Clean Air Act, as amended in 1990
  n	 The Atomic Energy Act of 1954


80      Department of the Navy Fiscal Year 2013 Annual Financial Report
  n	 The Nuclear Waste Policy Act of 1982
  n	 The Low Level Radioactive Waste Policy Amendments Act of 1986
  n	 The National Environmental Policy Act of 1969 (only Defense Base Closure and RealignmentCommission (BRAC)

Methods for Assigning Total Cleanup Costs to Current Operating Periods
Active Installations - Defense Environmental Restoration Program (DERP) Funded: Accrued DERP cleanup liabilities
represent the cost to correct past releases of hazardous constituents to Property, Plant, and Equipment, including
acquired land and Stewardship Land. Environmental cleanup of past releases is funded by DERP and carried out under
applicable regulatory laws and procedural guidance..

Environmental restoration activities may be conducted at operating installations under the Installation
Restoration Program (IRP) and at Closed, Transferred, and Transferring Munitions Ranges under the Military
Munitions Response Program (MMRP). Determining total environmental cleanup cost considers, on a current
cost basis, the anticipated actions required to complete the cleanup, as well as applicable legal and/or regulatory
requirements. Program management and support costs are also included in the estimates. The estimate produced is
based on site-specific information and use of cost models. The cost estimates are developed and maintained in the DON’s
Normalization of Data System (NORM) database. Such cost estimates are based on the current technology available.

MMRP liabilities are specific to the identification, investigation, removal, and remedial actions to address environmental
contamination at ranges that were closed prior to September 30, 2002. The contamination may include munitions,
chemical residues from military munitions and munitions scrap at ranges on active installations that pose a threat to
human health or the environment. Cost to Complete (CTC) is not estimated until there is sufficient site-specific data
available to estimate the total CTC. However, the DON uses the cost of the study as the estimate until the study is
completed.

The Accrued environmental restoration costs do not include the costs of environmental compliance, pollution
prevention, conservation activities, contamination, or spills associated with current operations or treaty obligations, all
of which are accounted for as part of ongoing operations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities associated with
the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear Powered Ships, Conventional Ships, and Spent
Nuclear Fuel. During FY 2006, under the DON Financial Improvement Program (FIP), the DON completed a review
of the estimating methodology for determining the cost for disposal of ships and submarines. This review resulted in
an environmental and non-environmental liability estimate that more accurately reflects the true costs of disposal. The
estimating methodology is based on average cost per class of ship rather than an average applied to all ships regardless of
class.

Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration Liabilities
The DON environmental cleanup cost estimate was based on 3,919 IRP and 365 MMRP sites at 207 active installations.
As of September 30, 2013, the DON estimated and reported $4.7 billion for environmental restoration liabilities.
This amount is comprised of $2.7 billion in Active Installations-IRP liabilities and $2.0 billion in Active Installations-
MMRP liabilities.

Other Accrued Environmental Liabilities – Non-BRAC
The DON defines Non-BRAC environmental units as those sites associated with on-going operations such as solid waste
management unit cleanup, landfill closure, permitted facilities, removal, replacement, retro fill, and/or disposal of PCB
transformers, underground storage tank remedial investigation and closure.

Base Realignment and Closure Installations
BRAC environmental sites are environmental sites at the DON installations that are or will be closed under the
congressionally mandated BRAC process. As of September 30, 2013, the DON has estimated and reported $1.51 billion
for BRAC funded environmental liabilities. This amount includes $1.4 billion for IRP, $0.1 billion for MMRP, and


                                                                                                 Department of the Navy       81
$0.01 billion for environmental corrective action and closure requirements. MMRP includes military munitions,
chemical residues from military munitions, and munitions scrap at locations on a BRAC installation.

Environmental Disposal for Military Equipment /Weapons Programs
Environmental Disposal for Weapons Systems are those estimates associated with the environmental disposal costs for the
DON Nuclear Weapons Programs that include Nuclear Powered Aircraft Carriers and Submarines and Other Nuclear
Powered Ships, Conventional Ships, and Spent Nuclear Fuel.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation, Deflation,Technology, or Applicable
Laws and Regulations
Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor rates and materials.
Currently, there are no indications that any of the environmental liabilities for any category will be adjusted due to
deflation. As of September 30, 2013, there are no changes to the environmental liability estimates due to changes in
laws, regulations, and agreements with regulatory agencies. The DON does not have any estimates that were changed
due to advances in technology.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the Reported Environmental Liabilities
The environmental liabilities for the DON are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The actual
results may materially vary from the accounting estimates if agreements with regulatory agencies require remediation
to a different degree than when calculating the estimates. Liabilities can be further affected if investigation of the
environmental sites reveals contamination levels that differ from the estimate parameters.

     Note 13.	Other Liabilities

                                                                           As of September 30
                                                                        (Amounts in thousands)
                                                                                                                   2013
                                                                                       Current Liability     Noncurrent Liability           Total
Intragovernmental
    Advances from Others                                                           $              150,533    $                 -        $       150,533
    Disbursing Officer Cash                                                                       100,883                      -                100,883
    Judgment Fund Liabilities                                                                         771                      -                    771
    FECA Reimbursement to the Dept. of Labor                                                      165,467                193,509                358,976
    Custodial Liabilities                                                                       3,708,752                      -              3,708,752
    Employer Contribution and Payroll Taxes Payable                                                36,736                      -                 36,736
    Other Liabilities                                                                             117,357                      -                117,357

Total Intragovernmental                                                                         4,280,499                193,509              4,474,008

Accrued Funded Payroll and Benefits                                                             1,528,567                           -         1,528,567
Advances from Others                                                                              526,004                           -           526,004
Deposit Funds and Suspense Accounts                                                               198,608                           -           198,608
Nonenvironmental Disposal Liabilities
   Military Equipment (Nonnuclear)                                                                161,461                63,107                 224,568
   Excess/Obsolete Structures                                                                      79,243               218,880                 298,123
Accrued Unfunded Annual Leave                                                                   3,000,903                     -               3,000,903
Contract Holdbacks                                                                                516,623                     -                 516,623
Employer Contribution and Payroll Taxes Payable                                                    23,703                     -                  23,703
Contingent Liabilities                                                                             21,115             2,276,229               2,297,344
Other Liabilities                                                                                     (79)                    -                     (79)

Total Other Liabilities                                                            $         10,336,647      $        2,751,725         $   13,088,372




82    Department of the Navy Fiscal Year 2013 Annual Financial Report
                                                         As of September 30
                                                      (Amounts in thousands)
                                                                                                2012
                                                                     Current Liability    Noncurrent Liability             Total
Intragovernmental
    Advances from Others                                         $              212,571   $                 -        $         212,571
    Deposit Funds and Suspense Account Liabilities                                    -                     -                        -
    Disbursing Officer Cash                                                      95,170                     -                   95,170
    Judgment Fund Liabilities                                                     6,533                     -                    6,533
    FECA Reimbursement to the Dept. of Labor                                    162,613               204,193                  366,806
    Custodial Liabilities                                                     3,526,910                     -                3,526,910
    Employer Contribution and Payroll Taxes Payable                              30,938                     -                   30,938
    Other Liabilities                                                           147,232                     -                  147,232

Total Intragovernmental                                                       4,181,967               204,193                4,386,160

Accrued Funded Payroll and Benefits                                            980,016                           -                980,016
Advances from Others                                                           493,118                           -                493,118
Deposit Funds and Suspense Accounts                                            262,812                           -                262,812
Nonenvironmental Disposal Liabilities
   Military Equipment (Nonnuclear)                                              151,304                26,488                  177,792
   Excess/Obsolete Structures                                                    66,094               525,598                  591,692
Accrued Unfunded Annual Leave                                                 2,940,264                     -                2,940,264
Contract Holdbacks                                                               73,563                                         73,563
Employer Contribution and Payroll Taxes Payable                                  21,557                                         21,557
Contingent Liabilities                                                           15,364            2,610,012                 2,625,376
Other Liabilities                                                                 6,646                    -                     6,646

Total Other Liabilities                                          $            9,192,705   $        3,366,291         $      12,558,996

Intragovernmental Other Liabilities consists primarily of Unemployment Compensation unfunded liabilities.

Contingent Liabilities includes $1.3 billion related to contracts authorizing progress payments based on cost as defined
in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work
vests with the Federal Government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. It is DoD policy that these rights should not be misconstrued
as rights of ownership. The DON is under no obligation to pay contractors for amounts greater than the amounts
of progress payments authorized in contracts until delivery and government acceptance. Due to the probability the
contractors will complete their efforts and deliver satisfactory products, and because the amount of contractor costs
incurred but not yet paid are estimable, the DON has recognized a contingent liability for the estimated unpaid costs that
are considered conditional for payment pending delivery and government acceptance.

The estimate of total contingent liabilities for progress payments are based on cost that represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be paid under progress
payments based on cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the
cumulative unliquidated progress payments based on cost by the contract-authorized progress payment rate. The balance
of unliquidated progress payments based on cost is deducted from the estimated total contractor-incurred costs to
determine the contingency amount.

The abnormal balance in non-Federal Other Liabilities is under investigation. It is likely related to ongoing general
ledger posting issues to be addressed through audit readiness efforts.

     Note 14.	 Commitments and Contingencies

The DON is a party in various administrative proceedings and legal actions related to claims for environmental damage,
equal opportunity matters, and contractual bid protests, which may ultimately result in settlements or decisions adverse
to the Federal Government. These proceedings and actions arise in the normal course of operations and their ultimate
disposition is unknown. The DON has accrued contingent liabilities for legal actions where the Office of General

                                                                                                         Department of the Navy        83
Counsel (OGC) considers an adverse decision probable and the amount of the loss is measurable. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund.
The DON records contingent liabilities in Note 13, Other Liabilities.

For FY 2013, the DON materiality threshold for reporting litigation, claims, or assessments is $52.1 million. The DON
OGC conducts a review of litigation and claims threatened or asserted involving the DON to which the OGC attorneys
devoted substantial attention in the form of legal consultation or representation.

The DON currently has 16 cases that meet the existing FY 2013 materiality threshold. The DON legal counsel was
unable to express an opinion concerning the likely outcome on 13 of 16 cases.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may result in a future outflow of expenditures. Currently, the DON has limited automated
system processes by which it captures or assesses these potential liabilities; therefore, the amounts reported may not
fairly present the DON’s contingent liabilities.

     Note 15.	 Federal Employee and Veteran Benefits

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                                2013
                                                                                                    Assumed          (Less: Assets
                                                                                                     Interest       Available to Pay
                                                                                     Liabilities    Rate (%)           Benefits)         Unfunded Liabilities
Other Benefits
   FECA                                                                         $       1,718,646               $                   -    $       1,718,646
   Other                                                                                      537                                (537)                   -
Total Other Benefits                                                            $       1,719,183               $                (537)   $       1,718,646

Total                                                                           $       1,719,183               $                (537)   $       1,718,646

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                                2012
                                                                                                    Assumed          (Less: Assets
                                                                                                     Interest       Available to Pay
                                                                                     Liabilities    Rate (%)           Benefits)         Unfunded Liabilities
Other Actuarial Benefits
   FECA                                                                         $       1,670,271               $                   -    $       1,670,271
   Other                                                                                      489                                (489)                   -
Total Other Benefits                                                            $       1,670,760               $                (489)   $       1,670,271

Total                                                                           $       1,670,760               $                (489)   $       1,670,271

The DON reports an actuarial liability for the Federal Employee’s Compensation Act (FECA). FECA provides Federal
employees injured in the performance of duty with workers’ compensation benefits, which include wage-loss benefits
for total or partial disability, monetary benefits for permanent loss of use of a schedule member, medical benefits, and
vocational rehabilitation. FECA also provides survivor benefits to eligible dependents if the injury causes the employee’s
death. FECA is administered by the Office of Workers’ Compensation Programs.

The obligations and liabilities for military pensions, military retirement health benefits, military Medicare-eligible
retiree benefits, the Voluntary Separation Incentive Program, and the DoD Education Benefits Fund are reported at the
Department level.

Actuarial Cost Method Used and Assumptions:
The DON’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to the DON only at the end of each fiscal year.



84      Department of the Navy Fiscal Year 2013 Annual Financial Report
The estimate for future workers’ compensation benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments related to that period.

     Note 16.	 Disclosures Related to the Statement of Net Cost

                                                     As of September 30
                                                 (Amounts in thousands)
                                                                                 2013                        2012
Intragovernmental Cost                                                    $         46,766,773     $            50,908,881
Nonfederal Cost                                                                    109,889,047                 129,385,410
Total Cost                                                                $        156,655,820     $           180,294,291

Intragovernmental Revenue                                                 $          (2,951,971)   $             (3,312,422)
Nonfederal Revenue                                                                   (8,070,917)                 (7,287,485)
Total Revenue                                                             $         (11,022,888)   $            (10,599,907)

Total Net Cost                                                            $        145,632,932     $           169,694,384

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government
supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related
to the amount of output or outcome for a given program or organization administered by a responsible reporting
entity. The Department of Defense’s (DoD) current processes and systems do not capture and report accumulated costs
for major programs based upon the performance measures as required by the Government Performance and Results
Act. The DoD is in the process of reviewing available data and developing a cost reporting methodology as required
by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,”Managerial Cost Accounting Concepts and
Standards for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”
Intragovernmental costs and revenue represent transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.
The DON’s financial management systems are unable to meet all of the requirements for full accrual accounting. Many
of the DON’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the
issuance of Generally Accepted Accounting Principles for federal agencies. Most of the DON’s legacy systems were
designed to record information on a budgetary basis and do not track intragovernmental transactions by customer at the
transaction level. Considering these systems limitations, the DON is unable to accurately compare its intragovernmental
costs and revenues with the corresponding balances of its intragovernmental trading partners. Buyer-side accounts
payable and expenses were adjusted to match seller-side accounts receivable and revenues. This is accomplished
by reclassifying amounts between federal and public cost categories, and accruing additional costs when necessary.
Intradepartmental revenues and expenses are then eliminated.

In conjunction with the DoD, the DON has undertaken efforts to determine the actions required to bring its financial
and nonfinancial feeder systems and processes into compliance with all elements of USGAAP. One such action is
the revision of its accounting systems to record transactions based on the U.S. Standard General Ledger. Until such
time as all of the DON’s financial and nonfinancial feeder systems and processes are updated to collect and report
financial information as required by USGAAP, the DON’s financial data will be largely based on budgetary transactions
(obligations, disbursements, and collections), transactions from nonfinancial feeder systems, and adjustments for known
accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

The DON’s accounting systems generally do not capture information relative to Heritage Assets separately and distinctly
from normal operations.




                                                                                              Department of the Navy      85
     Note 17.	 Disclosures Related to the Statement of Changes in
               Net Position

Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated or
unobligated and has not lapsed, been rescinded, or withdrawn.

Cumulative Results of Operations represents the net results of operations since inception. Included as a reduction in
Cumulative Results of Operations are accruals for which related expenses require funding from future appropriations.
These future funding requirements include, among others (a) accrued annual leave earned but not taken, (b) expenses
for contingent liabilities and (c) expenses for environmental liabilities.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with Appropriations
Received on the Statement of Budgetary Resources (SBR) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference of $12.3 billion is due to certain cash receipts recorded
as “Appropriations Received” on the SBR but recognized as exchange or non-exchange revenue (usually in special
and trust fund accounts) and reported on the SCNP in accordance with SFFAS 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting.

Other Financing Sources - Other consists primarily of gains and losses associated with Military Equipment, Operating
Materials & Supplies, and Real Property.

     Note 18.	 Disclosures Related to the Statement of Budgetary
               Resources	

                                                                           As of September 30
                                                                        (Amounts in thousands)
                                                                                                     2013               2012
Net Amount of Budgetary Resources Obligated for Undelivered
Orders at the End of the Period                                                                  $    158,004,011   $    154,814,226

The SBR includes intraentity transactions because the statements are presented as combined.

Apportionment Categories for Obligations Incurred
The direct and reimbursable obligations under Categories A and B are reported in the table below. Apportionment
categories are determined in accordance with the guidelines provided in Part 4 “Instructions on Budget Execution” of
OMB Circular A-11 Preparation, Submission and Execution of the Budget. Category A represents resources apportioned
for calendar quarters and Category B represents resources apportioned for other time periods or for activities, projects,
objectives or for a combination thereof.

Permanent, Indefinite Appropriations
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which provides for
the construction (including design of vessels), purchase, alteration, and conversion of Department of Defense (DoD)
sealift vessels; operation, maintenance, and lease or charter of DoD vessels for national defense purposes; installation
and maintenance of defense features for national defense purposes on privately owned and operated vessels that are
constructed in the United States and documented under the laws of the U.S.; research and development relating to
national defense sealift; and expenses for maintaining the National Defense Reserve Fleet, including the acquisition,
alteration or conversion of vessels. There were no transfers out of NDSF during this period.

The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds environmental restoration,
reduction, and recycling of hazardous waste, removal of unsafe buildings and debris, and similar purposes. Funds
remain available until transferred and remain available for the same purpose and same time period as the appropriations
to which transferred. There were 3 transfers from ER, N for $3 billion to the Operation and Maintenance, Navy
appropriation. There were no transfers into ER, N during this period.




86    Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 19.	 Reconciliation of Net Cost of Operations to Budget

                                                         As of September 30
                                                      (Amounts in thousands)
                                                                                   2013                        2012
Resources Used to Finance Activities:
   Budgetary Resources Obligated:
       Obligations incurred                                                    $    178,352,739     $            194,177,904
       Less: Spending authority from offsetting collections and
       recoveries (-)                                                               (19,223,668)                 (21,354,258)
       Obligations net of offsetting collections and recoveries                     159,129,071                  172,823,646
       Less: Offsetting receipts (-)                                                     (86,119)                   (226,131)
       Net obligations                                                              159,042,952                  172,597,515
   Other Resources:
       Donations and forfeitures of property                                              6,897                        1,742
       Transfers in/out without reimbursement (+/-)                                    (654,769)                    (138,094)
       Imputed financing from costs absorbed by others                                  746,117                      816,514
       Other (+/-)                                                                   36,973,812                    4,114,238
       Net other resources used to finance activities                                37,072,057                    4,794,400
Total Resources Used to Finance Activities                                     $    196,115,009     $            177,391,915

Resources Used to Finance Items not Part of the Net Cost of
Operations:
   Change in budgetary resources obligated for goods, services, and
   benefits ordered but not yet provided:
       Undelivered Orders (-)                                                  $      (3,189,785)   $              (6,516,469)
       Unfilled Customer Orders                                                          518,632                      340,369
   Resources that fund expenses recognized in prior periods (-)                         (730,358)                    (158,378)
   Budgetary offsetting collections and receipts that do not affect Net Cost
   of Operations                                                                          86,119                      226,131
   Resources that finance the acquisition of assets (-)                              (15,379,331)                 (15,764,666)
   Other resources or adjustments to net obligated resources that do not
   affect Net Cost of Operations:
       Other (+/-)                                                                   (36,336,129)                  (3,977,906)
Total resources used to finance items not part of the Net Cost of
Operations                                                                     $    (55,030,852)    $            (25,850,919)
Total resources used to finance the Net Cost of Operations                     $    141,084,157     $            151,540,996

Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Period:
       Increase in annual leave liability                                      $           50,811   $                      7,230
       Increase in environmental and disposal liability                                   168,218                        434,868
       Increase in exchange revenue receivable from the public (-)                         20,716                        139,587
       Other (+/-)                                                                        141,273                        203,339
       Total components of Net Cost of Operations that will Require or
       Generate Resources in future periods                                               381,018                        785,024
   Components not Requiring or Generating Resources:
       Depreciation and amortization                                           $       3,263,335    $              19,679,709
       Revaluation of assets or liabilities (+/-)                                     (4,940,274)                  (4,152,446)
       Other (+/-)
       Operating Material and Supplies Used                                           6,351,889                     4,125,346
       Other                                                                           (507,191)                   (2,284,245)
       Total Components of Net Cost of Operations that will not Require or
       Generate Resources                                                             4,167,759                    17,368,364
Total components of Net Cost of Operations that will not Require or
Generate Resources in the Current Period                                       $      4,548,777     $              18,153,388

Net Cost of Operations                                                         $    145,632,934     $            169,694,384




                                                                                                Department of the Navy        87
The Reconciliation of Net Cost of Operations to Budget is designed to reconcile the Net Cost of Operations (reported
in the Statement of Net Cost) to the current year obligations (reported in the Statement of Budgetary Resources). This
reconciliation is required due to the inherent differences in timing and recognition between the accrual proprietary
accounting method used to calculate net cost and the budgetary accounting method used to calculate budgetary
resources and obligations.

Due to the DON financial system limitations, budgetary data does not agree with proprietary expenses and capitalized
assets. Differences between budgetary and proprietary data are previously identified deficiencies.

The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement. However, certain lines
are presented as combined instead of consolidated due to interagency budgetary transactions not being eliminated.

     Note 20.	 Funds from Dedicated Collections

                                                                           As of September 30
                                                                        (Amounts in thousands)
BALANCE SHEET                                                                                        2013                 2012
ASSETS
Fund balance with Treasury                                                                       $          23,331    $          22,722
Investments                                                                                                  8,326                7,968
Total Assets                                                                                     $          31,657    $          30,690

LIABILITIES and NET POSITION
Other Liabilities                                                                                $           3,894    $           1,159
Total Liabilities                                                                                $           3,894    $           1,159

Cumulative Results of Operations                                                                            27,762               29,532
Total Liabilities & Net Position                                                                 $          31,656    $          30,691

                                  For the period ended September 30                                  2013                 2012
STATEMENT OF NET COST
Program Costs                                                                                    $          24,426    $          19,924
Net Cost of Operations                                                                           $          24,426    $          19,924

                                  For the period ended September 30                                  2013                 2012
STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                                                             $          29,156    $          25,545
Net Cost of Operations                                                                                      24,426               19,924
Budgetary Financing Sources                                                                                 23,032               23,911
Change in Net Position                                                                           $          (1,394)   $           3,987

Net Position End of Period                                                                       $          27,762    $          29,532

Funds from Dedicated Collections are financed by specifically identified revenues and are required by statute to be used
for designated activities or purposes. The DON currently has four funds from dedicated collections, for which a brief
description follows below. There have been no changes in legislation during or subsequent to the reporting period that
significantly changes the purpose or that redirects a material portion of the accumulated balances of any of these four
funds. Generally, revenues for the DON’s funds from dedicated collections are inflows of resources to the Government.

Special Funds from Dedicated Collections

Wildlife Conservation, Military Reservations, Navy
This fund, authorized by 16 United States Code 670b, provides for the development and conservation of fish and wildlife
and recreational facilities on military installations. Proceeds from the sale of fishing and hunting permits are used for

88    Department of the Navy Fiscal Year 2013 Annual Financial Report
these programs at the DON installations charging such user fees. These programs are carried out through cooperative
plans agreed upon by the local representatives of the Secretary of Defense, the Secretary of the Interior, and the
appropriate agency of the State in which the installation is located.

Trust Funds from Dedicated Collections

The DON General Gift Fund
This fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the Secretary of the Navy
(SECNAV) may accept, hold, administer, and spend any gift, devise, or bequest of real or personal property, made on the
condition that it be used for the benefit, or in connection with the establishment, operation, or maintenance of a school,
hospital, library, museum, cemetery, or other institution under the jurisdiction of the DON.

Ships Stores Profit, Navy
This fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from profits realized through
the operation of ships’ stores and from gifts accepted for providing recreation, amusement, and contentment for enlisted
members of the Navy and Marine Corps.

U.S. Naval Academy General Gift Fund
This fund is authorized by 10 United States Code 6973. Under the provisions of this statute, SECNAV may accept, hold,
administer, and spend any gift, devise, or bequest of personal property, made on the condition that it be used for the
benefit of, or in connection with, the United States Naval Academy, or the Naval Academy Museum, its collections, or its
services.

Fund Reclassification

Effective for FY 2013 reporting, the DON has reclassified the Kaho’olawe Island Conveyance, Remediation, and
Environmental Restoration Trust Fund and the Ford Island Improvement Account in accordance with clarifying language
provided by the Statement of Federal Financial Accounting Standards 43: Funds from Dedicated Collections: Amending
Statement of Federal Financial Accounting Standards 27, Identifying and Reporting Funds from Dedicated Collection.

The reclassified funds were evaluated against SFFAS 43 and determined to no longer meet the criteria for reporting as
“dedicated collections” because the funds’ primary source of financing came from the Federal government rather than
from the public.

     Note 21.	 Fiduciary Activities

                                                  For the period ended September 30
                                                     (Amounts in thousands)
                                                                                      Schedule of Fiduciary Activities
                                                                                       2013                     2012
Fiduciary net assets, beginning of year                                         $            30,812 $                   32,769
Contributions                                                                                36,617                     46,803
Investment earnings                                                                           2,335                      2,560
Distributions to and on behalf of beneficiaries                                             (44,859)                   (51,320)
Increase/(Decrease) in fiduciary net assets                                                  (5,907)                    (1,957)

Fiduciary net assets, end of period                                             $             24,905    $                    30,812




                                                                                                    Department of the Navy       89
                                                                          For the period ended September 30
                                                                               (Amounts in thousands)
                                                                                                                       Fiduciary Net Assets
                                                                                                                   2013                    2012
Fiduciary Assets
   Cash and cash equivalents                                                                              $                24,905   $              30,812

Fiduciary activities are the collection or receipt, and management, protection, accounting, investment and disposition by
the Federal Government of cash or other assets in which Non-Federal individuals or entities have an ownership interest
that the Federal Government must uphold.

The DON’s Fiduciary Activity consists of funds in the Savings Deposit Program. Under 10, USC, §1035, and
Department of Defense Financial Management Regulation (FMR), Volume 7A, Chapter 51, service members of both the
Navy and Marine Corps who are on a permanent duty assignment outside the United States or its possessions can earn
interest at a rate prescribed by the president, not to exceed 10 percent a year, on up to $10 thousand deposited into the
program. This limitation shall not apply to deposits made on or after September 1, 1966 in the case of those members in
a missing status during the Vietnam conflict, the Persian Gulf conflict, or a contingency operation.

A permanent duty assignment is defined as any active duty assignment that contemplates duty in the designated area
as a permanent change of station, or more than 30 days on temporary additional duty, temporary duty, or with a
deployed ship or unit. This definition of a permanent duty assignment applies specifically to this program, effective as of
July 1, 1991. Interest accrual shall terminate 90 days after the member’s return to the United States or its possessions.
The deposit funds included in the balance are 17X6025 for Navy and 17X6026 for Marine Corps.

     Note 22.	Leases

                                                                                  As of September 30
                                                                               (Amounts in thousands)
                                                                                                                   2013
                                                                                Land and
                                                                                Buildings              Equipment            Other            Total
Entity as Lessee - Operating Leases
   Future Payments Due
   Fiscal Year
       2014                                                                $         117,022     $             2,502   $        39,536   $        159,060
       2015                                                                          119,489                   2,627            41,266            163,382
       2016                                                                          122,012                   2,758            43,092            167,862
       2017                                                                          124,593                   2,896            45,021            172,510
       2018                                                                          127,232                   3,041            47,059            177,332
       After 5 Years                                                                 129,931                   3,193            49,213            182,337

Total                                                                      $         740,279     $            17,017   $       265,187   $    1,022,483




90      Department of the Navy Fiscal Year 2013 Annual Financial Report
      Department of the Navy Fiscal Year 2013 Annual Financial Report

Required Supplementary Stewardship Information




                                                                        Department of the Navy   91
                                                   Investments in Research and Development
                                                 Yearly Investment in Research and Development
                                                        For Fiscal Years 2009 through 2013
($ in Millions)
Categories                                                                   FY13           FY12           FY11           FY10           FY09
Basic Research                                                           $          556 $          554 $          547 $          552 $          523
Applied Research                                                                    776            738            728            752            854
Development
   Advanced Technology Development                                               653            761            821            859            883
   Advanced Component Development and                                          3,956          3,950          4,080          3,910          3,464
   Prototypes
   System Development and Demonstration                                        4,655          5,382          6,429          7,325          8,288
   Research, Development, Test, and Evaluation                                 1,061          1,298          1,285          1,293          1,245
   Management Support
   Operational Systems Development                                             3,863          4,137          4,285          4,505          4,249
Totals                                                                   $    15,520 $       16,820 $       18,175 $       19,196 $       19,506

Investments in Research and Development
Investment values are based on Research and Development (R&D) outlays (expenditures). Outlays are used because
current the DON systems are unable to fully capture and summarize costs in accordance with USGAAP.

R&D programs are classified as Basic Research, Applied Research, and Development. The definition of each R&D
category and subcategory is explained below.

Basic Research
Basic research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications, processes, or products in mind. Basic Research involves the
gathering of a fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and
research papers.

Basic Research Examples:
Arctic and Global Prediction:
The Office of Naval Research (ONR) Arctic & Global Prediction Program supports basic research focused on expanding
the fundamental understanding of key processes of the Arctic environment, the development of new technologies to
improve Arctic observational capabilities, and the construction of numerical Arctic System Models that can be used for
enhanced understanding and prediction.

Significant sea ice changes that have occurred in recent years in the Arctic Ocean, which has implications for the safety
of future U.S. Navy Arctic operations. Consequently, the over-arching goal of the program is to improve coupled Arctic
System Models and sea ice prediction at a variety of space and time scales. Three main areas of research are:

Observing Capabilities: The Arctic is a data-sparse region where there remains a need for sensors and sensor systems to
operate for extended periods of time in the challenging Arctic environment. The development of new in situ and remote
sensing systems will contribute to an Arctic Observing Network that will provide long-term observational data sets that
are both useful for the fundamental understanding of Arctic processes and essential for assimilation into and validation of
predictive Arctic models.

Fundamental Understanding of Key Physical Processes: The significant retreat of sea ice during recent summers has led
to the emergence of new processes in the Arctic. Understanding this “new” environment and the processes governing
the retreat and advance of the ice cover is essential. Areas of research include: ocean-ice-atmosphere interactions in the
marginal ice zone (MIZ); sea state and boundary layer physics in the emerging Arctic Ocean; wave and swell penetration
into the Arctic ice field; sea ice dynamics and mass balance; changes in ocean salinity, temperature and heat storage;
atmospheric temperature profiles and cloud properties; and sea spray and icing.

Environmental and Predictive Modeling: The development of improved fully coupled, ocean-wave-ice-atmosphere
Arctic system models is a key element in an improved predictive capability. The models must have sufficient resolution

92     Department of the Navy Fiscal Year 2013 Annual Financial Report
to represent the important processes and to support the assimilation of high resolution in situ and remotely-sensed
observations. Improved skill in forecasting the Arctic operational environment is desired, particularly of key variables
such as the location of the sea ice edge, the concentration, floe size and thickness of the ice cover, and vertical structure
throughout the boundary layer. Coupling of Arctic System Models to Global Earth System Models will be required to
capture the physical interactions between the Arctic and lower latitudes.

What this research will accomplish:
 n	 Provides the necessary S&T to enable safe and effective Naval mission planning and execution in the rapidly
      changing Arctic
 n	 Enhanced Arctic domain awareness and prediction

Structural Metals:
The Structural Metals program emphasizes developing the fundamental understanding needed to design and produce
high-strength structural metals. It also establishes the technical feasibility of the technologies to enable platforms and
systems with increased performance, reduced weight and reduced cost.

Most recently, this program was responsible for the identification, development and processing qualification of HSLA-
65. This high-strength steel alloy has reduced significantly the structural weight of aircraft carriers currently under
construction. This program also has enabled certification of aluminum-scandium alloys, developed for high-performance
sporting goods, for applications in reconfigurable interior structures in surface combatants. This further reduces ship
weight and enables faster maintenance and overhaul.

The Structural Metals program’s current focus is on basic and applied research in the areas of advanced naval steel
design and production, affordable titanium alloy design and production, and robust, affordable processing and joining
technology. The intent of these investments is to:

 n	 Establish an understanding and quantitative description of the mechanisms that define the evolution of a material’s
      structure as a function of composition and processing
 n	 Provide an understanding of the complex and dynamic interactions that modify materials structure and behavior as
      a function of operational demands and loading events
 n	 Develop characterization and modeling tools, at appropriate length and time scales, to enable the advancement of
      materials science, including design and predictive capabilities
 n	 Develop technologically feasible transition paths for advanced structural materials and processing and the
      knowledge needed for the confident design and life prediction of components and systems
What this research will accomplish:
 n	 Provide the warfighter with enhanced structural materials that improve platform survivability, reduce platform
      weight and improve platform efficiency at reduced life cycle costs.
 n	 Enable affordable, qualified high-performance structural metals and the necessary processing techniques to
      support their production and fabrication.

Applied Research
Applied research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding
for the purpose of meeting the recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and defining their parameters. Major
outputs are scientific studies, investigations and research papers, hardware components, software codes, and limit
construction of, or part of, a weapon system to include non-system-specific development efforts.

Applied Research Examples:
Graphene and Future Nanoelectronics:
Graphene is a single atomic layer of carbon arranged into a hexagonal crystal lattice, first isolated (by splitting graphite)
and characterized in 2004 by Professors Andre Geim and Kostya Novoselov of the U.K.’s University of Manchester,
earning them the 2010 Nobel Prize in Physics.

                                                                                                  Department of the Navy     93
Moore’s Law predicts that transistors will no longer shrink as quickly beginning in 2020. As a result, ONR is confronted
with technical challenges at several levels: materials synthesis and characterization, novel nanodevices circuits, new
computing architectures and nanofabrication.

The ONR nanoelectronics program thrusts are specifically designed to address each of those challenges. Since 2005,
ONR has been supporting various aspects of graphene research in order to use it as a material platform for future
nanoelectronic devices, circuits and systems. For example, one of the key technical issues for graphene-based electronic
devices, despite its record mobility, is the lack of an electronic bandgap in bulk graphene (e.g., lateral size of graphene
sheet exceeding 1 micron). Early investment in ONR’s program focused on various ways to open a bandgap in graphene,
such as using graphene nanoribbons or multi-layer graphene.

More recently ONR turned its attention to atomic scale molecular engineering of graphene nanostructures using
chemical synthesis techniques. This latter approach, while technically more challenging, holds great potential to change
the entire landscape of nanoelectronics beyond the transistor era.

What this research will accomplish:
 n	 Personal electronic aids for individual warfighters that are flexible and lightweight, with extremely low power
      consumption to enhance battlefield situational awareness
 n	 Electronic components that meet and exceed the size weight and power (SWaP) requirements for real-time
      information processing onboard small unmanned air vehicles (UAV), thereby unleashing their power in aerial
      reconnaissance and surveillance missions
 n	 The combination of graphene’s superior electronic properties with the other, equally unique, properties in optical
      (THz to UV), thermal and mechanical domains could lead to completely new and hitherto unforeseen capabilities
      for both military and civilian applications.

Battlefield Medicine: Advanced Microscopy, Cytometry and Sensing Platforms
Office of Naval Research (ONR) focuses on support of science and technology to enable new biomedical capabilities
for use in austere settings. Rugged, miniaturized tools for far-forward diagnosis of infections, or contaminated food and
water may save lives in both battlefield and humanitarian aid/disaster relief (HADR) scenarios.

Wide-field Fluorescent Imaging On a Cell Phone: By adding a compact attachment to the existing camera unit of a
cellphone, a 20-fold larger field of view (relative to a conventional microscope) can be imaged in fluorescent mode.
Fluorescent tagging agents are added to the sample if the specimen is not naturally fluorescent. The images to the right
shows a parasite (Giardia lamblia) often found in contaminated water, and labeled white blood cells. The cell-phone
images compare well with conventional microscopy images.

Holographic Imaging of Dense Samples (e.g., tissue): Densely packed or ‘connected’ cells present special challenges
for imaging. The solution has been to acquire holographic images from various heights with respect to the sample, in
reflection mode. A holographic imaging ‘tower’ has been design to attach to a cell-phone, enabling high resolution of
features in dense samples. New data analysis and processing algorithms allow image reconstruction which is comparable
to that obtained with a conventional microscope, as shown with skin samples to the left. These advances may allow
remote diagnosis of diseases, infections of food contamination.

Digital Holographic Imaging offers a new, compact and rugged method for analyzing biomedical and other samples in
remote locations which compares will with fragile, lens-based microscopies. Integration with a cell-phone platform
allows transmission of images to experts located elsewhere for analysis. The impact of this technology is expected to be
dramatic, especially in third-world countries where access to sophisticated medical facilities is limited.

What this research will accomplish:
 n	 Provide new capabilities to rapidly conduct various biomedical tests, e.g., blood analysis in the field (including
      differential cell counts and platelet counts)
 n	 Screen for various pathogens/bacteria (e.g., Escherichia coli, Cryptosporidium) in bodily fluids, food or water
      using compact, light-weight and cost-effective designs.



94    Department of the Navy Fiscal Year 2013 Annual Financial Report
Development
Developmental research takes what has been discovered or learned from basic and applied research and uses it to
establish technological feasibility, assessment of operability, and production capability.

Developmental Research Examples:
Directed Energy:
The Solid State and Fiber laser technology are delivering mature high-energy laser technologies into a prototypical
weapon system for use and installation on the Navy’s surface combatants and aircraft.
Solid State Laser technology with weapons-level effects has been maturing rapidly, In fact, the Chief of Naval Operations
announced the deployment of a SSL laser onboard USS Ponce (AFSB 15) in FY 2014 comes as ONR continues to
make significant progress on directed energy weapons, allowing the service to deploy a laser weapon on a ship two
years ahead of schedule. The at-sea demonstration in FY 2014 is part of a wider portfolio of near-term Navy directed
energy programs that promise rapid fielding, demonstration and prototyping efforts for shipboard, airborne and
ground systems.

Directed energy initiatives, and specifically the solid-state laser, are among the highest priority science and technology
programs. The solid-state laser program is central to the commitment to quickly deliver advanced capabilities to
forward-deployed forces. This capability provides a tremendously affordable answer to the costly problem of defending
against asymmetric threats.

The solid-state laser is a revolutionary technology that gives the Navy an extremely affordable, multi-mission weapon
with a deep magazine and unmatched precision, targeting and control functions. Because lasers run on electricity, they
can be fired as long as there is power and provide a measure of safety as they don’t require carrying propellants and
explosives aboard ships.

Lasers complement kinetic weapons to create a layered ship defense capability, providing improved protection against
swarming small boats and unmanned aircraft at a fraction of the cost of traditional weapons.

The advancing technology gives sailors a variety of options they never had before, including the ability to control a laser
weapon’s output and perform actions ranging from non-lethal disabling and deterrence all the way up to destruction.

Video of the demonstration of the high-energy laser aboard a moving surface combatant ship and against remotely
piloted aircraft can be seen here: http://youtu.be/OmoldX1wKYQ

What this research will accomplish:
 n	 Produce a prototypical weapon system for use on surface Navy combatants. Lasers have the capability for speed-
      of-light engagements, with very precise, real-time targeting and battle damage assessments
 n	 Other directed energy programs include Fiber Lasers and Free Electron Lasers

Electromagnetic Railgun and Hypervelocity Projectile:
The Electromagnetic Railgun launcher is a long-range weapon that fires projectiles using electricity instead of chemical
propellants. Magnetic fields created by high electrical currents accelerate a sliding metal conductor, or armature,
between two rails to launch projectiles at 4,500 mph to 5,600 mph.

The Electromagnetic Railgun was initiated in 2005 as Innovative Naval Prototype. The Department of the Navy’s science
and technology corporate board chartered the Innovative Naval Prototype (INP) construct to foster game-changing and
disruptive technologies ahead of the normal requirements process.

The program is in Phase II, which started in 2012, and will advance the technology for transition to an acquisition
program. Phase II technology efforts will concentrate on demonstrating a rep-rate fire capability up to 10 rounds per
minute. Thermal management techniques required for sustained firing rates will be developed for both the launcher
system and the pulsed power system.

Railgun will fire a Hypervelocity Projectile. The HVP is a next-generation, common, low-drag, guided projectile
capable of completing multiple missions for gun systems such as the Navy 5-inch, 155 mm and future railguns. Types of
missions performed will depend on the gun system and platform. The program goal is to address mission requirements

                                                                                                 Department of the Navy   95
in the areas of naval surface fire support, cruise missile defense, anti-surface warfare and other future naval mission
areas. Mission performance will vary from gun system, launcher or ship. The HVP’s low-drag, aerodynamic design
enables high velocity, maneuverability and decreased time to target. These attributes, coupled with accurate guidance
electronics, provide low-cost mission effectiveness against current threats and the ability to adapt to future air and
surface threats.

The high-velocity, compact design relieves the need for a rocket motor to extend gun range. Firing smaller, more
accurate rounds improves danger close and collateral damage requirements and provides potential for deeper magazines
and improved shipboard safety. Responsive wide-area coverage can be achieved using HVP from conventional gun
systems and future railgun systems.

The HVP’s modular design will allow it to be configured for multiple gun systems and to address different missions. It is
being designed to provide lethality and performance enhancements to current and future gun systems. A hypervelocity
projectile for multiple systems will allow for future technology growth while reducing development, production and
total ownership costs.

What this research will accomplish:
 n	 With its increased velocity and extended range, the EM Railgun will give Sailors a multi-mission capability,
      allowing them to conduct precise naval surface fire support, or land strikes; cruise missile and ballistic missile
      defense; and surface warfare to deter enemy vessels.
 n	 The HVP will provide the Navy with the capability to address a variety of current and future naval threats in
      the mission areas of naval surface fire support, ship defense and anti-surface warfare using current and future
      gun systems

Marine Corps Examples:
Precision Universal Mortar Attack:
Warfighters capable of being employed in small, distributed units will locate and decisively engage larger enemy forces
by applying timely, reliable, precise and accurate fires (kinetic and non-kinetic) from a myriad of platforms. Tactical units
will be able to operate well beyond conventional parameters of direct-fire mutual support.

Warfighters will use integrated, lightweight optics and sensors to see through all battlefield conditions (day, night, low
light and obscuration), and they will use lightweight, organic, manned and unmanned platforms and advanced weapons
for the rapid, accurate, effective application of firepower across the full range of military operations. They also will apply
non-organic and joint fires optimally. Increased intelligence capabilities delivered by company intelligence cells will
generate more potential targets in the future.

The Precision Universal Mortar Attack (PUMA) Future Naval Capability program is currently the lead program in the
Advanced Weapons Technology Investment Area portfolio. PUMA will develop and demonstrate (FY 2014) a Global
Positioning System guidance kit for mid-range 120 mm mortar ammunition to provide an addition to the Expeditionary
Fire Support System (EFSS) Family of Munitions (FoM). The PUMA Flight Controlled Mortar munitions will provide a
precision capability between the upper end of the M1101 HE round range and the lower end of the Precision Extended
Range Munition round range. This will enable the EFSS FoM to have a less than 20-meter circular error probability of
50 percent over the entire range of all the system’s munitions.

What this research will accomplish:
 n	 Automatic target detection, recognition, identification, tracking and handoff capability at standoff distances in
      dismounted targeting systems
 n	 Affordable fires accuracy and lethality against small tactical platforms from small manned tactical platforms
 n	 Reduce weight and Improve life cycle performance (reduced barrel erosion, improved operational performance)
  n	 Precision fires for companies




96    Department of the Navy Fiscal Year 2013 Annual Financial Report
Counter IED Dog Program:
The Naval Expeditionary Dog Program (NEDP) is a holistic science and technology based program investigating ways to
optimize the utility of working dogs in current and future operating environments.

Better understanding of the complex relationships between nutrition, hydration, physical conditioning, olfaction,
training and cognition will allow us to field a dog that can consistently function as trained even in the challenging
environments encountered in war. The objective of the Physical and Cognitive Optimization Technology Investment
Area is to investigate underlying features of canine physiology and cognition to deliver knowledge products supporting
targeted improvements to canine performance.

NEDP maintains the scientific expertise and relationships with universities that supports rapid, thoughtful answers to
urgent questions from the warfighter and the opportunity to test new ideas in limited objective experiments.

What this research will accomplish:
 n	 Ability to predict, monitor and mitigate effects of canine stress on operational performance
 n	 Canines that can maintain operational tempo in high- and low heat-stress environments and at high altitudes
 n	 Understanding how dogs cognitively process complex odors such as those of homemade explosives
 n	 Better understanding of learning plasticity and stimulus generalization in dogs




                                                                                               Department of the Navy    97
Protecting Freedom Under Extraordinary Circumstances




98   Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

Required Supplementary Information




                                                                  Department of the Navy   99
                                                              Department of the Navy
                                                      General Property, Plant, and Equipment
                                                   Real Property Deferred Maintenance and Repair
                                                     For Fiscal Year Ended September 30, 2013
($ in Thousands)
                                                                                                                                   2. Required Work
Property Type                                                                              1. Plant Replacement Value     (Deferred Maintenance and Repair)   3. Percentage
Category 1: Enduring Facilities
Navy                                                                                   $                    145,916       $                     35,638         24.42%
Marine Corps                                                                           $                 42,089,348       $                  4,477,670         10.64%
Category 2: Excess Facilities or Planned for Replacement
Navy                                                                                   $                       1,259      $                           602      46.82%
Marine Corps                                                                           $                   2,145,560      $                             -        0.0%
Category 3: Heritage Assets
Navy                                                                                   $                           -      $                           -              -
Marine Corps                                                                           $                   4,278,682      $                     455,187        10.64%

NOTE: In the table above, Navy real property deferred maintenance and repair data represent both Department of the Navy and NavyWorking Capital Fund (NWCF). Similarly,
Marine Corps real property deferred maintenance and repair data represent both the United States Marine Corps General Fund and NWCF-Marine Corps.

Description of Property Type categories:
  n	 Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an ongoing mission,
       including multi-use Heritage Assets.
  n	 Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned for replacement or
       disposal, including multi-use Heritage Assets.
  n	 Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.

  1.	 The method used to assess facilities condition is a combination of commercial Infrastructure Condition Assessment
      Program (ICAP) software and facilities inspection. The Navy’s Quality rating (Q-rating) is calculated using the
      below formula:
                                            Q = 1 - (Requirements ) X 100
                                                            PRV

  	     The Navy models the “Requirements” value from the condition rating and configuration rating.
  	     The method used to assess facilities conditions is two-fold. All buildings, paving and rail assets are inspection using
        the Sustainment Management Systems (SMS) methodology developed by the US Army Corps of Engineers Civil
        Engineering (USACOE) Research Laboratory (CERL) which provides a facilities condition index (FCI) for these
        assets. Other assets are accessed via facilities inspection, which categorizes buildings as Adequate, Substandard, or
        Inadequate. Assets inspected using the SMS methodology takes the FCI to determine the asset’s Q-rating. Those
        assets without a direct FCI ratings, the Marine Corps converts the Adequate Substandard and Inadequate ratings
        to Quality ratings (Q-ratings) of 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than 60% Q4 by assessing
        facilities that are rated as Adequate and less than 25 years old as Q1; facilities that are over 25 years old and rated
        as Adequate as Q2; facilities rated as Substandard as Q3; and Inadequate facilities as Q4.

  2.	 The condition rating is a measure (0 -100) of an asset’s physical condition at a particular point in time. The Navy
      uses condition modeling software to capture condition assessment data to model system/component condition
      ratings. The condition assessment data is supplemented by eyes-on condition assessments that capture accurate
      facility components and confirm as-built condition. In FY12, the condition assessment program was expanded
      to include utility systems. Updated condition ratings for utility systems have caused an increase in deferred
      maintenance and repair backlog.

  3.	 The configuration rating is a measure (0 - 100) of the asset’s capability to support the current occupant or mission
      with respect to functionality. The Configuration Rating is calculated in the internet Navy Facility Assets Data Store

100     Department of the Navy Fiscal Year 2013 Annual Financial Report
    (iNFADS) from an algorithm that weights configuration deficiency codes (code compliance, functional/space
    criteria, location/siting criteria or inadequate capacity/coverage) collected during Asset Evaluations. Deficiency
    codes identify impacts to the suitability of spaces for their intended use, including obsolescence of facility
    components that do not meet new standards.

4.	 The DON’s Q-rating is represented by the bands: 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than
    60% Q4.

5.	 The FY 2012 target Q-rating value representing full investment requirement for the Navy is Q1. The Department
    of the Navy (DON) follows the Office of the Secretary of Defense installation strategic plan goal of having facilities
    at a Q2 level on average as an acceptable rating. This represents an average level of 15% of Plant Replacement
    Value (PRV) as an acceptable level of deferred maintenance. The table above shows that deferred maintenance
    for the Navy is valued at 28.68%, 45.26% and 0% of PRV for categories 1 through 3, respectively. The deferred
    maintenance and repair estimates are based on the facility Q-ratings found in the Navy’s real property inventory.
	 The table above shows that deferred maintenance for Marine Corps is valued at approximately 2.26% of PRV
    for categories 1 and 3. Category 2 is zero because we do not hold deferred maintenance backlogs on facilities to
    be demolished.
	 The USMC follows the Office of the Secretary of Defense Installation Strategic Plan goal of having facilities at a
    Q2 level on average as an acceptable rating. This represents an average level of 15% of Plant Replacement Value
    (PRV) as an acceptable level of deferred maintenance. The table above shows that deferred maintenance is valued
    at approximately 10.64% of PRV for categories 1 and 3. Category 2 is zero because we do not hold deferred
    maintenance backlogs on facilities to be demolished.

6.	 The Facility Readiness Evaluation System (FRES) application was used to generate the Deferred Maintenance and
    Repair Report. FRES is updated with iNFADS data on a weekly basis and at the end of the fiscal year. The PRV
    and deferred maintenance and repair estimates for all three categories are reported for CNIC installations only,
    and only the Maintenance Fund Sources listed below are included. Facilities maintained by BUMED, defense
    agencies and Family Housing, Navy are excluded from the estimates.
	 n	 Operation and Maintenance, Navy
	 n	 Operation and Maintenance, Navy Reserve
	 n	 Research, Development, Test, and Evaluation
	 n	 Navy Working Capital Fund

7.	 Category 1 excludes facilities identified in Categories 2 and 3. The Navy currently identifies Category 2 facilities
    as follows: facilities assigned a RPA Operational Status Code of excess or surplus and RPA Interest Type Code Fee,
    ONST, ONFG, or Lease. Excess is defined as “property under the control of a Federal agency that the head of the
    agency determines is not required to meet the agency’s needs or responsibilities.” The source for this definition
    is CFT Title 40 USC 102. Category 3 includes facilities that are single-use Heritage Assets. iNFADS does not
    identify any Navy facilities as single-use Heritage Assets; therefore, the amounts recorded for this category
    are zero.




                                                                                              Department of the Navy   101
                                                          Military Equipment Deferred Maintenance
                                                          For Fiscal Year Ended September 30, 2013
($ in Thousands)
Major Category                                                                                         OP30 Amounts             Adjustments                Totals
   1. Aircraft                                                                                                325,525                (108,074)              $217,451
   2. Automotive Equipment                                                                                      3,346                       -                  3,346
   3. Combat Vehicles                                                                                           6,641                   6,800                 13,441
   4. Construction Equipment                                                                                    5,952                       -                  5,952
   5. Electronics and Communications Systems                                                                    4,854                  13,951                 18,805
   6. Missiles                                                                                                 55,516                  60,999                116,515
   7. Ships                                                                                                   316,148                 391,447                707,595
   8. Ordinance Weapons and Munitions                                                                          20,186                  40,011                 60,197
   9. All Other Items Not Identified Above                                                                     24,636                 (12,953)                11,683
Total                                                                                                        $762,804                $392,181             $1,154,985

Note: The deferred maintenance amounts reported in the Budget Exhibit Operations (OP) Depot Maintenance (30) that accompanied the most recent President’s Budget was used
as the basis to identify and report amounts in the Military Equipment Deferred Maintenance. Material amounts of deferred maintenance beyond the scope of the OP-30 Budget
Exhibit, that warrant reporting are in the “Adjustments” column.

Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active and reserve),
engine rework and maintenance (active and reserve), component repair, and software maintenance. The airframe
rework deferred maintenance calculation reflects unfunded requirements, which represent aircraft that have reached
their Fixed Induction Date (FID) or that have failed an Aircraft Service Period Adjustment (ASPA) inspection at year-
end. The engine rework deferred maintenance calculation reflects year-end actual requirements minus actual funded
units. Component repair deferred maintenance represents the difference between the validated requirements minus
corresponding funding.

Airframe rework and maintenance (active and reserve) is currently performed under the Integrated Maintenance
Concept (IMC) program. The IMC concept uses Planned Maintenance Intervals (PMI), performing more frequent
depot maintenance, but with smaller work packages, thereby reducing out-of-service time. The goal of this program
is to improve readiness while reducing operating and support costs. The Naval Air Systems Command’s (NAVAIR)
Industrial Strategy is to maintain the minimum level of organic capacity consistent with force levels that is necessary to
sustain peacetime readiness and maintain fighting surge capability. NAVAIR works in partnership with private industry
to make maximum use of industry’s production capabilities and for non-core related aviation depot maintenance.

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine Corps assets.
The combat vehicle category consists of weapons systems such as the M1A1 Tank, the Amphibious Assault Vehicle, the
Hercules Recovery Vehicle, and the Light Armored Vehicle. The total requirement is the planned quantity of combat
vehicles that require depot level maintenance in a year as determined by program managers and the operating forces
with requirements validated by a modeling process. The deferred maintenance is the difference between the validated
requirements and funding received for that fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance, and other.
Deferred maintenance is defined as the difference between the total weapon maintenance requirement as determined
by requirements modeling processes and the weapon maintenance that is funded in accordance with the annual budget
controls for the missile maintenance program. The maintenance requirements model projects the quantity of missiles
and missile components per weapon system that are required to be maintained or reworked annually.

Ships Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the Current Ships’ Maintenance
Plan (CSMP) database, which captures maintenance actions at all levels (organizational, intermediate, depot) for active
and reserve ships. Only depot level deferred maintenance is provided in the calculation of ship deferred maintenance.
This includes maintenance actions deferred from actual depot maintenance work-packages as well as maintenance
deferred before inclusion in a work package due to fiscal, operational, or capacity constraints. Although there are some

102     Department of the Navy Fiscal Year 2013 Annual Financial Report
deferred maintenance actions, no ships fall into the category of “unacceptable operating condition.” Any ship that would
be at risk of being in unacceptable operating condition would receive priority for maintenance funding to maintain
acceptable operating condition.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This category is comprised
of ordnance, end item maintenance for support equipment, camera equipment, landing aids, calibration equipment,
air traffic control equipment, target systems, expeditionary airfield equipment, special weapons, target maintenance,
and repair of repairable components. Three categories define ordnance maintenance: ordnance maintenance, software
maintenance, and other. Although the various programs vary in the methodology in defining requirements, all programs
define deferred maintenance as the difference between validated requirements and funding.

Electronics and Communications Systems
The electronics and communications systems category refers to deferred systems maintenance for active and reserve
Navy and Marine Corps assets. This category consists of maintenance performed on a variety of radar, radio, and wire
and communications equipment. In part, the systems include or are associated with the Surveillance Towed-Array
Sensor System (SURTASS), P-3 Beartrap, satellite subsystems, the Multi-Band Deployable Antenna, the Multi-Mode
Inter/Intra Team Radio, and a variety of radio and radar sets used within the Department of the Navy. The total
requirement is the planned quantity of systems and their components that require depot level maintenance in a year as
determined by program managers and the operating forces. The deferred maintenance is then the difference between
the validated requirements and funding received for that fiscal year.

Construction Equipment
The construction equipment category refers to deferred equipment maintenance for active and reserve Marine Corps
assets. This category consists of maintenance performed on a variety of tractors and earth moving equipment. In part,
the equipment includes the Aardvark Tactical, the 277C Multi-Terrain Loader, the Medium Crawler Tractor, the Armored
Excavator with Brush Hog, and Bridge Erection equipment. The total requirement is the planned quantity of equipment
that requires depot level maintenance in a year as determined by program managers and the operating forces. The
deferred maintenance is the difference between the validated requirements and funding received for that fiscal year.

Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, arrest gear, lighting and surfacing equipment, and EFTM
(external fuel transfer module). The deferred maintenance is the difference between the validated requirements and
funding received for that fiscal year.

Software maintenance includes the operational and system test software that runs in the airborne avionics systems (e.g.,
mission computer, display computer, radar) and the software that runs the ground-based support labs used to perform
software sustainment (e.g., compilers, editors, simulation, configuration management).




                                                                                              Department of the Navy   103
                                                                  Department of Defense - Department of the Navy

                  STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                        For theYears Ended September 30, 2013 and 2012
                                                                                      ($ in Thousands)

                                                                                        Research,
                                                                                    Development, Test &                                             Family Housing &
                                                                                        Evaluation            Procurement     Military Personnel   Military Construction
Budgetary Resources:
   Unobligated Balance, Brought Forward,
   October 1                                                                         $     2,700,672      $     24,154,367    $       799,516       $      2,601,765
   Recoveries of Prior Year Unpaid Obligations                                               584,325             4,575,242          1,496,416                777,892
   Other Changes in Unobligated Balance                                                     (114,532)             (514,121)           (62,361)               (86,226)
   Unobligated Balance from Prior Year
       Budget Authority, net                                                               3,170,465            28,215,488          2,233,571              3,293,431
   Appropriations                                                                         15,174,174            40,830,148         46,182,522              1,614,378
   Spending Authority from Offsetting Collections                                            183,382               931,190            395,069                626,722
Total Budgetary Resources                                                            $    18,528,021      $     69,976,826    $    48,811,162       $      5,534,531

Status of Budgetary Resources:
   Obligations Incurred                                                              $    16,011,743      $     49,321,199    $    47,577,892       $      2,543,907
   Unobligated Balance, End of Year
       Apportioned                                                                         2,173,401            19,568,400         329,656.00              2,857,785
       Exempt from Apportionment                                                                   -                     -                  -                      -
       Unapportioned                                                                         342,878             1,087,228         903,614.00                132,839
   Unobligated Balance Brought Forward, End
   of Year                                                                                 2,516,279            20,655,628          1,233,270              2,990,624
Total Budgetary Resources                                                            $    18,528,022      $     69,976,827    $    48,811,162       $      5,534,531

Change in Obligated Balance:
Unpaid Obligations
  Unpaid Obligations, Brought Forward, October 1                                     $    10,270,245      $     69,088,860    $     2,661,105       $      5,247,579
  Obligations Incurred                                                                    16,011,743            49,321,199         47,577,892              2,543,907
  Outlays, gross                                                                         (15,717,839)          (43,717,721)       (45,007,119)            (3,476,541)
  Recoveries of Prior Year Unpaid Obligations                                               (584,325)           (4,574,242)        (1,496,416)              (777,892)
  Unpaid Obligations, End of Year, gross                                                   9,979,824            70,117,097          3,735,462              3,537,053
Uncollected payments
  Uncollected Payments from Federal Sources,
  Brought Forward, October 1                                                                (117,614)             (213,516)              (5,399)            (541,761)
  Change in Uncollected Customer Payments from
  Federal Sources                                                                             (20,100)            (109,874)            (29,665)              190,410
  Uncollected Payments from Federal Sources,
  End of Year                                                                               (137,714)             (323,391)           (35,064)              (351,350)
  Obligated Balance, Start of Year                                                        10,152,631            68,875,344          2,655,706              4,705,818
  Obligated Balance, End of Year                                                     $     9,842,110      $     69,793,706    $     3,700,398       $      3,185,703

Budget Authority and Outlays, Net:
  Budget Authority, gross                                                            $    15,357,556      $     41,761,339    $    46,577,591       $      2,241,100
  Actual Offsetting Collections                                                             (163,282)             (821,316)          (365,403)              (817,132)
  Change in Uncollected Customer Payments from
  Federal Sources                                                                            (20,100)             (109,874)           (29,665)               190,410
  Budget Authority, net                                                              $    15,174,174      $     40,830,149    $    46,182,523       $      1,614,378

  Outlays, gross                                                                     $    15,717,839      $     43,717,721    $    45,007,119       $      3,476,541
  Actual Offsetting Collections                                                             (163,282)             (821,316)          (365,403)              (817,132)
  Outlays, net                                                                            15,554,557            42,896,405         44,641,716              2,659,409
  Distributed Offsetting Receipts                                                                  -                     -                  -                      -
Agency Outlays, net                                                                  $    15,554,557      $     42,896,405    $    44,641,716       $      2,659,409




104   Department of the Navy Fiscal Year 2013 Annual Financial Report
                                     Department of Defense - Department of the Navy

            STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                       For theYears Ended September 30, 2013 and 2012
                                                      ($ in Thousands)

                                                       Operations, Readiness &
                                                               Support               2013 Combined              2012 Combined
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1     $           2,293,395     $         32,549,715       $           33,205,881
   Recoveries of Prior Year Unpaid Obligations                     4,432,353               11,866,228                   13,249,015
   Other Changes in Unobligated Balance                           (1,178,749)              (1,955,989)                  (1,337,751)
   Unobligated Balance from Prior Year
       Budget Authority, net                                       5,546,999               42,459,954                  45,117,145
   Appropriations                                                 58,040,058              161,841,280                 173,505,214
   Spending Authority from Offsetting Collections                  5,231,265                7,367,628                   8,105,260
Total Budgetary Resources                              $          68,818,322     $        211,668,862       $         226,727,619

Status of Budgetary Resources:
   Obligations Incurred                                $          62,897,998     $        178,352,739       $         194,177,904
   Unobligated Balance, End of Year
       Apportioned                                                 3,302,562               28,231,804                  28,451,635
       Exempt from Apportionment                                      20,725                   20,725                           -
       Unapportioned                                               2,597,036                5,063,595                   4,098,080
   Unobligated Balance Brought Forward, End of Year                5,920,323               33,316,124                  32,549,715
Total Budgetary Resources                              $          68,818,321     $        211,668,863       $         226,727,619

Change in Obligated Balance:
Unpaid Obligations
  Unpaid Obligations, Brought Forward, October 1       $          25,659,667     $        112,927,456       $         107,478,038
  Obligations Incurred                                            62,897,998              178,352,739                 194,177,904
  Outlays, gross                                                 (59,015,904)            (166,935,124)               (175,479,471)
  Recoveries of Prior Year Unpaid Obligations                     (4,432,353)              (11,865,228)               (13,249,015)
  Unpaid Obligations, End of Year, gross                          25,109,408              112,478,844                 112,927,456
Uncollected payments
  Uncollected Payments from Federal Sources,
  Brought Forward, October 1                                      (1,751,514)              (2,629,804)                  (2,509,887)
  Change in Uncollected Customer Payments from
  Federal Sources                                                   (630,463)                (599,692)                        (119,916)
  Uncollected Payments from Federal Sources, End
  of Year                                                         (2,381,976)              (3,229,495)                 (2,629,803)
  Obligated Balance, Start of Year                                23,908,153              110,297,652                 104,968,151
  Obligated Balance, End of Year                       $          22,727,432     $        109,249,349       $         110,297,653

Budget Authority and Outlays, Net:
  Budget Authority, gross                              $          63,271,323     $        169,208,909       $          181,610,474
  Actual Offsetting Collections                                   (4,600,803)              (6,767,936)                 (7,985,345)
  Change in Uncollected Customer Payments from
  Federal Sources                                                   (630,463)                (599,692)                   (119,916)
  Budget Authority, net                                $          58,040,057     $        161,841,281       $         173,505,213

  Outlays, gross                                       $          59,015,904     $        166,935,124       $         175,479,471
  Actual Offsetting Collections                                   (4,600,803)              (6,767,936)                 (7,985,345)
  Outlays, net                                                    54,415,101              160,167,188                 167,494,126
  Distributed Offsetting Receipts                                     (86,119)                 (86,119)                  (226,131)
Agency Outlays, net                                    $          54,328,982     $        160,081,069       $         167,267,995




                                                                                                     Department of the Navy        105
Protecting Freedom Under Extraordinary Circumstances




106   Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

  Other Accompanying Information




                                                                  Department of the Navy   107
                                                        Table 1. Summary of Financial Statement Audit
                          Audit Opinion                                                                            Disclaimer
                           Restatement                                                                                 No
                                                                             Beginning
Areas of Material Weaknesses                                                  Balance         New           Resolved        Consolidated   Reassessed   Ending Balance

Financial Management Systems                                                    1               0              0                 0             0              1
Fund Balance with Treasury                                                      1               0              0                 0             0              1
Accounts Receivable                                                             1               0              0                 0             0              1
Other Assets                                                                    1               0              0                 0             0              1
Inventory and Related Property, Net                                             1               0              0                 0             0              1
General Property, Plant and Equipment                                           1               0              0                 0             0              1
Accounts Payable                                                                1               0              0                 0             0              1
Statement of Net Cost                                                           1               0              0                 0             0              1
Problem Disbursements                                                           1               0              0                 0             0              1
Unobligated Balances                                                            1               0              0                 0             0              1

                                                          Table 2. Summary of Management Assurances
                                                                     The DON Operational Material Weaknesses
                                                             Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                                                                             Qualified
                                                                             Beginning
Material Weaknesses                                                           Balance         New           Resolved        Consolidated   Reassessed   Ending Balance
Uncorrected Material Weaknesses Identified During
Prior Periods
    Service Contracts                                                           1               0              0                 0             0              1
    Attenuating Hazardous Noise in Acquisition &
    Weapon System Design                                                        1               0              0                 0             0              1
    Management of Communications Security
    (COMSEC) Equipment                                                          1               0              0                 0             0              1
    Safeguarding Personally Identifiable
    Information (PII)                                                           1               0              0                 0             0              1
    Effective Use of Earned Value Management (EVM)
    Across Shipbuilding Programs                                                1               0              0                 0             0              1
Total Material Weaknesses                                                       5               0              0                 0             0              5

                                                 The DON Financial Reporting / Financial Systems Material Weaknesses
                                                   Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                                                      No Assurance
                                                                             Beginning
Material Weaknesses                                                           Balance         New           Resolved        Consolidated   Reassessed   Ending Balance
Uncorrected Material Weaknesses Identified During
Period Periods
    Reimbursable Work Orders – Performer,
    Order-to-Cash                                                               5               0              0                 0             0              5
    Reimbursable Work Orders – Grantor,
    Procure-to-Pay                                                              4               0              0                 0             0              4
    Existence and Completeness                                                  5               0              0                 0             0              5
Uncorrected Material Weaknesses Identified During
the Period
    Financial Statement Compilation and Reporting                               0               1              0                 0             0              1
    Contract Vendor Pay                                                         0               1              0                 0             0              1
    Military Standard Requisitioning and
    Issue Procedures                                                            0               3              0                 0             0              3
    Transportation of Things                                                    0               3              0                 0             0              3
Material Weaknesses Corrected During the Period
    Fund Balance with Treasury                                                  1               0              1                 0             0              0
    Reimbursable Work Orders – Performer and
    Grantor (with the exception of Post Collection
    and Post Disbursement Validation, Year-End
    Accrual, Tri-annual Review, and Trading Partner
    Number Reconciliation)                                                      6               0              6                 0             0             0
    Transportation of People                                                     1              0              1                 0             0             0
Total Material Weaknesses                                                       22              8              8                 0             0             22



108   Department of the Navy Fiscal Year 2013 Annual Financial Report
                                   The DON Financial Reporting / Financial Systems Nonconformance
                                 Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance                                                                No Assurance
                                                        Beginning
Nonconformance                                           Balance        New          Resolved      Consolidated        Reassessed    Ending Balance
Financial System                                          0             1            0             0                       0               1
Total Nonconformance                                      0             1            0             0                       0               1
                                 Conformance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial Compliance                                                        No Assurance

                                  USMC Financial Reporting / Financial Systems Material Weaknesses
                                   Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                                      No Assurance
                                       Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                                                         Qualified
                                                        Beginning
Material Weaknesses                                     Balance        New         Resolved     Consolidated           Reassessed    Ending Balance
Military Equipment Assets                                  1            0             0             0                      0               1
Real Property Assets                                       1            0             0             0                      0               1
Contracts                                                  1            0             0             0                      0               1
Standard Accounting, Budgeting and Reporting
System (SABRS)                                             1            0             0             0                      0               1
Marine Corps Total Force System (MCTFS)                    1            0             0             0                      0               1
Defense Departmental Reporting System (DDRS)               1            0             0             0                      0               1
Defense Cash Accountability System (DCAS)                  1            0             0             0                      0               1
Total Material Weaknesses                                  7            0             0             0                      0               7
                                 Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance                                                                 No Assurance
                                 Conformance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial Compliance                                                         No Assurance




                                                                                                                  Department of the Navy       109
               Appropriations, Funds, and Accounts Included in the Principal Statements
Entity Accounts
General Funds
	 17X0380	 Coastal Defense Augmentation, Navy
	 17 0703	 Family Housing, Navy and Marine Corps
	 17 0730	 Family Housing Construction, Navy and Marine Corps
	 17 0735	 Family Housing Operation and Maintenance, Navy and Marine Corps
	 17X0810	 Environmental Restoration, Navy
	 17 1000	 Medicare-Eligible Retiree Health Fund Contribution, Navy
	 17 1001	 Medicare-Eligible Retiree Health Fund Contribution, Marine Corps
	 17 1002	 Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy
	 17 1003	 Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
	 17X1105	 Military Personnel, Marine Corps
	 17 1105	 Military Personnel, Marine Corps
	 17X1106	 Operations and Maintenance, Marine Corps
	 17 1106	 Operation and Maintenance, Marine Corps
	 17 1107	 Operation and Maintenance, Marine Corps Reserve
	 17 1108	 Reserve Personnel, Marine Corps
	 17 1109	 Procurement, Marine Corps
	 17 1116	 Operation and Maintenance - Recovery Act, Marine Corps
	 17 1117	 Operation and Maintenance - Recovery Act, Marine Corps Reserve
	 17X1205	 Military Construction, Navy and Marine Corps
	 17 1205	 Military Construction, Navy and Marine Corps
	 17 1206	 Military Construction - Recovery Act, Navy and Marine Corps
	 17 1235	 Military Construction, Naval Reserve
	 17X1236	 Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
	 17 1319	 Research, Development, Test, and Evaluation, Navy
	 17 1320	 Research, Development, Test and Evaluation - Recovery Act, Navy
	 17 1405	 Reserve Personnel, Navy
	 17X1453	 Military Personnel, Navy
	 17 1453	 Military Personnel, Navy
	 17 1506	 Aircraft Procurement, Navy
	 17X1507 	 Weapons Procurement, Navy
	 17 1507	 Weapons Procurement, Navy
	 17 1508	 Procurement of Ammunition, Navy and Marine Corps
	 17X1611	 Shipbuilding and Conversion, Navy
	 17 1611	 Shipbuilding and Conversion, Navy
	 17X1804	 Operation and Maintenance, Navy
	 17 1804	 Operation and Maintenance, Navy
	 17 1805	 Operation and Maintenance - Recovery Act, Navy
	 17X1806	 Operations and Maintenance, Navy Reserve
	 17 1806	 Operation and Maintenance, Navy Reserve
	 17 1807	 Operation and Maintenance - Recovery Act, Navy Reserve
	 17X1810	 Other Procurement, Navy
	 17 1810	 Other Procurement, Navy
Revolving Funds
	 17X4557	 National Defense Sealift Fund, Navy
	 17 4557	 National Defense Sealift Fund, Navy
Trust Funds
	 17X8716	         Department of the Navy General Gift Fund
	 17X8723	         Ships Stores Profits, Navy
	 17X8733 	        United States Naval Academy General Gift Fund
	 17X5095	         Wildlife Conservation, etc., Military Reservations, Navy
	 17X5185	         Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy (Discontinued)
	 17X5562	         Ford Island Improvement Account

110   Department of the Navy Fiscal Year 2013 Annual Financial Report
The DON Non- Entity Accounts
Deposit Funds
	 17X6001	 Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy (T)
	 17X6002	 Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy (T)
	 17X6025	 Pay of the Navy, Deposit Fund (T)
	 17X6026	 Pay of the Marine Corps, Deposit Fund (T)
	 17X6075	 Withheld Allotment of Compensation for Payment of Employee Organization Dues, Navy
	 17X6083	 Withheld Allotment of Compensation for Charitable Contributions, Navy
	 17X6134	 Amounts Withheld for Civilian Pay Allotments, Navy
	 17X6434	 Servicemen’s Group Life Insurance Fund, Suspense, Navy
	 17X6705	 Civilian Employees Allotment Account, Navy
	 17X6706	 Commercial Communication Service, Navy
	 17 6763	 Gains and Deficiencies on Exchange Transactions, Navy
	 17X6850	 Housing Rentals, Navy
	 17X6999	 Accounts Payable, Check Issue Underdrafts, Navy




                                                                                  Navy Working Capital Fund   111
Protecting Freedom Under Extraordinary Circumstances




112   Department of the Navy Fiscal Year 2013 Annual Financial Report
     Department of the Navy Fiscal Year 2013 Annual Financial Report

Navy Working Capital Fund Principal Statements




                                                                   Navy Working Capital Fund   113
                 Marines load tanks into a Landing Craft Utility to maintain an
                 amphibious force in readiness. (Photo by Cpl. Ed Galo)




                       Principal Statements

             The Fiscal Year 2013 Navy Working Capital Fund (NWCF) principal statements and related notes
             are presented in the format prescribed by the Department of Defense Financial Management
             Regulation 7000.14, Volume 6B. The statements and related notes summarize financial information
             for individual funds and accounts within the NWCF for the fiscal year ending September 30, 2013,
             and are presented on a comparative basis with information previously reported for the fiscal year
             ending September 30, 2012.

             The following statements comprise the NWCF principal statements:
               n	 Consolidated Balance Sheet
               n	 Consolidated Statement of Net Cost
               n	 Consolidated Statement of Changes in Net Position
               n	 Combined Statement of Budgetary Resources

             The principal statements and related notes have been prepared to report financial position pursuant
             to the requirements of the Chief Financial Officers Act of 1990, as amended by the Government
             Management Reform Act of 1994. The accompanying notes should be considered an integral part
             of the principal statements.




114   Department of the Navy Fiscal Year 2013 Annual Financial Report
                             Department of Defense - Department of the Navy Working Capital Fund

                                    CONSOLIDATED BALANCE SHEET
                                                 As of September 30, 2013 and 2012
                                                         ($ in Thousands)

                                                                                  2013 Consolidated          2012 Consolidated
ASSETS
  Intragovernmental:
      Fund Balance with Treasury (Note 3)                                     $             1,481,951    $               1,334,582
      Accounts Receivable (Note 4)                                                          1,317,180                    1,083,381
      Other Assets (Note 5)                                                                        46                           10
  Total Intragovernmental                                                                   2,799,177                    2,417,973

  Cash and Other Monetary Assets (Note 6)                                                      11,664                          295
  Accounts Receivable, Net (Note 4)                                                            64,829                       43,326
  Inventory and Related Property, Net (Note 7)                                             21,705,416                   20,485,300
  General Property, Plant, and Equipment, Net (Note 8)                                      2,156,351                    2,234,480
  Other Assets (Note 5)                                                                     2,061,527                    1,628,448
TOTAL ASSETS                                                                  $            28,798,964    $              26,809,822

LIABILITIES
   Intragovernmental:
       Accounts Payable (Note 10)                                             $              192,102     $                    184,615
       Other Liabilities (Note 11 & Note 12)                                                 342,043                          531,429
   Total Intragovernmental                                                                   534,145                          716,044

  Accounts Payable (Note 10)                                                                3,741,192                    3,015,987
  Federal Employee and Veteran Benefits (Note 14)                                             774,032                      757,427
  Other Liabilities (Note 11 & Note 12)                                                     1,368,691                    1,281,831
TOTAL LIABILITIES                                                                           6,418,060                    5,771,289
Commitments and Contingencies (Note 13)

NET POSITION
  Unexpended Appropriations - Other Funds                                                      25,307                        1,607
  Cumulative Results of Operations - Other Funds                                           22,355,597                   21,036,926
TOTAL NET POSITION                                                            $            22,380,904    $              21,038,533

TOTAL LIABILITIES AND NET POSITION                                            $            28,798,964    $              26,809,822

The accompanying notes are an integral part of the statements.




                                                                                                  Navy Working Capital Fund       115
                                              Department of Defense - Department of the Navy Working Capital Fund

                                            CONSOLIDATED STATEMENT OF NET COST
                                                                        For theYears Ended September 30, 2013 and 2012
                                                                                      ($ in Thousands)

                                                                                                                2013 Consolidated           2012 Consolidated
Gross Program Costs
   Gross Costs
      Operations, Readiness, & Support                                                                      $            28,957,181     $            35,470,797

      Less: Earned Revenue                                                                                               (26,590,168)               (33,425,738)
Net Cost of Operations                                                                                      $              2,367,013    $             2,045,059

The accompanying notes are an integral part of the statements.




116   Department of the Navy Fiscal Year 2013 Annual Financial Report
                             Department of Defense - Department of the Navy Working Capital Fund

            CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                           For theYears Ended September 30, 2013 and 2012
                                                         ($ in Thousands)

                                                                                   2013 Consolidated          2012 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balance                                                            $            21,036,926    $              20,537,742
  Budgetary Financing Sources:
     Appropriations Used                                                                          500                          (353)
  Other Financing Sources:
     Transfers-In/Out without Reimbursement                                                    461,027                      341,583
     Imputed Financing                                                                         515,872                      538,390
     Other                                                                                   2,708,285                    1,664,623
  Total Financing Sources                                                                    3,685,684                    2,544,243
  Net Cost of Operations                                                                     2,367,013                    2,045,059
  Net Change                                                                                 1,318,671                      499,184
  Cumulative Results of Operations                                                          22,355,597                   21,036,926

UNEXPENDED APPROPRIATIONS
  Beginning Balance                                                                              1,607                         1,254
  Budgetary Financing Sources:
     Appropriations Received                                                                    24,200
     Appropriations Used                                                                          (500)                         353
  Total Budgetary Financing Sources                                                             23,700                          353
  Unexpended Appropriations                                                                     25,307                        1,607
  Net Position                                                                              22,380,904                   21,038,533

The accompanying notes are an integral part of the statements.




                                                                                                   Navy Working Capital Fund     117
                                              Department of Defense - Department of the Navy Working Capital Fund

                           COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                        For theYears Ended September 30, 2013 and 2012
                                                                                      ($ in Thousands)

                                                                                                                2013 Combined               2012 Combined
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                                          $              3,734,496    $           3,164,084
   Recoveries of Prior Year Unpaid Obligations                                                                             1,578,395                1,870,102
   Other Changes in Unobligated Balance                                                                                   (1,062,445)              (1,448,900)
   Unobligated Balance from Prior Year
       Budget Authority, net                                                                                              4,250,446                 3,585,286
   Appropriations                                                                                                            24,200
   Contract Authority                                                                                                     8,112,646                 8,929,539
   Spending Authority from Offsetting Collections                                                                        20,103,185                21,659,085
Total Budgetary Resources                                                                                   $            32,490,477     $          34,173,910

Status of Budgetary Resources:
   Obligations Incurred                                                                                     $            28,855,188     $          30,439,413
   Unobligated Balance, End of Year
       Apportioned                                                                                                        3,580,527                 3,694,934
       Unapportioned                                                                                                         54,761                    39,563
   Unobligated Balance Brought Forward, End of Year                                                                       3,635,288                 3,734,497
Total Budgetary Resources                                                                                   $            32,490,476     $          34,173,910

Change in Obligated Balance:
Unpaid Obligations
  Unpaid Obligations, Brought Forward, October 1                                                            $             12,494,010    $          12,119,020
  Obligations Incurred                                                                                                    28,855,188               30,439,413
  Outlays, gross                                                                                                         (26,833,547)             (28,194,322)
  Recoveries of Prior Year Unpaid Obligations                                                                             (1,578,395)              (1,870,102)
  Unpaid Obligations, End of Year, gross                                                                                  12,937,256               12,494,009
Uncollected payments
  Uncollected Payments from Federal Sources, Brought Forward,
  October 1                                                                                                              (12,674,310)             (10,846,546)
  Change in Uncollected Customer Payments from Federal Sources                                                            (1,139,883)              (1,827,764)
Uncollected Payments from Federal Sources, End of Year                                                                   (13,814,193)             (12,674,310)
  Obligated Balance, Start of Year                                                                          $               (180,300)   $           1,272,474
Obligated Balance, End of Year                                                                              $               (876,937)   $            (180,301)

Budget Authority and Outlays, Net:
  Budget Authority, gross                                                                                   $             28,240,031    $          30,588,623
  Actual Offsetting Collections                                                                                          (26,956,716)             (28,281,117)
  Change in Uncollected Customer Payments from Federal Sources                                                            (1,139,883)              (1,827,764)
  Budget Authority, net                                                                                     $                143,432    $             479,742

  Outlays, gross                                                                                            $             26,833,547    $          28,194,322
  Actual Offsetting Collections                                                                                          (26,956,716)             (28,281,117)
  Outlays, net                                                                                                              (123,169)                 (86,795)
Agency Outlays, net                                                                                         $               (123,169)   $             (86,795)

The accompanying notes are an integral part of the statements.




118   Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 1.	Significant Accounting Policies

1.A.	Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Navy (DON), Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers
(CFO) Act of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate legislation.
The financial statements have been prepared from the books and records of the NWCF in accordance with, and to
the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR). The accompanying
financial statements account for all resources for which the NWCF is responsible unless otherwise noted.
The NWCF is unable to fully implement all elements of USGAAP and OMB Circular No. A-136, due to limitations
of financial and nonfinancial management processes and systems that support the financial statements. The NWCF
derives reported values and information for major asset and liability categories largely from nonfinancial systems, such
as inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of Federal appropriations rather than preparing financial statements
in accordance with USGAAP. The NWCF continues to implement process and system improvements addressing
these limitations. The DON is currently converting legacy systems to Navy Enterprise Resource Planning (ERP) and
developing plans to ensure accurate and complete financial records.
As of the 4th quarter, fiscal year 2013 financial statements, the DoD identified 13 auditor identified material weaknesses,
as follows: (1) Financial Management Systems; (2) Fund Balance With Treasury; (3) Financial Reporting of Plan to
Perform/Order to Cash; (4) Financial Reporting of Inventory; (5) Financial Reporting of Operating Materials and
Supplies; (6) Financial Reporting of Real Property and General Equipment; (7) Accounts Payable; (8) Other Liabilities;
(9) Statement of Budgetary Resources; (10) Intragovernmental Eliminations; (11) Unsupported Accounting Entries; (12)
Statement of Net Cost; (13) Reconciliation of Net Cost of Operations to Budget.
The FY 2012 financial statements were reclassified to conform to the FY 2013 financial statement presentation
requirements. Changes to the presentation of the Combined and Combining Statements of Budgetary Resources were
made, in accordance with guidance provided in OMB Circular No. A-136, Financial Reporting Requirements, and as
such, activity and balances reported on the FY 2012 Combined and Combining Statement of Budgetary Resources have
been reclassified to conform to the presentation in the current year. Certain other prior year amounts have also been
reclassified to conform to the current year presentation. The reclassifications had no material effect on total assets,
liabilities, net position, change in net position, or budgetary resources as previously reported.
Subsequent events and transactions occurring after September 30, 2013 through the date of the auditors’ opinion should
be evaluated for potential recognition or disclosure in the financial statements. However, the DON is not yet able to
implement this requirement. The date of the auditors’ opinion also represents the date that the financial statements were
available to be issued.

1.B.	Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission of the
DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of winning wars, deterring
aggression, and maintaining freedom of the seas. The NWCF provides goods, services, and infrastructure to the DON
and other DoD customers to help ensure our military forces are mobile, ready, and have the most advanced technology.
The NWCF is a revolving fund that finances the DON activities providing products and services on a reimbursable basis,
based on a relationship between operating units and NWCF support organizations. Customers send funded orders to
the NWCF providers who furnish the services or products, pay for incurred expenses, and bill the customers, who in
turn authorize payment. NWCF activities strive to break even over the budget cycle. NWCF has five programs: Depot
Maintenance, Supply Management, Research and Development, Base Support, and Transportation.

1.C.	Appropriations and Funds
NWCF received funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations which result in transactions that flow through the fund. The
NWCF furnishes goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action.

                                                                                              Navy Working Capital Fund   119
At various times, Congress provides additional appropriations to supplement the NWCF as an infusion of cash when
revenues are inadequate to cover costs within the corpus. In FY 2013, the NWCF received appropriations for Hurricane
Sandy-related expenses.

1.D.	Basis of Accounting
The NWCF’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
NWCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of
USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting basis as
required by USGAAP. Most of NWCF’s financial and nonfinancial legacy systems were designed to record information on a
proprietary basis.

Although the accrual basis of accounting is not fully implemented, under the accrual basis, revenues are recorded when
earned and expenses are recorded when incurred, regardless of when cash is exchanged. Under the budgetary basis,
however, funds availability is recorded based upon legal considerations and constraints. As a result, certain line items on the
proprietary financial statements may not equal similar line items on the budgetary financial statements.

The NWCF financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the NWCF sub-entities. The underlying data is largely derived from proprietary transactions from nonfinancial
feeder systems and accruals made for major items such as payroll expenses, accounts payable, Federal Employees’
Compensation Act (FECA) liabilities, and revenue. Some of the sub-entity level trial balances may reflect known abnormal
balances resulting largely from business and system processes. At the consolidated NWCF level, these abnormal balances
may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the extent that the
abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the conversion of the DON’s legacy systems to Navy ERP which is designed
to modernize and standardize Navy’s business practices. Navy ERP was developed utilizing the USSGL account structure
to better comply with applicable financial management requirements. Until all NWCF financial and nonfinancial feeder
systems and processes are updated to collect and report financial information as required by USGAAP, financial data will be
derived from proprietary transactions, data from nonfinancial feeder systems, and accruals.

The preparation of the financial statements requires management to make certain estimates and assumptions that affect
the reported amounts of assets and liabilities and the reported amounts of revenue and expenses during the reporting
period. Actual results could differ from those estimates.

1.E.	Revenues and Other Financing Sources
Depot Maintenance NWCF activities recognize revenue according to the percentage of completion method. Supply
Management NWCF activities recognize revenue from the sale of inventory items. Research and Development NWCF
activities recognize revenue according to the percentage of completion method or as actual costs are incurred and billed.
Base Support NWCF activities recognize revenue at the time service is rendered. Transportation NWCF activities
recognize revenue on either a reimbursable or per diem basis. The majority of per diem projects are billed and collected
in the month services are rendered. The remaining per diem projects accrue revenue in the month the services are
rendered. For reimbursable projects, costs and revenue are recognized in the month services are rendered.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
the amount reported in the Statement of Net Cost. The U.S. has cost-sharing agreements with countries having a mutual
or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred.
Current financial and nonfinancial feeder systems were not designed to collect and record financial information on the
full accrual accounting basis. Estimates are made for major items, such as payroll expenses, accounts payable, FECA
liabilities, and revenue. OM&S, operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the consumption method,
OM&S would be expensed when consumed. Due to system limitations, some expenditures for capital and other
long-term assets may be recognized as operating expenses. The NWCF continues to implement process and system
improvements to address these limitations.
120   Department of the Navy Fiscal Year 2013 Annual Financial Report
1.G.	Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the NWCF cannot accurately identify
intragovernmental transactions by customer because NWCF’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal accounting offices. In most cases, the buyer-side records are
adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing replacement systems
and a standard financial information structure that will incorporate the necessary elements that will enable DoD to
correctly report, reconcile, and eliminate intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the
United States Government”, provide guidance for reporting and reconciling intragovernmental balances. While NWCF
is unable to fully reconcile intragovernmental transactions with all Federal agencies, NWCF is able to reconcile balances
pertaining to FECA transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The NWCF’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to Federal agencies. The NWCF’s financial statements
do not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, NWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The NWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and
the Department of State’s financial service centers process the majority of the NWCF’s cash collections, disbursements,
and adjustments worldwide. Each disbursing station prepares monthly reports that provide information to the U.S.
Treasury on checks issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis DFAS performs a reconciliation between NWCF’s
FBWT and the U.S. Treasury.

1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of NWCF which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions.

1.K.	Accounts Receivable
Accounts receivable from other Federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. In accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities, the methodology for losses
due to uncollectible amounts are based on an individual account analysis and/or group analysis. The analysis is based on
three years of receivable data. This data is used to determine the historical percentage of collections in each age category
of receivables. The NWCF does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in accordance with dispute
resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual
Part 2, Chapter 4700, Appendix 10, “Intragovernmental Business Rules”.




                                                                                              Navy Working Capital Fund   121
1.L.	 Inventories and Related Property
The NWCF values approximately 99% of its resale inventory using the Moving Average Cost (MAC) method. The
NWCF reports the remaining 1% of resale inventories at an approximation of historical cost using Latest Acquisition
Cost (LAC) adjusted for holding gains and losses. The LAC method is used because legacy inventory systems were
designed for materiel management rather than accounting. Materiel is a unique term that relates to military force
management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair
parts, and support equipment. Although these systems provide visibility and accountability over inventory items, they do
not maintain historical cost data necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS)
No. 3, Accounting for Inventory and Related Property. Additionally, these systems cannot produce financial transactions
using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). The
NWCF is continuing to transition the balance of the inventories to the MAC method through the implementation
of Navy ERP. Most transitioned balances, however, were not base-lined to auditable historical cost and remain
noncompliant with SFFAS No. 3.

The NWCF manages only military or government-specific materiel under normal conditions. Items commonly used
in and available from the commercial sector are not managed in NWCF’s materiel management activities. Operational
cycles are irregular and the military risks associated with stock-out positions have no commercial parallel. The NWCF
holds materiel based on military need and support for contingencies. The DoD is currently developing a methodology
to be used to account for “inventory held for sale” and “inventory held in reserve for future sale” under the provisions of
SFFAS No. 3, Accounting for Inventory and Related Property.

Related property includes OM&S. NWCF OM&S is categorized as operating material and supplies held for use. The
OM&S is valued at LAC. The NWCF uses both the consumption method and the purchase method of accounting for
OM&S. Items that are centrally managed and stored, such as engines, are generally recorded using the consumption
method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption
method, NWCF uses the purchase method. Under this method, material and supplies are expensed when purchased.
During FY 2013 and FY 2012, NWCF expensed significant amounts using the purchase method because the systems
could not support the consumption method or management deemed that the item was in the hands of the end user. This
is a material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in
place, these items will be accounted for under the consumption method of accounting.

The NWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable value of $0 pending
development of an effective means of valuing such material.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by NWCF. This inventory is retained to support military or national contingencies. Inventory held for repair
is damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items
rather than to procure them. The NWCF often relies on weapon systems and machinery no longer in production and
held for repair. As a result, NWCF supports a process that encourages the repair and rebuilding of weapon systems
and machinery. This repair cycle is essential to maintaining a ready, mobile, and armed military force. Work in process
balances include (1) costs related to the production or servicing of items, including direct material, labor, applied
overhead; (2) the value of finished products or completed services that are yet to be placed in service; and (3) munitions
in production and depot maintenance work with its associated costs incurred in the delivery of maintenance services.

1.M.	General Property, Plant and Equipment
Property, Plant and Equipment (PP&E) consists of two categories: General PP&E, and Stewardship PP&E. Military
Equipment (a classification of General PP&E), Heritage Assets and Stewardship Land (classifications of Stewardship
PP&E) are reported on the financial statements of the DON. The NWCF classifies all PP&E assets in the General
PP&E category.

The DoD’s General PP&E capitalization threshold is $100 thousand except for real property, which is $20 thousand. The
NWCF has not fully implemented the threshold for real property: therefore, NWCF is primarily using the capitalization
threshold of $100 thousand for General PP&E, and most real property.

General PP&E assets are capitalized in accordance with SFFAS No. 6, as amended by SFFAS Nos. 10, 23, and 35 when
an asset has a useful life of two or more years and when the acquisition cost equals or exceeds DoD’s capitalization

122   Department of the Navy Fiscal Year 2013 Annual Financial Report
threshold. SFFAS 35 amends SFFAS 6 permitting the use of estimated PP&E values when historical cost information
is not available. The DoD also requires the capitalization of improvements to existing General PP&E assets if the
improvements equal or exceed the capitalization threshold for General PP&E and extend the useful life or increase
the size, efficiency, or capacity of the asset. The NWCF depreciates all General PP&E, other than land, on a straight-
line basis.

When it is in the best interest of the government, the NWCF provides government property to contractors to complete
contract work. The NWCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, Federal accounting standards require that it be reported on NWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting in accordance with Federal Acquisition
Regulations (FAR). The DoD requires NWCF to maintain, in their property systems, information on all property
furnished to contractors. These actions are structured to capture and report the information necessary for compliance
with Federal accounting standards. The NWCF has not fully implemented this policy primarily due to system limitations.

NWCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E whether
they meet the definition of any other PP&E category.

1.N.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as prescribed in
SFFAS No. 1, Accounting for Selected Assets and Liabilities, is to record advances or prepayments in accordance with
USGAAP. As such, payments made prior to the receipt of goods and services should be reported as an asset on the
Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods and services are
received. The NWCF has not implemented this policy primarily due to system limitations.

1.O.	Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the rental of
equipment and operating facilities are classified as either capital or operating leases. When a lease is essentially equivalent
to an installment purchase of property (a capital lease), and the value equals or exceeds the current capitalization
threshold, NWCF records the applicable asset as though purchased, with an offsetting liability, and depreciates it. The
NWCF records the asset and the liability at the lesser of the present value of the rental and other lease payments during
the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The
discount rate for the present value calculation is either the lessor’s implicit interest rate or the government’s incremental
borrowing rate at the inception of the lease. The NWCF, as the lessee, receives the use and possession of leased property,
for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are expensed over the lease
term as they become payable.

Office space leases entered into by NWCF are the largest component of operating leases and are based on costs gathered
from existing leases, General Services Administration (GSA) bills, and interservice support agreements. Future year
projections use the Consumer Price Index.

1.P.	 Other Assets
Other assets include non-Federal advances and prepayments, military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on NWCF’s Balance Sheet. Contract
financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress. The NWCF conducts business with commercial contractors under
two primary types of contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, NWCF may provide financing payments. Contract financing payments are
defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance
of supplies or services by the Government. Contract financing payments clauses are incorporated in the contract terms
                                                                                                Navy Working Capital Fund   123
and conditions and may include advance payments, performance-based payments, commercial advances and interim
payments, progress payments based on cost, and interim payments under certain cost reimbursement contracts. It is
DoD policy to record certain contract financing payments as other assets. The NWCF has not fully implemented this
policy primarily due to system limitations.

Due to inconsistencies in the posting logic for non-Federal Advances and Prepayments, NWCF is noncompliant with the
Federal Financial Management Improvement Act of 1996 (FFMIA),which requires agencies to comply with the Federal
financial management systems requirements, standards promulgated by the Federal Accounting Standards Advisory Board
(FASAB), and the USSGL at the transaction level.

1.Q.	Contingencies and Other Liabilities
The DON is party to various administrative proceedings, legal actions, and claims. Under SFFAS No. 5, Accounting for
Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from
Litigation, the Balance Sheet should include estimated liabilities for these items, when an adverse decision is probable,
reasonably possible, and estimable. When the amount of the potential loss cannot be estimated, or the likelihood of an
unfavorable outcome is remote, the contingency is not disclosed.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility of incurring a loss or additional losses. The NWCF’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and
vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for the DON NWCF assets. Consistent with SFFAS
No. 6, “Accounting for Property, Plant and Equipment”, recognition of an anticipated environmental liability begins
when the asset is placed into service. The DON NWCF adheres to the DoD’s policy, which is consistent with SFFAS
No. 5 Accounting for Liabilities of Federal Government, and states that non-environmental disposal liabilities are
recognized when management decides to dispose of an asset. The NWCF Environmental Liabilities are reported under
the DON.

1.R.	Accrued Leave
Military leave, compensatory and annual leave earned by civilians, but not yet used, is reported as accrued liabilities. The
accrued balance is adjusted annually to reflect current pay rates. Any portions of the accrued leave, for which funding is
not available, are recorded as an unfunded liability. Sick leave for civilians is expensed as taken.

1.S.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.T.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury. Supported disbursements and collections may be evidenced by the availability of corroborating documentation
that would generally support the summary level adjustments made to accounts payable and receivable. Both supported
and unsupported adjustments may have been made to the NWCF Accounts Payable and Receivable trial balances prior
to validating underlying transactions required to establish the Accounts Payable/Receivable. As a result, misstatements of
reported Accounts Payable and Receivables are likely present in the NWCF financial statements.



124   Department of the Navy Fiscal Year 2013 Annual Financial Report
Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally unable to
determine whether undistributed disbursements and collections should be applied to Federal or non-Federal accounts
payables/receivables at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate supported
undistributed disbursements and collections between Federal and non-Federal categories based on the percentage
of distributed federal and nonfederal accounts payable and accounts receivable. Both supported and unsupported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.

1.U.	Federal Employee and Veteran Benefits
For financial reporting purposes, the DON’s actuarial liability for workers’ compensation benefits is developed by the
Department of Labor and provided to the DON at the end of each fiscal year. Military retirement is accounted for
in the audited financial statements of the Military Retirement fund; as such, NWCF does not record any liabilities or
obligations for pensions or healthcare retirement benefits.

     Note 2.	 Nonentity Assets

                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                 2013                         2012
Accounts Receivable with the Public                                       $             10,285     $                    8,888

Total Entity Assets                                                                 28,788,679                    26,800,934

Total Assets                                                              $         28,798,964     $              26,809,822

Nonentity assets are assets for which the NWCF maintains stewardship accountability and reporting responsibility, but
are not available for the NWCF’s normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The nonentity non-Federal accounts receivable amount represents interest, penalties, fines and administrative fees that
will be remitted to the U.S. Treasury.

     Note 3.	 Fund Balance with Treasury

                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                 2013                         2012
Fund Balances
  Revolving Funds                                                         $          1,481,951     $               1,334,582

Status of Fund Balance with Treasury
                                                    As of September 30
                                                 (Amounts in thousands)
                                                                                 2013                         2012
Unobligated Balance
  Available                                                               $          3,580,527     $               3,694,934
  Unavailable                                                                           54,761                        39,563

Obligated Balance not yet Disbursed                                                 12,937,256                    12,494,009

Non-FBWT Budgetary Accounts                                                         (15,090,593)                 (14,893,924)

Total                                                                     $          1,481,951     $               1,334,582

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances.
The balances reflect the budgetary authority remaining for disbursement against current and future obligations.

                                                                                            Navy Working Capital Fund     125
Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable amount primarily relates to Research and
Development funding.

Obligated Balance not yet disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of contract authority, accounts
receivable, and unfilled orders without advance from customers for the NWCF. Due to the DON systems inability to
segregate Budgetary FBWT balances, Non-FBWT Budgetary Accounts are used to reconcile the Status of FBWT.

Other
                                                                             As of September 30
                                                                          (Amounts in thousands
                                                                                                               2013                         2012
Fund Balances Per Treasury Versus Agency
  Fund Balance per Treasury                                                                          $              1,481,951      $             1,334,583
  Fund Balance per the DON                                                                                          1,481,951                    1,334,582

Reconciling Amount                                                                                   $                        -    $                       1


      Note 4.	 Accounts Receivable

                                                                             As of September 30
                                                                          (Amounts in thousands
                                                                                                                      2013
                                                                                                              Allowance For Estimated   Accounts Receivable,
                                                                                         Gross Amount Due          Uncollectibles               Net
Intragovernmental Receivables                                                        $            1,317,180    $                N/A     $        1,317,180
Nonfederal Receivables (From the Public)                                                             68,466                  (3,637)                64,829

Total                                                                                $            1,385,646    $             (3,637)    $        1,382,009

                                                                             As of September 30
                                                                          (Amounts in thousands)
                                                                                                                      2012
                                                                                                              Allowance For Estimated   Accounts Receivable,
                                                                                         Gross Amount Due          Uncollectibles               Net
Intragovernmental Receivables                                                        $            1,083,381    $                N/A     $        1,083,381
Nonfederal Receivables (From the Public)                                                             54,760                 (11,434)                43,326

Total                                                                                $            1,138,141    $            (11,434)    $        1,126,707


The accounts receivable represent the NWCF’s claim for payment from other entities. Intragovernmental Receivables
primarily represents amounts due from other Federal agencies for reimbursable work performed pursuant to the
Economy Act and other statutory authority. Claims with other Federal agencies are resolved in accordance with the
Intragovernmental Business Rules. Non-Federal Accounts Receivable is mainly held with Naval Facilities Engineering
Command and Naval Supply Systems Command. Since the DON is at risk of not collecting on these public accounts
receivable, the DON is recognizing an allowance for uncollectible amounts. The methodology used in determining the
allowance amount is discussed in Note 1.K.

The DON is currently working on an effort to drive compliance with OMB Circular A-11, Section 20.4(b)(4). Non-
compliance results in unsupported departmental level adjustments which negatively impacts achievement of the DON’s
audit readiness goals for its Statement of Budgetary Resources. The DON is partnering with DFAS to clarify guidance,
resolve funding issues and standardize business practices. In addition, the DON and the DFAS are aggressively pursuing
collection mechanisms for amounts currently due from the public.

126     Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 5.	Other Assets

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                  2013                         2012
Intragovernmental Other Assets
    Advances and Prepayments                                               $                 46     $                     10

Outstanding Contract Financing Payments                                                 627,322                       521,037
Advances and Prepayments                                                              1,433,278                     1,105,100
Other Assets (With the Public)                                                              927                         2,311
Total Nonfederal Other Assets                                                         2,061,527                     1,628,448

Total                                                                      $          2,061,573     $               1,628,458

Non-Federal Other Assets - Outstanding Contract Financing Payments consist of contract terms and conditions for
certain types of contract financing payments conveying specific rights to the NWCF that protect the contract work
from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in
bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work has
transferred to the Federal Government. The Federal Government does not have the right to take the work, except as
provided in contract clauses related to termination or acceptance, and NWCF is not obligated to make payment to the
contractor until delivery and acceptance of a satisfactory product. As a result, cash outlays and payments are made by
the NWCF to contractors, grantees, or others to cover the recipients’ anticipated and periodic expenses before those
expenses are incurred. Outstanding Contract Financing Payments are reduced when goods and services are received,
contract terms are met, progress is made on a contract, or prepaid expenses expire.

The balance of Outstanding Contract Financing Payments includes $584.2 million in contract financing payments and an
additional $43.1 million in estimated future funded payments to contractors upon delivery and Government acceptance
of a satisfactory product. See additional discussion in Note 13, Other Liabilities.

Due to reclassification of intragovernmental activity and inaccurate posting logic, non-Federal Advances and
Prepayments are recognized within the NWCF.

Non-Federal Other Assets - Advances and Prepayments increased primarily due to Navy Supply Management
reclassification of Federal Advances and Prepayments to non-Federal Advances and Prepayments in order to reconcile
seller side trading partner data. The Navy ERP proprietary posting logic is not correctly relieving advances which caused
the Federal advances account to be overstated due to the posting logic’s noncompliance with USSGL. The issue has been
logged in the Navy ERP PMO Quality Center and NWCF will continue to work on a resolution.

Non-Federal Other Assets consists of prepayments made to vendors and travel advances made to employees.

     Note 6.	 Cash and Other Monetary Assets

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                  2013                         2012
Cash                                                                       $             11,664     $                    295

NWCF Cash consists of coins, paper currency and readily negotiable instruments; such as money orders, checks, and
bank drafts on hand or in transit for deposit.




                                                                                             Navy Working Capital Fund    127
      Note 7.	Inventory and Related Property

                                                                              As of September 30
                                                                           (Amounts in thousands)
                                                                                                               2013                            2012
Inventory, Net                                                                                         $          21,504,495         $            20,308,607
Operating Materials & Supplies, Net                                                                                  200,921                         176,693

Total                                                                                                  $           21,705,416        $            20,485,300

Inventory, Net
                                                                              As of September 30
                                                                           (Amounts in thousands)
                                                                                                                  2013
                                                                            Inventory Gross Value Revaluation Allowance       Inventory, Net   Valuation Method
Inventory Categories
   Available and Purchased for Resale                                        $      8,945,861      $        (987,112)     $        7,958,749     MAC, LAC
   Held for Repair                                                                 13,709,579               (194,511)             13,515,068     LAC, MAC
   Excess, Obsolete, and Unserviceable                                                667,405               (667,405)                      -       NRV
   Work in Process                                                                     30,679                      -                  30,679        AC

Total                                                                        $     23,353,524      $       (1,849,028)    $       21,504,496

                                                                              As of September 30
                                                                           (Amounts in thousands)
                                                                                                                  2012
                                                                            Inventory Gross Value Revaluation Allowance       Inventory, Net   Valuation Method
Inventory Categories
   Available and Purchased for Resale                                        $      8,285,011      $        (934,683)     $        7,350,328     LAC, MAC
   Held for Repair                                                                 13,086,366               (159,157)             12,927,209     LAC, MAC
   Excess, Obsolete, and Unserviceable                                                537,735               (537,735)                      -       NRV
   Work in Process                                                                     31,070                      -                  31,070        AC

Total                                                                        $     21,940,182      $       (1,631,575)    $       20,308,607

Legend for Valuation Methods:
LAC = Latest Acquisition Cost	                              NRV = Net Realizable Value	        MAC = Moving Average Cost
AC = Actual Cost			                                         LCM = Lower of Cost or Market

General Composition of Inventory
Inventory available and purchased for resale includes consumable spare and repair parts as well as reparable items owned
and managed by the NWCF. Inventory includes all material available for customer purchase. Inventory is assigned to
categories based upon condition of the inventory items, or in the case of raw material and work-in-process based upon
stage of fabrication. Inventory held for repair consists of damaged material that requires repair to make it usable. Excess
inventory includes scrap materials or items that are uneconomical to repair and are awaiting disposal. Work in process
includes costs related to the production or servicing of items, including direct material, direct labor, applied overhead,
and other direct costs. Work in process also includes the value of finished products or completed services pending the
submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of Inventory Held for “Future Use”. Beginning with Fiscal
Year (FY) 2012 the NWCF will report this balance separate from Inventory Available and Purchased for Resale. The
NWCF currently has $609.9 million and $0.5 million reported from 4th Quarter, FY 2013 and 2012, respectively in
Inventory Held for Future Use, Net.

Inventory Valuation
Navy’s inventory is reported using two methods: the approximation of historical cost method and Moving Average
Cost (MAC). The approximation of historical cost is calculated by using the Latest Acquisition Cost (LAC) less the
allowance for holding gains and losses. MAC is calculated each time costs are incurred for a purchase or a repairable

128     Department of the Navy Fiscal Year 2013 Annual Financial Report
item is remanufactured by dividing the cost of total units available at the time. Legacy inventory systems are designed
to capture materiel management information rather than accounting data. Although these systems provide visibility
and accountability over inventory items, they do not maintain historical cost data necessary to comply with the
Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and Related Property.
The OUSD (C) Cost of Goods Sold Model revalued inventory causing NWCF to be non-compliant with SFFAS No. 3.
The Navy Enterprise Resource Planning System (ERP) values inventory at MAC in accordance with U.S. Generally
Accepted Accounting Principles (USGAAP). As of 4th Quarter, FY13, 99% of NWCF inventory was valued at MAC.
For compliance, the revaluation of the inventory to MAC occurred in the field accounting system to be compliant with
SFFAS No. 3.

Restrictions on Use of Inventory
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

  1) 	 Distributions without reimbursement are made when authorized by Department of Defense (DoD) directives;
  2) 	 War reserve materiel in the amount of $54.2 million includes repair items that are considered restricted; and
  3) 	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local governments; private
       parties; and contractors in accordance with current policies and guidance or at the direction of the President.

There are no known restrictions on disposition of inventory as related to environmental or other liabilities.

Operating Materials and Supplies, Net
                                                      As of September 30
                                                   (Amounts in thousands)
                                                                                           2013
                                                      OM&S Gross Value     Revaluation Allowance       OM&S, Net          Valuation Method
OM&S Categories
   Held for Use                                      $        200,912       $                 -    $          200,912       LAC, MAC
   Held for Repair                                                  8                         -                     -       LAC, MAC
Total                                                $        200,920       $                 -    $          200,912

                                                      As of September 30
                                                   (Amounts in thousands)
                                                                                           2012
                                                      OM&S Gross Value     Revaluation Allowance       OM&S, Net          Valuation Method
OM&S Categories
   Held for Use                                      $        176,693       $                 -    $          176,693       LAC, MAC
   Held for Repair                                                  -                         -                     -       LAC, MAC
Total                                                $        176,693       $                 -    $          176,693

Legend for Valuation Methods:
LAC = Latest Acquisition Cost	     MAC = Moving Average Cost

Federal Accounting Standards require disclosure of the amount of OM&S Held for “Future Use.” Beginning with Fiscal
Year (FY) 2012 the NWCF will report this balance separate from OM&S Held for Use. The NWCF reports that
$0.2 and $0.4 million of OM&S is Held for Future Use and is included in the “held for use” category as of September 30,
2013 and 2012, respectively. These items are not readily available in the market and there is a more than a remote
chance that they will eventually be needed.




                                                                                                       Navy Working Capital Fund      129
      Note 8.	General PP&E, Net

                                                                                        As of September 30
                                                                                   (Amounts in thousands)
                                                                                                                     2013
                                                                        Depreciation/                                           (Accumulated
                                                                        Amortization                                            Depreciation/
                                                                          Method         Service Life   Acquisition Value       Amortization)         Net Book Value
Major Asset Classes
   Land                                                                     N/A             N/A         $         31,272    $              N/A    $           31,272
   Buildings, Structures, and Facilities                                    S/L          20 or 40              6,735,400            (5,393,651)            1,341,749
   Software                                                                 S/L          2-5 or 10               368,643              (299,647)               68,996
   General Equipment                                                        S/L           5 or 10              2,635,761            (2,146,907)              488,854
   Construction-in-Progress (Excludes
   Military Equipment)                                                      N/A             N/A                  225,480                   N/A               225,480
   Other                                                                    N/A             N/A                        -                     -                     -
Total General PP&E                                                                                      $      9,996,556    $       (7,840,205)   $        2,156,351

                                                                                        As of September 30
                                                                                   (Amounts in thousands)
                                                                                                                     2012
                                                                        Depreciation/                                           (Accumulated
                                                                        Amortization                                            Depreciation/
                                                                          Method         Service Life   Acquisition Value       Amortization)         Net Book Value
Major Asset Classes
   Land                                                                     N/A             N/A         $         31,272    $              N/A    $           31,272
   Buildings, Structures, and Facilities                                    S/L          20 or 40              6,684,421            (5,244,382)            1,440,039
   Software                                                                 S/L          2-5 or 10               364,656              (287,331)               77,325
   General Equipment                                                        S/L           5 or 10              2,603,496            (2,118,744)              484,752
   Construction-in-Progress (Excludes
   Military Equipment)                                                      N/A             N/A                  201,078                   N/A               201,078
   Other                                                                    N/A             N/A                       14                     -                    14
Total General PP&E                                                                                      $      9,884,937    $       (7,650,457)   $        2,234,480

Legend for Valuation Methods:
S/L = Straight Line	    N/A = Not Applicable

General Composition of General Property, Plant and Equipment
NWCF General Property, Plant and Equipment (PP&E) consists of buildings and structures, lease hold improvements,
software, general equipment and Construction-in-Progress. General PP&E, Other consists of assets awaiting disposal.

General Property, Plant and Equipment Valuation
The acquisition cost for General PP&E is captured and maintained in the applicable accountable property systems of
record. The methodology used in capitalizing General PP&E assets is discussed in Note 1.N.

Restrictions on Use of Property, Plant and Equipment
There are no known restrictions on the use or convertibility of PP&E.




130   Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 9.	Liabilities Not Covered by Budgetary Resources

                                                       As of September 30
                                                   (Amounts in thousands)
                                                                                        2013                             2012
Intragovernmental Liabilities
    Other                                                                      $                161,761       $                    168,029

Federal Employee and Veteran Benefits                                                           774,032                            757,427

Total Liabilities Not Covered by Budgetary Resources                           $                935,793       $                    925,456

Total Liabilities Covered by Budgetary Resources                               $              5,482,267       $               4,845,833

Total Liabilities                                                              $              6,418,060       $               5,771,289

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided. These include liabilities resulting from the receipt of goods or services in the
current or prior periods, or the occurrence of eligible events in the current or prior periods, for which revenues or
other sources of funds necessary to pay the liabilities have not been made available through Congressional appropriations
or earnings of the entity.

Intragovernmental Liabilities – Other consists of the unfunded portion of Federal Employees’ Compensation Act (FECA)
liability due to the Department of Labor and unemployment compensation due to applicable States. These liabilities will
be funded by future year’s budgetary resources.

Federal Employee and Veteran Benefits consist of various employee actuarial liabilities not due and payable during the
current fiscal year. These liabilities represent FECA Actuarial liabilities that will be funded in future periods. Refer to
Note 14, Federal Employee and Veteran Benefits, for additional details and disclosures.

     Note 10.	 Accounts Payable

                                                       As of September 30
                                                   (Amounts in thousands)
                                                                                                2013
                                                                                        Interest, Penalties, and
                                                                   Accounts Payable       Administrative Fees               Total
Intragovernmental Payables                                     $              192,102   $                  N/A     $            192,102
Nonfederal Payables (to the Public)                                         3,741,192                        -                3,741,192
Total                                                          $            3,933,294   $                    -     $          3,933,294

                                                       As of September 30
                                                   (Amounts in thousands)
                                                                                                2012
                                                                                        Interest, Penalties, and
                                                                   Accounts Payable       Administrative Fees               Total
Intragovernmental Payables                                     $              184,615   $                  N/A     $            184,615
Nonfederal Payables (to the Public)                                         3,015,987                        -                3,015,987
Total                                                          $            3,200,602   $                    -     $          3,200,602

Accounts Payable includes amounts owed to Federal and non-Federal entities for goods and services received by NWCF.
The NWCF’s systems do not track intra-governmental transactions by customer at the transaction level. As a result, in
the intra-governmental eliminations process, buyer-side accounts payable are adjusted to agree with supportable intra-
agency seller-side accounts receivable. This is accomplished by (1) reclassifying amounts between Federal and non-
Federal cost categories, (2) accruing additional accounts payable and expenses, and (3) applying both supported and
unsupported undistributed disbursements at the reporting entity level.



                                                                                                       Navy Working Capital Fund       131
      Note 11.	Environmental Liabilities and Disposal Liabilities

The NWCF Environmental Liabilities are reported under the DON financial statements.

      Note 12.	Other Liabilities

                                                                           As of September 30
                                                                        (Amounts in thousands)
                                                                                                                   2013
                                                                                    Current Liability        Noncurrent Liability       Total
Intragovernmental
    Advances from Others                                                           $             142,441      $               -     $       142,441
    FECA Reimbursement to the Dept. of Labor                                                      74,364                 87,398             161,762
    Custodial Liabilities                                                                         10,285                      -              10,285
    Employer Contribution and Payroll Taxes Payable                                               27,555                      -              27,555

Total Intragovernmental                                                                          254,645                 87,398             342,043

Accrued Funded Payroll and Benefits                                                             1,043,768                     -           1,043,768
Advances from Others                                                                              276,892                     -             276,892
Deposit Funds and Suspense Accounts                                                                    99                     -                  99
Contract Holdbacks                                                                                  1,647                     -               1,647
Employer Contribution and Payroll Taxes Payable                                                     3,212                     -               3,212
Contingent Liabilities                                                                                                   43,088              43,088
Other Liabilities                                                                                     (15)                    -                 (15)

Total Other Liabilities                                                            $            1,580,248     $         130,486     $     1,710,734

                                                                           As of September 30
                                                                        (Amounts in thousands)
                                                                                                                   2012
                                                                                    Current Liability        Noncurrent Liability       Total
Intragovernmental
    Advances from Others                                                           $             331,098      $               -     $       331,098
    FECA Reimbursement to the Dept. of Labor                                                      73,769                 94,261             168,030
    Employer Contribution and Payroll Taxes Payable                                               23,413                      -              23,413

Total Intragovernmental                                                                          437,168                 94,261             531,429

Accrued Funded Payroll and Benefits                                                             1,039,118                     -           1,039,118
Advances from Others                                                                              206,870                     -             206,870
Deposit Funds and Suspense Accounts                                                                    60                     -                  60
Contract Holdbacks                                                                                    838                     -                 838
Employer Contribution and Payroll Taxes Payable                                                     5,005                     -               5,005
Contingent Liabilities                                                                                  -                26,214              26,214
Other Liabilities                                                                                   3,726                     -               3,726

Total Other Liabilities                                                            $            1,692,785     $         120,475     $     1,813,260

Contingent Liabilities includes $43.1 million related to contracts authorizing progress payments based on cost as defined
in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractor’s work
vest with the Federal Government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as
the rights of ownership. The NWCF is under no obligation to pay the contractor for amounts greater than the amounts
of progress payments authorized in the contract until delivery and government acceptance. Due to the probability the
contractors will complete their efforts and deliver satisfactory products, and because the amount of contractor costs
incurred but yet unpaid are estimable, the NWCF has recognized a contingent liability for the estimated unpaid costs
that are considered conditional for payment pending delivery and government acceptance.

132   Department of the Navy Fiscal Year 2013 Annual Financial Report
Total contingent liabilities for progress payments based on cost represent the difference between the estimated
costs incurred to date by contractors and amounts authorized to be paid under progress payments based on cost
provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated
progress payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated
progress payments based on cost is deducted from the estimated total contractor-incurred costs to determine the
contingency amount.

The abnormal balance in non-Federal Other Liabilities is under investigation. It is likely related to ongoing general
ledger posting issues to be addressed through audit readiness efforts.

     Note 13.	 Commitments and Contingencies

The NWCF is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests, which may ultimately result in settlements or decisions
adverse to the Federal Government. These proceedings and actions arise in the normal course of operations and their
ultimate disposition is unknown. The NWCF has accrued contingent liabilities for legal actions where the Office of
General Counsel (OGC) considers an adverse decision probable and the amount of the loss is measurable. In the event
of an adverse judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment
Fund. The NWCF records contingent liabilities in Note 12, Other Liabilities.

For FY 2013, NWCF materiality threshold for reporting litigation, claims, or assessments is $3.7 million. The NWCF
OGC conducts a review of litigation and claims threatened or asserted involving NWCF to which the OGC attorneys
devoted substantial attention in the form of legal consultation or representation.

The NWCF currently has 4 cases that meet the existing FY 2013 materiality threshold. NWCF legal counsel was unable
to express an opinion concerning the likely outcome on 2 of 4 cases.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may result in a future outflow of expenditures.

     Note 14.	 Federal Employee and Veteran Benefits

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                              2013
                                                                                                    (Less: Assets
                                                                              Assumed              Available to Pay
                                                         Liabilities      Interest Rate (%)           Benefits)           Unfunded Liabilities
Other Actuarial Benefits
   FECA                                              $         774,032                         $                      -   $           774,032

                                                     As of September 30
                                                  (Amounts in thousands)
                                                                                              2012
                                                                                                    (Less: Assets
                                                                              Assumed              Available to Pay
                                                         Liabilities      Interest Rate (%)           Benefits)           Unfunded Liabilities
Other Actuarial Benefits
   FECA                                              $         757,427                         $                      -   $           757,427

The NWCF reports an actuarial liability for the Federal Employee’s Compensation Act (FECA). FECA provides Federal
employees injured in the performance of duty with workers’ compensation benefits, which include wage-loss benefits
for total or partial disability, monetary benefits for permanent loss of use of a schedule member, medical benefits, and
vocational rehabilitation. FECA also provides survivor benefits to eligible dependents if the injury causes the employee’s
death. FECA is administered by the Office of Workers’ Compensation Programs.




                                                                                                          Navy Working Capital Fund        133
The obligations and liabilities for military pensions, military retirement health benefits, military Medicare-eligible
retiree benefits, the Voluntary Separation Incentive Program, and the DoD Education Benefits Fund are reported at the
Department level.

Actuarial Cost Method Used
The NWCF’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and
provided to NWCF only at the end of each fiscal year.

The estimate for future workers’ compensation benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments related to that period.

      Note 15.	 Disclosures Related to the Statement of Net Cost

                                                                              As of September 30
                                                                           (Amounts in thousands)
                                                               Intragovernmental Costs and Exchange Revenue
                                                                                                        2013                 2012
Intragovernmental Costs                                                                           $         5,348,164    $       4,932,504
Nonfederal Cost                                                                                            23,609,017           30,538,293
Total Costs                                                                                       $        28,957,181    $      35,470,797

Intragovernmental Earned Revenue                                                                   $      (24,818,135)   $     (25,935,532)
Nonfederal Revenue                                                                                         (1,772,033)          (7,490,206)
Total Revenue                                                                                      $      (26,590,168)   $     (33,425,738)

Total Net Cost                                                                                     $        2,367,013    $       2,045,059

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government
that are supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information
related to the amount of output or outcome for a given program or organization administered by a responsible reporting
entity. The Department of Defense’s (DoD) current processes and systems do not capture and report accumulated cost
for major programs based upon the performance measures as required by the Government Performance and Results
Act. The DoD is in the process of reviewing available data and developing a cost reporting methodology as required by
the Statement of Federal Financial Accounting Standards (SFFAS) No. 4. “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a non-Federal entity. Large
balances in the Public costs and revenue lines are a result of the current process in Navy Enterprise Resource Planning.
The process produces inflated gains and offsetting losses on separate financial statement and note schedule lines,
however, the impact on Net Cost is reduced when the gains and losses are combined. The Navy is currently working to
resolve the business process that results in daily postings to the gain and loss accounts for in-transit inventory.

The NWCF’s financial management systems do not track intragovernmental transactions by customer at the
transactional level. Buyer-side expenses are adjusted to agree with internal seller-side revenues. Expenses are generally
adjusted by reclassifying amounts between Federal and non-Federal expenses. Intradepartment revenues and expenses
are then eliminated.




134   Department of the Navy Fiscal Year 2013 Annual Financial Report
     Note 16.	 Disclosures Related to the Statement of Changes in Net
               Position

The Statement of Changes in Net Position (SCNP) reports the change in net position during the reporting
period. Net position is affected by changes to its two components: Cumulative Results of Operations and
Unexpended Appropriations.

     Note 17.	 Disclosures Related to the Statement of Budgetary
               Resources

                                                         As of September 30
                                                      (Amounts in thousands)
                                                                                          2013                            2012
Net Amount of Budgetary Resources Obligated for Undelivered
Orders at the End of the Period                                                $               9,498,826       $               9,351,801

Apportionment Categories of Obligations Incurred
Obligations Incurred – Direct		         Category A 			                             $0
Obligations Incurred – Direct		         Category B			                              $24 million
Obligations Incurred – Reimbursable 	   Category B			                              $28.8 billion
Obligations Incurred – Reimbursable	    Exempt from Apportionment	                 $0

Other Disclosures
The Statement of Budgetary Resources includes intra-entity transactions because the statements are presented
as combined.

     Note 18.	 Reconciliation of Net Cost of Operations to Budget

                                                         As of September 30
                                                      (Amounts in thousands)
                                                                                          2013                            2012
Resources Used to Finance Activities:
   Budgetary Resources Obligated:
       Obligations incurred                                                    $             28,855,188        $              30,439,413
       Less: Spending authority from offsetting collections and
       recoveries (-)                                                                        (29,674,994)                    (31,978,984)
       Net obligations                                                                          (819,806)                     (1,539,571)
   Other Resources:
       Transfers in/out without reimbursement (+/-)                                              461,027                         341,583
       Imputed financing from costs absorbed by others                                           515,872                         538,390
       Other (+/-)                                                                             2,708,285                       1,664,623
       Net other resources used to finance activities                                          3,685,184                       2,544,596
Total Resources Used to Finance Activities                                     $               2,865,378       $               1,005,025

Resources Used to Finance Items not Part of the Net Cost of
Operations:
   Change in budgetary resources obligated for goods, services, and
   benefits ordered but not yet provided:
       Undelivered Orders (-)                                                  $                   (147,026)   $                (420,335)
       Unfilled Customer Orders                                                                     893,775                    1,587,250
   Resources that fund expenses recognized in prior periods (-)                                      (8,878)                      (2,565)
   Budgetary offsetting collections and receipts that do not affect Net Cost
   of Operations                                                                                       -                               -
   Resources that finance the acquisition of assets (-)                                       (5,376,250)                     (7,729,627)
   Other resources or adjustments to net obligated resources that do not
   affect Net Cost of Operations:
       Other (+/-)                                                                            (3,169,313)                     (2,006,205)
Total resources used to finance items not part of the Net Cost of
Operations                                                                     $              (7,807,692)      $              (8,571,482)
Total resources used to finance the Net Cost of Operations                     $              (4,942,314)      $              (7,566,457)


                                                                                                        Navy Working Capital Fund    135
                                                                           As of September 30
                                                                        (Amounts in thousands)
                                                                                                     2013                 2012
Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Period:
       Other (+/-)                                                                                          19,215               27,161
       Total components of Net Cost of Operations that will Require or
       Generate Resources in future periods                                                                 19,215               27,161
Components not Requiring or Generating Resources:
   Depreciation and amortization                                                                 $        288,436     $        303,927
   Revaluation of assets or liabilities (+/-)                                                           1,885,071            1,977,398
   Other (+/-)
       Cost of Goods Sold                                                                                8,486,903           11,011,284
       Operating Material and Supplies Used                                                                      -                    -
       Other                                                                                            (3,370,297)          (3,708,254)
   Total Components of Net Cost of Operations that will not Require or
   Generate Resources                                                                                   7,290,113            9,584,355
Total components of Net Cost of Operations that will not Require or
Generate Resources in the Current Period                                                         $      7,309,328     $      9,611,516
Net Cost of Operations                                                                           $      2,367,014     $      2,045,059

The Reconciliation of Net Cost of Operations to Budget provides information about the total resources used by the
NWCF. It is designed to explain how those resources were used to finance orders for goods and services not yet
delivered, acquire assets and liabilities, and fund the NWCF’s net cost of operations. It is intended to report the
differences and facilitate the reconciliation of accrual based amounts used in the Statement of Net Cost (SNC) and
obligation-based amounts used in the Statement of Budgetary Resources (SBR). The computations and presentation
of items in the Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary and proprietary
information in an entity’s financial management system agrees.

Due to NWCF financial system limitations, budgetary data does not agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intra-agency budgetary transactions not being eliminated:
  n	 Obligations Incurred
  n	 Less: Spending Authority from Offsetting Collections and Recoveries
  n	 Obligations Net of Offsetting Collections and Recoveries
  n	 Less: Offsetting Receipts
  n	 Net Obligations
  n	 Undelivered Orders
  n	 Unfilled Customer Orders

      Note 19.	 Disclosures Related to Incidental Custodial Collections

NWCF collected $14.3 million of incidental custodial revenues generated primarily from surcharges, interest, penalties,
fines and administrative fees. These funds are not available for use by NWCF. At the end of each fiscal year, the accounts
are closed and the balances rendered to the U.S. Treasury.




136   Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

    Navy Working Capital Fund
Required Supplementary Information




                                                              Navy Working Capital Fund   137
                                                          Navy Working Capital Fund
                                                    General Property, Plant, and Equipment
                                                 Real Property Deferred Maintenance and Repair
For FiscalYear Ended September 30, 2013
The Navy Working Capital Fund real property deferred maintenance and repair information for fiscal year ended
September 30, 2013 is reported with the Department of the Navy deferred maintenance and repair. See Department of
the Navy Required Supplementary Information.




138   Department of the Navy Fiscal Year 2013 Annual Financial Report
Department of the Navy Fiscal Year 2013 Annual Financial Report

    Navy Working Capital Fund
  Other Accompanying Information




                                                              Navy Working Capital Fund   139
               Appropriations, Funds, and Accounts Included in the Principal Statements
Reporting Entity
NavyWorking Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title
	97X4930.002

NavyWorking Capital Fund Activity Group Treasury Symbol and Title
	 97X4930.NA1*	 Depot Maintenance – Shipyardsa
	 97X4930.NA2*	 Depot Maintenance – Aviation
	97X4930.NA4A*	 Depot Maintenance – Other, Marine Corps
	 97X4930.NA3*	Ordnanceb
	 97X4930.ND*	Transportation
	 97X4930.NE*	 Base Support
	 97X4930.NH*	 Research and Development
	 97X4930.NC*	 Supply Management
	97X4930.NC2A*	 Supply Management, Marine Corps

NOTES:
* The “*” represents alpha or numeric characters which identify an activity or reporting segment of the activity group.

a Depot Maintenance, Shipyards became a part of the DON in FY 2007. The Depot Maintenance, Shipyards information
included in this report represents residual NWCF accounting.

b The Ordnance activity group became a part of the DON in FY 2000. The Ordnance information included in this
report represents residual NWCF accounting for this group.




140   Department of the Navy Fiscal Year 2013 Annual Financial Report
              A



                                                                                                   H

                              C          D
                  B                             E

                                                  G




                          F
                                                                                                    I




         Cover Credits
         A	 Marines and Sailors through the choppy waters in a combat rubber raiding craft, en route
            to their objective during boat raid exercise. (Photo By: Lance Cpl. Caleb Hoover)

         B	 First-year midshipmen, or plebes, participate in the U.S. Naval Academy’s annual
            Sea Trials. (U.S. Navy photo by Mass Communication Specialist 1st Class Chad
            Runge/Released)

         C	 Hospital Corpsmen transfer medical supplies aboard an amphibious dock landing
            ship during Pacific Partnership 2013. (U.S. Navy photo by Mass Communication
            Specialist 3rd Class Carlos M. Vazquez II/Released)

         D	 Sailors take in mooring lines as an amphibious transport dock ship Pre-
            Commissioning Unit (PCU) Anchorage (LPD 23) gets underway. (U.S. Navy photo
            by Mass Communication Specialist 1st Class James R. Evans/Released)

         E	 A Marine Corps Cpl. embarked on an amphibious dock landing ship, gets out of a
            Navy Landing Craft Utility. (U.S. Navy photo by Mass Communication Specialist 3rd
            Class Christopher Lindahl/Released)

         F	 An aircraft carrier conducts training operations in the Atlantic Ocean. (U.S. Navy
            photo by Mass Communication Specialist 2nd Class Michael Smevog/Released)

         G	 An Electronics Technician and Ensigns act as the reconnaissance team aboard a
            littoral combat ship during a simulated small boat threat Exercise. (U.S. Navy photo
            by Mass Communication Specialist 1st Class Cassandra Thompson/Released)

         H	 An X-47B Unmanned Combat Air System (UCAS) demonstrator flies over the flight deck
            of an aircraft carrier. (U.S. Navy photo by Mass Communication Specialist 3rd Class Brian
            Read Castillo/Released)

         I	 An F/A-18C Hornet makes an arrested landing on the flight deck of an aircraft carrier. (U.S.
            Navy photo by Mass Communication Specialist Seaman Scott Fenaroli/Released)




Preparation of this report cost the Department of the Navy approximately $102,000 in Fiscal Year 2013.
                              Generated on 2013Dec03 RefID: B-A69A13F
                      20 13


                            For More Information
  Assistant Secretary of the Navy Financial Management and Comptroller
                    http://www.finance.hq.navy.mil/FMC

                                    Navy
                            http://www.navy.mil

                              Marine Corps
                          http://www.marines.mil

                                Contact Us
  An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_
                        Financial_Report@navy.mil
